Audit Report




OIG-13-026
Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
Fiscal Years 2012 and 2011 Financial Statements


December 18, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
The Alcohol and Tobacco Tax and Trade Bureau (TTB) is committed to making its Web
     Site accessible to all TTB customers and staff and creates its Web pages in
       accordance with the provisions of Section 508 of the Rehabilitation Act.

  However, the attachment to our report, TTB's FY 2012 Annual Report, does not
       conform to the Standards of Section 508 of the Rehabilitation Act.

For a copy of TTB's FY 2012 Annual Report, see TTB's Annual Reports Web page and
    for problems with accessibility, please contact TTB at TTBWebmaster@ttb.gov.

                                    Also see:

                       About TTB -Accessibility Policy Page
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF                                December 18, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR JOHN J. MANFREDA, ADMINISTRATOR
                           ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
                                    Fiscal Years 2012 and 2011 Financial Statements


            I am pleased to transmit the attached audited Alcohol and Tobacco Tax and Trade
            Bureau (TTB) financial statements for fiscal years 2012 and 2011. Under a
            contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of TTB’s financial statements
            as of September 30, 2012 and 2011 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no deficiencies in internal control over financial reporting that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit performed in accordance with generally accepted government
            auditing standards, was not intended to enable us to express, and we do not
            express, an opinion on TTB’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 14, 2012 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Alcohol and Tobacco Tax and Trade Bureau

FY 2012 Annual Report




                          a
Table of Contents
Introduction ............................................................................................................................................. i

Message from the Administrator .............................................................................................. iii

Vision, Mission, and Values......................................................................................................... v

TTB Strategic Goals and Objectives ...................................................................................... vi

TTB Office Locations ....................................................................................................................vii

Part I: Management’s Discussion and Analysis

Profile of a Bureau .................................................................................................................................. 1

Performance Summary ...................................................................................................................... 34

Financial Summary.............................................................................................................................. 44

FY 2012 Bureau Budget..................................................................................................................... 46

Bureau Challenges ............................................................................................................................... 47

Part II: Program Performance Results

Performance Overview ...................................................................................................................... 49

Summary of Collect the Revenue Performance ........................................................................ 50

Summary of Protect the Public Performance............................................................................ 55

Summary of Management and Organizational Excellence Performance ....................... 59


                                                                             a
                                                        TTB 2012 Annual Report




Message from the Chief Financial Officer ........................................................................ 67

Part III: Financial Results, Position, Condition and Auditors’ Reports

Budget Highlights by Fund Account ............................................................................................. 69

Linking Budget to Program Spending .......................................................................................... 70

Systems and Controls ......................................................................................................................... 74

Financial Statements, Accompanying Notes and Supplemental Information .............. 78

       Independent Auditors’ Reports ............................................................................................................. 79

       Financial Statements .................................................................................................................................. 87

       Notes to the Financial Statements ........................................................................................................ 93

       Required Supplementary Information (Unaudited) .................................................................. 113

       Other Accompanying Information (Unaudited) ........................................................................... 115


Part IV: Appendices

Principal Officers of TTB ................................................................................................................. 121

TTB Organization Chart................................................................................................................... 122

Connecting the Treasury and TTB Strategic Plans ............................................................... 123




                                                                              b
                                           TTB 2012 Annual Report


Introduction
Supporting the Nation’s economic recovery and ongoing prosperity is at the core of the work performed by the
Alcohol and Tobacco Tax and Trade Bureau (TTB). The Bureau’s role in permitting and regulating the alcohol
and tobacco industries ensures a fair marketplace, enhanced trade opportunities, and a level playing field for
those engaged in the manufacture and trade of these commodities. As the Nation’s excise tax authority on
alcohol and tobacco products, TTB also ensures fair and effective tax administration and enforcement in a
globalized marketplace.

As the country continues to recover from the global recession, TTB is focused on supporting the business
community it serves by reducing the burden of compliance and addressing the illicit trade that undermines
their legitimate operations. In the 10 years since TTB’s inception, the industries that the Bureau regulates
have continued to expand, evidenced by the 60 percent growth in the permit applications and registrations
that TTB receives. Annual tax revenue from the alcohol, tobacco, firearms, and ammunition industries totals
more than $23 billion annually, making TTB the third largest tax collection agency in the Federal government.
The revenue that TTB collects on these products goes toward funding national priorities.

Maintaining a responsive and effective organization requires Government agencies to look at their business
processes and operations anew. TTB, like the businesses its regulates, must continuously look for ways to
effect its mandates more efficiently and effectively, leveraging limited resources in smarter and more
innovative ways to ensure that the investments made in its mission show a return. Within its FY 2012 Annual
Report, TTB combines program performance and financial data to demonstrate how effectively the Bureau
translates its program dollars into quality service, responsible management practices, consumer protection,
and increased tax revenue.

Each year, as part of the performance and budget cycle, TTB issues this report to inform its stakeholders of the
Bureau’s accomplishments and explain any challenges. The report defines the Bureau’s mission, strategic
goals, and major programs, and summarizes its progress in meeting its objectives, as stated in the TTB strategic
plan. TTB also presents financial information that depicts how TTB expended its budget according to its major
programs, and accounted for tax collections from the alcohol, tobacco, firearms, and ammunition industries.

This report presents this information in four parts:

Part I – Management’s Discussion and Analysis. This section provides an overview of the Bureau including its
mission and programs, highlights of program and financial operations, and a summary of TTB’s program
performance.

Part II – Program Performance Results. This section provides a discussion of results achieved for each
performance measure related to the Collect the Revenue and Protect the Public strategic goals and an
overview of the Bureau’s accomplishments under its Management and Organizational Excellence goal.




                                                       i
                                          TTB 2012 Annual Report


Part III – Financial Results, Position, Condition and Auditors’ Reports. In this section, TTB presents audited
balance sheets, statements of net cost, changes in net position, budgetary resources, and custodial activity as
of and for the years ending September 30, 2012, and September 30, 2011, and the Independent Auditors’
Report on these financial statements. Also included is a report on the Bureau’s internal control over financial
reporting and a report on TTB’s compliance with laws and regulations. This report section also includes a
discussion of budget activities for each of the Bureau’s seven major programs and supplemental information,
such as a history of Federal excise tax collections for the past decade.

Part IV – Appendices. This section includes a listing of TTB principal officers, an organization chart, and
strategic plan information that demonstrates the relationship between TTB’s plan and the overall Department
of the Treasury’s mission and goals.




                                                       ii
                                           TTB 2012 Annual Report


Message from the Administrator
                                   Formed by the Homeland Security Act of 2002, TTB has now completed a
                                   generation of its existence and, in that time, has distinguished itself as an
                                   innovative agency in the Federal government. Effective application of
                                   technology and responsive service to our customer and stakeholders were
                                   the hallmarks of our first generation as a Bureau. We will build on these
                                   foundations in our efforts to create TTB 2.0—a bureau with a leaner,
                                   smarter business model that is driven by data, informed by risk, and
                                   focused on improving mission results in both its revenue and trade
                                   facilitation roles.
                                    As a tax agency, TTB plays an important role in supporting the financial
                                    security of the Nation. TTB has transformed its enforcement program in the
past year, refining its approach through advanced risk modeling techniques and by breaking down
organizational silos to draw on the complementary skill sets of not only TTB’s auditors and investigators, but
also our regulatory and trade specialists, chemists, and data scientists. Through the integration of expertise
across the Bureau, TTB has improved its ability to identify illegal activity and efficiently pursue enforcement
actions. As part of this approach, in FY 2012, TTB deployed joint forensic audit and investigation teams to
detect and pursue fraudulent activity in the alcohol and tobacco trade. Working together with other TTB
divisions, these teams pursue major cases with nationwide impact to augment our risk-based enforcement
plan, enabling TTB to further focus our limited resources on high-risk areas for revenue loss. The TTB
enforcement model produces one of the best returns of any tax collection agency, with the Bureau bringing in
$449 for every $1 spent on tax collection. In FY 2012, TTB collections on alcohol, tobacco, and firearms
products totaled $23.4 billion.
Enforcing the tax code also requires that TTB address tax evasion and the illicit trade in alcohol and tobacco
products. The diversion of these products outside legal commercial channels not only represents potentially
billions of dollars in revenue loss but also undermines the lawful business activity of taxpaying industry
members and provides a well-established source of funding for criminal enterprises. The clandestine nature of
this activity makes it difficult to accurately measure the loss in Federal tax receipts; however, in any case
where the intrinsic value of a product is dwarfed by its tax value, there is incentive to evade the tax to gain an
illegal profit. The recent tobacco tax rate increase, which tripled the tax on cigarettes, serves to enhance the
potential for illegal gains.
Addressing this revenue threat requires a visible enforcement presence. In FY 2012, TTB continued its criminal
enforcement program, using a $2 million annual appropriation from Congress to acquire and leverage existing
law enforcement resources within the Department of the Treasury to enforce the Bureau’s criminal
jurisdiction. Contracting for agent services has ensured that the investment made by Congress in this criminal
enforcement initiative was used to maximum effect, minimizing overhead costs and avoiding duplicative
infrastructure.
In just 16 months of active investigations, TTB has opened 48 criminal cases that identified nearly $340 million
in tax liabilities. We believe these results are artificially low, both because of the limitations placed on our
investigations by the short-term spending authority, and because it does not account for the deterrent impact
                                                        iii
                                           TTB 2012 Annual Report
of our law enforcement presence. Looking ahead, TTB will continue to rely on the successful relationships we
have established with law enforcement partners over the past two years to enforce our criminal jurisdiction in
the coming year.
As part of its renewed strategic vision, TTB will continue to focus on improving its business results in two of its
core service areas–permit and label applications–by enhancing the electronic filing capabilities for industry and
evaluating proposals to streamline TTB’s processing work without compromising our statutory mandates.
Applications for permits continue to rise, increasing a staggering 33 percent in FY 2012, and TTB is making
strategic investments in e-Gov solutions to avoid degradation to the level of service provided to the businesses
applying for a Federal permit. Delays in issuing permits impede the Nation’s economic recovery, as the new
businesses that TTB authorizes to operate are predominantly small businesses that contribute to job
opportunities locally and to America’s competitiveness globally.
TTB is also pursuing long-term solutions to address the continued growth in alcohol beverage labeling
applications, which are well above 150,000 annually. Technology enhancements alone will not entirely
address the strain on TTB resources, which is why we are working with industry to assess opportunities to
streamline this critical line of business to prevent costly delays in receiving TTB’s approval. Such delays
negatively impact businesses, which must have label approval prior to bottling or introducing their products
into domestic commerce. This requires that we reshape our label approval program to facilitate the prompt
introduction of products into commerce while maintaining our responsibility to ensure that consumers and
industry competitors are protected from deceptive or other illegal labels. Part of our approach requires that
we update existing regulations so that they are as clear as possible, and TTB plans to initiate rulemaking in this
area in FY 2013.
TTB also plays an important role in the facilitation of the global alcohol trade. The trade in alcohol beverages
continues to offer significant opportunities for U.S. businesses in overseas markets, with the export value of
wine, spirits, and malt beverages totaling close to $3 billion in FY 2011, a 38 percent increase from 2007. TTB
expanded our global network of alcohol and tobacco regulators in FY 2012 by signing a memorandum of
understanding with Brazil’s National Health Surveillance Agency, a vital ally in addressing the shared challenge
of tobacco diversion. TTB continues to engage with regulators from Canada, China, the European Union,
France, Italy, Mexico, and the new world wine producers of the World Wine Trade Group—all of which offer
important export markets for U.S. producers—through its formal international agreements. These agreements
ensure that markets remain open for opportunities for domestic businesses and that illegal activity in
international trade is addressed promptly.
As shown in the pages that follow, we have made significant progress over the past year in implementing
strategic changes that will improve the Bureau’s efficiency without compromising mission results. The path we
are on will help ensure that we are effective in accomplishing our mandates, meeting customer expectations,
and ensuring that we maximize the dollars entrusted to us.

The Bureau has validated the accuracy, completeness, and reliability of the performance data contained in this
report.



                                                John J. Manfreda
                                                  Administrator

                                                        iv
                                         TTB 2012 Annual Report


Vision, Mission, and Values
Vision
Our vision is to maintain an organization of people who value each other and who treat each other and their
customers with the respect that they deserve. We intend to uphold the laws, for which we are responsible, in
a fair, equitable, and appropriate manner, affording all an opportunity to have their opinions heard without
prejudice. We intend to carry out our mission without imposing inappropriate or undue burden on those from
which TTB collects taxes and those TTB regulates.

Mission
Collect the Federal excise taxes on alcohol, tobacco, firearms, and ammunition, and assure compliance with
Federal tobacco permitting and alcohol permitting, labeling, and marketing requirements to protect
consumers.

Values
We value each other and those we serve. This Bureau:

 • Upholds the highest standards of excellence and integrity;

 • Provides quality service and promotes strong external partnerships;

 • Develops a diverse, innovative, and well-trained workforce in order to achieve our goals; and

 • Embraces learning and change in order to meet the challenges of the future.




                                                       v
                                          TTB 2012 Annual Report


TTB Strategic Goals and Objectives
Strategic Goal: Collect the Revenue
Industry remits the proper Federal tax on alcohol, tobacco, firearms, and ammunition products

Tax Verification and Validation. Assure voluntary compliance in the timely and accurate remittance of tax
payments

Civil and Criminal Enforcement. Detect and address excise tax evasion and other criminal violations of the
Internal Revenue Code in the industries TTB regulates

Strategic Goal: Protect the Public
Alcohol and tobacco industry operators meet permit qualifications, and alcohol beverage products
comply with Federal production, labeling, and marketing requirements

Business Integrity. Assure that only qualified persons and business entities operate within the industries TTB
regulates

Product Integrity. Assure that alcohol beverage products comply with Federal production, labeling, and
advertising requirements

Market Integrity. Assure fair trade practices throughout the alcohol beverage marketplace

Strategic Goal: Management and Organizational Excellence
Effectively managed resources and human capital for maximum performance, efficiency, and
program results

Human Capital Management. Maintain a qualified, engaged, and satisfied workforce

Technology Solutions. Deliver effective, streamlined, and flexible IT solutions that add value and support
program performance

Finance and Performance Results. Facilitate strategic management and financial accountability through the
delivery of timely and reliable financial and performance information




                                                       vi
                                         TTB 2012 Annual Report


TTB Office Locations




                  Industry at a Glance                                         TTB at a Glance
Total TTB Permittees                      61,684         Employees                                    496

TTB Permittees by Industry Type                          Office Locations *                           17

  Alcohol                                 96.7%          Budget Authority                             $99.9 Million

  Tobacco                                 1.5%           Revenue Collected                            $23.4 Billion

  Firearms                                1.8%           Original and Amended Permits Processed       27,363
                                                         Certificate of Label Applications Received 152,741
TTB Permittees Not Subject to Tax         48,046
                                                         *TTB has some offices co-located in larger cities.
TTB Permittees Subject to Tax             13,643
  TTB Permittes Who Filed and Paid Taxes 8,533




                                                   vii
 TTB 2012 Annual Report




Page left intentionally blank.

             viii
                                                     TTB 2012 Annual Report


PART I
Management’s Discussion and Analysis
Profile of a Bureau
The mission of the Alcohol and Tobacco Tax and Trade Bureau (TTB) is to collect the Federal taxes on alcohol,
tobacco, firearms, and ammunition products, protect consumers from unsafe or improperly labeled alcohol
beverage products, and prevent unfair or unlawful trade of alcohol and tobacco products. TTB’s diverse
mission, and its position as a bureau of the Department of the Treasury, means that TTB must strike a balance
between its tax and regulatory functions and its role in facilitating fair and robust economic activity in the
alcohol and tobacco trades.

TTB is staffed with approximately 500 employees, most of whom report to either the headquarters office in
Washington, D.C., or the National Revenue Center in Cincinnati, Ohio. For its auditors, investigators, and
agents to most effectively operate in the field, TTB also has 10 offices in cities across the U.S., as well as Puerto
Rico. In recent years, TTB has reduced its physical footprint by converting its auditors and investigators to full-
time telework positions; however, the small, strategically located offices that TTB has maintained place the
Bureau in close proximity to centers of trade and industry activity, and provide effective launch points for
TTB’s investigative teams. Additionally, the Bureau has two laboratory facilities in Walnut Creek, California and
Beltsville, Maryland. See Part IV of this report for a chart outlining the TTB organizational structure.

The Bureau was formed in January 2003, under the Homeland Security Act of 2002, but its history began more
than 200 years ago as one of the earliest Federal tax collection agencies. Today, TTB operates under the
authorities of the Internal Revenue Code of 1986 (IRC) 1 and the Federal Alcohol Administration Act (FAA Act), 2
including the Alcoholic Beverage Labeling Act of 1988 (ABLA) 3 and the Webb-Kenyon Act. 4 These laws put in
place strict requirements and controls related to alcohol and tobacco products and place restrictions on who
can make, sell, and distribute these commodities.

In essence, TTB administers its jurisdiction according to two core mission areas—“Collect the Revenue” and
“Protect the Public”—both of which serve to support the Nation’s economic recovery by ensuring that the
Federal government has the cash resources needed to fund the Nation’s priorities and that lawful U.S.
businesses are competitive and thriving in the global marketplace.


a137
1
  Chapters 51 and 52 of the IRC provide for excise taxation and authorize operations of alcohol and tobacco producers and related
industries, and IRC sections 4181 and 4182 provide for excise taxes for firearms and ammunition.
2
 The FAA Act provides for regulation of those engaged in the alcohol beverage industry and for protection of consumers through
certain requirements regarding the labeling and advertising of alcohol beverages. The FAA Act also includes provisions to preclude
unfair trade practices that serve as barriers to competition and trade in the U.S. marketplace.
3
 The ABLA mandates that a Government warning statement appear on all alcohol beverages offered for sale or distribution in the
United States.
4
    The Webb-Kenyon Act prohibits the shipment of alcohol beverages into a State in violation of the receiving State’s laws.


                                                                     1
                                                                                              TTB 2012 Annual Report



Alcohol Industry Snapshot

                                      Alcohol Excise Tax Collections Trend                                                          Alcohol Permits Trend
                                 7,900,000                                                                7,000
                                 7,800,000                                                                6,000
          Dollars in Thousands




                                 7,700,000                                                                5,000
                                 7,600,000                                                                4,000
                                 7,500,000                                                                3,000
                                 7,400,000                                                                2,000
                                 7,300,000                                                                1,000
                                 7,200,000                                                                         0
                                              FY 2008      FY 2009      FY 2010     FY 2011     FY 2012                  FY 2008      FY 2009         FY 2010         FY 2011   FY 2012

                                                          Alcohol FET Collections                                                        Alcohol Original Permits Issued




Tobacco Industry Snapshot
                                     Tobacco Excise Tax Collections Trend                                                           Tobacco Permits Trend
                        18,000,000                                                                        350
                        16,000,000                                                                        300
                        14,000,000
Dollars in Thousands




                                                                                                          250
                        12,000,000
                        10,000,000                                                                        200
                         8,000,000                                                                        150
                         6,000,000
                                                                                                          100
                         4,000,000
                         2,000,000                                                                         50
                                 0                                                                             0
                                              FY 2008     FY 2009       FY 2010     FY 2011     FY 2012                 FY 2008      FY 2009         FY 2010          FY 2011   FY 2012

                                                          Tobacco Collections                                                           Tobacco Original Permits Issued




Firearms & Ammunition Industry Snapshot
                                                 FAET Collections Trend                                                Firearms & Ammunition Registrations Trend
                                 600,000                                                                  45
                                                                                                          40
                                 500,000
                                                                                                          35
          Dollars in Thousands




                                 400,000                                                                  30
                                                                                                          25
                                 300,000
                                                                                                          20
                                 200,000                                                                  15
                                                                                                          10
                                 100,000
                                                                                                           5
                                       0                                                                   0
                                             FY 2008     FY 2009       FY 2010      FY 2011     FY 2012                FY 2008      FY 2009          FY 2010          FY 2011   FY 2012

                                               Firearms & Ammunition Excise Tax Collections                                        Firearms & Ammunition Registrations Issued




                                                                                                          2
                                          TTB 2012 Annual Report

Collect the Revenue
TTB is the third largest tax collection agency in the
U.S. Government, behind the Internal Revenue                        FY 2012 Total Tax Collections
                                                                          by Industry Type
Service (IRS) and U.S. Customs and Border Protection
(CBP). In FY 2012, TTB collected $23.4 billion in
alcohol, tobacco, firearms and ammunition excise                    Alcohol
                                                                                       Tobacco
taxes—a decrease of less than a half of 1 percent                    34%
                                                                                         64%
compared to FY 2011. Prior to 2008, TTB and its
predecessor—the Bureau of Alcohol, Tobacco and
Firearms (ATF)—collected between $14 - $15 billion
in excise taxes annually. Now, for the fourth                       Firearms
consecutive year, TTB tax collections have exceeded                    2%

$23 billion.

TTB excise tax collections reached an historic high of $23.8 billion in FY 2010, principally due to increased
receipts from the tobacco industry. With the passage of the Children’s Health Insurance Program
Reauthorization Act (CHIPRA) in February 2009, Congress imposed significantly increased tax rates on
cigarettes and other tobacco products. This legislation provided for a tax increase on all tobacco products
(except large cigars), and cigarette papers and cigarette tubes, effective April 1, 2009. In FY 2012, TTB tobacco
excise tax collections totaled $15 billion, a decline of 3 percent compared to the prior year. In forecasting
tobacco revenues, Federal collections are expected to decline after peaking at $15.9 billion in FY 2010. Higher
prices on tobacco products have historically resulted in decreased consumption and increased illicit trade,
which combined would indicate declining tax revenues in the out years. TTB efforts in enforcing both its civil
and criminal tax jurisdiction support voluntary tax compliance and act to deter illicit trade, and TTB will
continue to act to address the revenue threat posed by the diversion of alcohol and tobacco products to
ensure the collection of the taxes due.

The alcohol beverage industry in the United States paid $7.9 billion in Federal excise taxes in FY 2012. The
Federal excise taxes collected on alcohol beverage products increased 3 percent over the prior year, and
economic forecasts predict continued modest growth in the alcohol industry throughout the period of
FY 2013 – FY 2014. TTB expects that the increase in alcohol businesses will be driven by new wineries, craft
breweries, and craft distilleries.

Firearms and ammunition excise taxes are remitted to the Fish and Wildlife Restoration Fund under provisions
of the Pittman-Robertson Act of 1937. The U.S. Fish and Wildlife Service, which oversees the fund, apportions
the money to state governments for wildlife restoration and research, and hunter education programs.
Federal excise tax collections on firearms and ammunition have increased from $193 million in FY 2003 to $515
million in FY 2012, an increase of $322 million over the past nine years, or a 167 percent growth in Federal
FAET revenues. The increase in reported tax revenue can be attributed to industry growth, effective outreach
and collection initiatives by the Bureau, and the field presence of TTB’s auditors, which continues to promote
voluntary taxpayer compliance.




                                                        3
                                           TTB 2012 Annual Report

Civil Tax Enforcement

Tax Classification
The tax rate on alcohol and tobacco products is dependent on a variety of factors, including product type (i.e.,
wine, spirits, or malt beverage) as well as characteristics of the products themselves, such as composition and
weight. A critical first step in tax enforcement is the assignment of a tax class to alcohol and tobacco products
based on Federal regulatory standards.

For alcohol beverages, classification requires that TTB review the formula of certain products before they enter
the market. For example, if an examination of the formula reveals that an imported sake, which is made from
fermented rice and is classified and taxed as wine, contains added spirits, then the product is then classified
and taxed as a distilled spirits product. This type of formula review, known as a pre-import approval, can have
significant tax implications, as wine is subject to a lower tax rate than spirits products.

TTB also conducts marketplace product evaluations to check for proper tax classification. As an example, TTB
evaluates samples of products marketed as large cigars to verify that the products are large cigars rather than
cigarettes or small cigars, as the tax rates differ markedly between these products. In classifying such a
product for tax purposes, TTB evaluates the product’s wrapper, the type of tobacco used in the filler, the
product’s packaging and labeling, and its weight to verify that the product meets the statutory criteria for a
large cigar.

Shifting Market Trends due to Tax Rates

The recent increase in the Federal excise tax rate on cigarettes and other tobacco products highlights the
importance of TTB’s tax classification activities. In reaction to CHIPRA, some manufacturers took advantage of
large disparities in the tax rates, shifting their production toward products that carry lower tax burdens by
manipulating the character and composition of their products; in some cases, manufacturers and importers
intentionally misclassified the identity and classification of their products to evade taxes. These deliberate
manipulations, motivated by the desire to avoid taxes and not by market demand, effectively undermine the
dual policy objectives of Federal and state governments when they raise excise tax rates: increased revenues
and decreased tobacco use.

Since the excise taxes on cigarettes and other tobacco products increased in 2009, TTB has identified and
monitored significant market shifts toward lower-taxed tobacco products by manufacturers and price-sensitive
consumers. Prior to CHIPRA, TTB faced enforcement challenges due to the disparate tax rates on cigarettes
and small cigars, and the ambiguous statutory criteria for these products. The law created parity in the excise
tax rates for these two products, thus resolving this long-time tax enforcement challenge. However, CHIPRA
created large disparities in tax rates for other tobacco products, thus presenting new challenges for TTB in
appropriately classifying and collecting the taxes due on these products.

An important trend is the shift in the volume of small cigars to large cigars. Large cigars are the only tobacco
product for which the excise tax is based on the manufacturer or importer’s sale price; all other tobacco
products are taxed at a flat rate based either on the number of units or the weight of the product. The ad
valorum tax on large cigars can result in significantly lower tax rates on these products, depending on the sale

                                                        4
                                                    TTB 2012 Annual Report
price of the cigar. As a result, since the tax increase on
small cigars, TTB has found that manufacturers and
importers are increasing the weight of products that TTB                        EFFECT OF CHIPRA ON TAXABLE
had previously evaluated and determined to be small                             REMOVALS OF TOBACCO PRODUCTS
cigars prior to CHIPRA so that they meet the statutory
                                                                                Payment of excise tax is due from tobacco manufacturers at the
definition of a large cigar.
                                                                                time the product is removed for sale from the manufacturing
                                                                                premises. Since the enactment of CHIPRA, significant shifts in
A second trend is the stark shift in pipe tobacco and roll-
                                                                                the tobacco products industry developed, particularly in the
your-own (RYO) tobacco products, which creates another                          markets for small and large cigars and RYO and pipe tobacco.
enforcement challenge due to the lack of clear standards                        An independent review by the Government Accountability Office
to differentiate the two products. 5 Prior to CHIPRA, the                       (GAO) of shifts in tobacco product removals since the tobacco
tax rates on pipe tobacco and RYO tobacco were the                              tax rate increase estimates that Federal revenue losses due to
                                                                                market shifts from RYO to pipe tobacco and from small to large
same at just under $1.10 per pound. As a result of
                                                                                cigars could exceed $1.1 billion for the period April 2009 through
CHIPRA, the tax on pipe tobacco was increased to just                           September 2011.
over $2.83 per pound, while the tax on RYO tobacco was
increased to $24.78 per pound. This significant tax
                                                                                                Post CHIPRA Market Shift
difference resulted in a dramatic increase in the volume
of pipe tobacco reported as removed for sale or
                                                                                                  Pipe vs. RYO Tobacco
distribution by domestic manufacturers, with an equally                              100%
dramatic decrease in the amount of RYO tobacco                                        80%
                                                                                      60%
reported as removed.                                                                  40%
                                                                                      20%
                                                                                       0%
Because of the lack of clear standards in the tax code to                                   PRE-CHIPRA   POST-CHIPRA POST-CHIPRA POST-CHIPRA POST-CHIPRA
                                                                                                           4/2009 -   THROUGH CY THROUGH CY THROUGH
differentiate pipe tobacco from RYO tobacco, and the                                                      12/2009 (9
                                                                                                           MONTHS)
                                                                                                                        2010 (21
                                                                                                                        MONTHS)
                                                                                                                                     2011 (33
                                                                                                                                     MONTHS)
                                                                                                                                                 7/2012 (40
                                                                                                                                                  MONTHS)
consequent potential for misclassification and erroneous                                                 (Cumulative) (Cumulative) (Cumulative) (Cumulative)

tax payment on these products, TTB has undertaken                                                          Pipe      Roll Your Own (RYO)

rulemaking on the types of objective standards that
would provide a basis for differentiating between these                                         Post CHIPRA Market Shift
two products for tax purposes. At the same time, the
                                                                                                  Large vs. Small Cigars
TTB Tobacco Laboratory has been evaluating proposed
methods and standards, and undertaking research to                                   100%
                                                                                      80%
develop methods and standards, in support of this                                     60%
                                                                                      40%
rulemaking. The goal is to set forth objective criteria,                              20%
                                                                                       0%
based on physical characteristics of the products, that                                     PRE-CHIPRA   POST-CHIPRA POST-CHIPRA POST-CHIPRA POST-CHIPRA
                                                                                                           4/2009 -   THROUGH CY THROUGH CY THROUGH
distinguish between pipe tobacco and RYO for tax                                                          12/2009 (9    2010 (21     2011 (33    7/2012 (40
                                                                                                           MONTHS)      MONTHS)      MONTHS)      MONTHS)
purposes. TTB intends to publish subsequent rulemaking                                                   (Cumulative) (Cumulative) (Cumulative) (Cumulative)

in this area.                                                                                               Small Cigars      Large Cigars


e137
5
  Under the IRC, pipe tobacco is any tobacco which, because of its appearance, type, packaging, or labeling, is suitable for use and likely
to be offered to, or purchased by, consumers as tobacco to be smoked in a pipe. RYO tobacco is defined as any tobacco which, because
of its appearance, type, packaging, or labeling, is suitable for use and likely to be offered to, or purchased by, consumers as tobacco for
making cigarettes or cigars, or for use as wrappers of cigars or cigarettes.



                                                                    5
                                          TTB 2012 Annual Report
Congress specifically recognized that the differing tax rates applicable to tobacco products can have
consequences on both revenue and public health in its passage of the Family Smoking Prevention and Tobacco
Control Act (P.L. 111-31), which directed the Government Accountability Office (GAO) to study the cross-
border trade of tobacco products. As part of this requirement, GAO reviewed the market shifts in smoking
tobacco products since CHIPRA, examined the impact of those market shifts on Federal revenue, and evaluated
TTB’s actions to respond. In its FY 2012 report, GAO estimated that Federal revenue losses due to market
shifts from RYO to pipe tobacco and from small to large cigars range from about $615 million to $1.1 billion for
the period April 2009 through September 2011. GAO recommended that Congress consider equalizing tax
rates on RYO and pipe tobacco and, in consultation with the Department of the Treasury, consider options for
reducing tax avoidance due to tax differentials between small and large cigars. GAO also recognized that TTB
has taken steps to respond to these market shifts, including its efforts to differentiate between RYO and pipe
tobacco for tax collection purposes, but acknowledged that TTB has limited options.

Addressing Revenue Threat from Roll-Your-Own Cigarette Machines
The tax differential on certain tobacco products also contributed to the proliferation of cigarette
manufacturing machines at retail establishments. Following the enactment of CHIPRA, TTB began receiving
reports of retail establishments maintaining commercial cigarette-making machines on their premises for
customers to use in the manufacture of cigarettes. TTB also received reports that customers were using pipe
tobacco, which is subject to a Federal tax rate much lower than that applicable to RYO, to produce lower cost
cigarettes. TTB also was approached by individuals interested in purchasing untaxed processed tobacco and
reselling that tobacco to retailers for use in the machines.

TTB issued a ruling in September 2010 that defined retailers that engage in this type of activity as
manufacturers of tobacco products. The courts enjoined TTB from taking enforcement action until, in July
2012, Congress enacted the Moving Ahead for Progress in the 21st Century Act (H.R. 4348, also known as
"MAP‐21"), which definitively addressed the legal status of retailers that provide cigarette-making machines to
customers. Under MAP-21, any person who for commercial purposes makes available for consumer use a
machine capable of making tobacco products (including cigarettes) is a manufacturer of tobacco products
under the IRC and, as such, falls under the jurisdiction of TTB. Such manufacturers are required to apply for a
permit from TTB, as well as pay Federal excise taxes and comply with other TTB regulatory requirements.
Further, in October 2012, TTB issued public guidance that defines a manufacturer of tobacco products and
outlines the statutory and regulatory requirements for manufacturers of tobacco products. In FY 2013, TTB
will continue its enforcement efforts in relation to the 1,300 cigarette-making machine operating locations
identified to date to ensure compliance with TTB permitting and tax requirements.

Classifying Non-Traditional Tobacco Products
In its tax role, TTB also must determine the tax classification of new forms of tobacco products. Some of these
new products are a result of market innovation while others are products that are common in other countries
but new to the United States. In FY 2012, TTB evaluated a range of non-traditional products, such as a Middle
Eastern tobacco product called “dokha” and products labeled as “tobacco-free” tobacco product alternatives.

An emerging product in the United States, dokha appears to be a Middle Eastern pipe tobacco. This and other
non-traditional tobacco products present a tax enforcement challenge, as they may be undeclared as tobacco
products upon import or misclassified by the importer in order to evade the higher rate of tax. TTB is working
                                                      6
                                                  TTB 2012 Annual Report
with its law enforcement partners at U.S. Customs and Border Protection (CBP) to ensure that this new
product is recognized and taxpaid upon import.

TTB also is seeing an increasing number of products labeled as “tobacco-free” produced or imported by
companies that TTB regulates. One important initial factor for evaluating these products for tax purposes is
determining whether the products actually contain tobacco. If the products do not contain tobacco, the tax
would not apply. The TTB Tobacco Laboratory tests these unconventional products to confirm the presence of
tobacco. States also rely on TTB for these tobacco verification determinations in their tobacco regulatory and
tax enforcement efforts.

As a global authority in the technical analysis of tobacco products, TTB’s scientific expertise is sought after by
its international law enforcement partners. In FY 2012, the TTB Tobacco Laboratory provided technical
assistance to the Royal Canadian Mounted Police (RCMP) in the investigation and subsequent prosecution of a
tobacco excise tax case in Canada. Specifically, the RCMP requested that TTB analyze and confirm the
presence of tobacco in six hookah-type products that displayed “No Nicotine, No Tobacco” claims on the
packages. TTB’s Tobacco Laboratory has been a government leader in the development of methods and
protocols to identify chemical markers unique to tobacco leaf, and was identified by law enforcement officials
in this case as the only agency that could perform a “tobacco-free” confirmation analysis.

In the year ahead, TTB will continue to share
its scientific and regulatory expertise with
other state, Federal, and international
agencies to review new and emerging non-
traditional tobacco products in the United
States market and ensure that they are
properly classified and taxpaid. In this vein,
TTB also will continue to serve in its
leadership role in the North American
Tobacco Regulatory Laboratory Network
technical forum, organized by TTB chemists
and held for the first time in April 2012 at the
                                                   John Shifflet, Chemist in TTB’s Tobacco Laboratory, speaking to producers and
TTB National Laboratory Center in Beltsville,
                                                   industry representatives during a tour of TTB’s Tobacco Laboratory in Beltsville,
Maryland. Forty scientists and regulators          Maryland. Scientists and regulators representing Federal agencies from the United
representing 11 Federal agencies from the          States, Canada, and Mexico participated in the tour.

United States, Canada, and Mexico
participated in the forum to discuss tobacco science in the context of tobacco regulation. The forum
establishes a network of laboratories to exchange information on technical regulatory matters, collaborate on
testing protocols, develop analytical methods, and build a partnership to proactively address emerging issues
on tobacco.

Tax Verification
In effecting its revenue mission, TTB uses a coordinated enforcement approach to verify that industry
members remit the excise taxes due on the alcohol, tobacco, firearms, and ammunition products sold to U.S.
consumers. The Bureau’s auditors, investigators, agents, chemists, and tax and regulatory specialists work
                                                                 7
                                           TTB 2012 Annual Report
jointly to verify and validate that industry members pay the proper amount of tax on these strictly regulated
commodities. The strategic risk-based approach used to deploy limited staff resources enables TTB to leverage
its field presence to cover a wide universe of taxpayers.

In FY 2012, TTB continued to address revenue risk areas through enhanced risk modeling and increased
automation of its investigative targeting models. This included expansion of TTB’s use and analysis of its
internal and external data for enforcement actions, resulting in the identification of industry members and
others that could be involved in diversion and tax fraud.

Enforcing Importer Compliance
Due to the known revenue risk in the import and export trade in tobacco products, and as the Federal
permitting authority for tobacco importers, TTB developed a tobacco importer risk model to identify the
highest risk tobacco importers operating with a Federal permit. In FY 2012, TTB integrated its tobacco
importer risk model into its data analytics platform and implemented upgrades that allow for more real-time
targeting of tobacco importers for audit or investigation.

Further, in FY 2012, TTB developed a pilot risk model for alcohol importers. The alcohol importer risk model
combines import data from CBP with tax and permitting data from TTB databases to identify potential non-
permitted alcohol imports and other anomalies. This model will be used to identify audit candidates in FY
2013 and, based on those results, TTB will evaluate and enhance the accuracy of its model. TTB also intends to
explore options to more efficiently update and add external data into its risk models.

In just two years, the Bureau’s audits of these businesses resulted in the identification of more than $10
million in additional excise tax liability associated with imported alcohol and tobacco products. TTB has
referred these cases to CBP, the agency responsible for collecting the Federal excise tax on imported products.
In 2009, CHIPRA extended the statute of limitations to three years for the collection of taxes on imported
alcohol and tobacco products. TTB is partnering with CBP’s Office of Regulatory Audits (ORA) to ensure that
the taxes due on these imported products are collected. During FY 2012, TTB and CBP’s ORA agreed to pilot a
joint audit of a tobacco importer. Under the pilot audit, TTB and CBP are working together to identify and
collect any outstanding tax liabilities identified during the audit. Developing effective relationships with its
enforcement partners is critical to TTB’s long-term strategy and, following this pilot enforcement initiative, TTB
will assess additional opportunities to work with CBP ORA to ensure alcohol and tobacco importer compliance.

Addressing the Revenue Risk from Tobacco Processors
As required by CHIPRA, tobacco processors now report to TTB on the removal, transfer, or sale of processed
tobacco. As processed tobacco is untaxed, the diversion of this product outside the lawful distribution chain
for use in the illegal manufacture of tobacco products poses a significant revenue risk. In FY 2011, TTB
initiated a pilot project to address the identified revenue threat posed by processed tobacco sold to non-
permitted manufacturers who did not report or file Federal excise taxes.

There are 30 domestic tobacco processors and approximately 180 importers of processed tobacco who
distribute roughly 1.1 billion pounds of processed tobacco to a myriad of brokers, manufacturers, and other
tobacco processors. The TTB risk model developed for the pilot project indicated that many of these
businesses warranted a joint investigation/audit to determine compliance with TTB laws and regulations. In its

                                                        8
                                             TTB 2012 Annual Report
first year, this enforcement initiative identified approximately $9 million in additional Federal excise tax due on
illegally manufactured tobacco products.

In FY 2012, TTB expanded this enforcement initiative to a nationwide program. TTB conducted field
examinations of these manufacturers and importers of processed tobacco, and then conducted subsequent
audits and forward traces of suspicious processed tobacco removals outside of the permitted system. As of
the close of FY 2012, TTB identified approximately $182.2 million in potential tax liabilities. In the year ahead,
TTB plans to increase the number of audits and investigations of manufacturers and importers of processed
tobacco, and will explore methods of refining its targeting model to incorporate transactional sales data from
domestic tobacco processors.

Enforcing the Floor Stocks Tax

In FY 2012, TTB continued to address the significant revenue exposure that remains from the floor stocks tax
(FST) levied on tobacco products under CHIPRA. An FST is a one-time excise tax placed on a commodity
undergoing a tax increase, and was imposed on all tobacco products held for sale as of April 1, 2009. The FST
is equal to the difference between the new tax rate and the previous rate. As TTB has no regulatory authority
over tobacco wholesalers and retailers, the enactment of the FST has presented an ongoing enforcement
challenge for TTB as it added approximately 400,000 new taxpayers to TTB’s enforcement responsibility. TTB
has used a variety of techniques to enforce the FST and ensure collection of the revenue due.

Since its enactment, TTB has continued its FST enforcement efforts based, in part, on findings that many
wholesalers and retailers failed to report or underreported their tobacco inventory and associated tax
payments. In three years, TTB has completed FST field examinations for many of the largest taxpayers, with
findings of more than $15 million and collections of more than $7 million, as well as resulting criminal
investigations. However, the number of FST non-filers is so great that existing enforcement resources cannot
conduct on-site examinations of the entire population of high-risk taxpayers.

In FY 2012, TTB enhanced its FST non-filer program to pursue tax liabilities at companies where TTB’s targeting
analysis indicates that FST liabilities still exist, but where it is not cost effective or practical to conduct an on-
site examination. The National Revenue Center uses the results of TTB’s targeting analysis to initiate a
“substitute-for-return” process to issue assessments on the estimated tax liabilities en masse. The IRC allows
TTB to create a tax return for a taxpayer where no return has been filed, or where the return that was filed is
considered false. In FY 2012, this approach resulted in TTB compliance actions against 188 taxpayers that had
failed to file FST, with potential FST liabilities of $22.5 million, plus interest and penalties. In total, the FST non-
filer program has resulted in TTB collections in excess of $1.28 million in FY 2012. In FY 2013, TTB will continue
collection actions and seek resolution of outstanding FST liabilities identified through the non-filer project.

Additionally, in FY 2012, TTB met with legal representatives for five Native American companies that received
non-compliance notifications from TTB, resulting in a settlement with one company for $1 million. TTB
continues to work with the remaining four companies to collect inventory and sales records to support the FST
amount due.




                                                           9
                                                    TTB 2012 Annual Report

Criminal Enforcement
TTB is the Federal agency responsible for detecting and addressing Federal excise tax evasion in relation to
alcohol and tobacco products. Under its criminal authority, TTB is charged with identifying any gaps in tax
payment from entities and individuals manufacturing or selling alcohol and tobacco products outside of the
lawful distribution system. By developing leads from TTB’s internal data collected through its regulatory
mission, government databases, referrals from other Federal and state agencies, and other external sources,
TTB is able to identify trends and schemes used to facilitate or engage in tax fraud and diversion.

Although tax losses from diversion are difficult to estimate due to the clandestine nature of the activity, a 2010
Department of the Treasury study of Federal revenue losses from cigarette diversion estimates that tax
receipts were diminished by as much as $1.5 billion annually for the years 2005 to 2007 due to smuggling and
other criminal diversion activity. 6 At the current tax rate, assuming all other factors remain constant, potential
Federal revenue losses from cigarette diversion could be $5 billion annually. In its 2009 review of Federal
tobacco tax enforcement efforts, the Department of Justice Office of the Inspector General cited Federal and
state government estimates of $5 billion in annual revenue losses resulting from the diversion of tobacco
products. 7

The stakes surrounding diversion enforcement were raised in 2009, however, when Congress roughly tripled
the Federal excise tax on tobacco products and, thus, multiplied the potential illegal profits to be gained from
tobacco diversion. Since the Federal tax increase, 19 states and the District of Columbia have also raised taxes
on cigarettes, further increasing the diversion profit incentive. Historical data establishes that tax increases
result in increased profit potential from diversion and, as a result, increased tax evasion. The relationship
between tax rates and diversion was specifically recognized in an August 2010 report by the Framework
Convention on Tobacco Control 8 when it stated that high tax increases provide financial incentives for
diversion of tobacco products from lawful commercial channels, particularly when enforcement and tax laws
are weak, penalties are small, and the prosecution process is long.

In recent years, the increased profit motive for cigarette trafficking has resulted in a proliferation of tobacco
diversion schemes. A March 2011 Government Accountability Office Report found that there are a wide range
of schemes used to evade tobacco excise taxes and fees and described the scope of current diversion activity,
which extends to high and low tax states alike, as well as Native lands and other countries. 9 However, the
j137
6
    “Department of the Treasury Report to Congress on Federal Tobacco Receipts Lost Due To Illicit Trade and Recommendations for
Increased Enforcement,” U.S. Department of the Treasury, Feb. 2010.

7
 “The Bureau of Alcohol, Tobacco, Firearms and Explosives’ Efforts to Prevent Diversion of Tobacco,” U.S. Department of Justice, Office
of the Inspector General, Report No. I-2009-005, Sept. 2009.

8
 World Health Organization Framework Convention on Tobacco Control, “Price and Tax Policies,” FCTC/COP/4/11, Aug. 15, 2010, p. 8,
para. 33. The FCTC is the international treaty organization established to address the health and revenue effects of tobacco use and
the illicit trade of tobacco products.

9
 “Illicit Tobacco: Various Schemes are Used to Evade Taxes and Fees,” U.S. Government Accountability Office, GAO-11-313, March
2011.



                                                                  10
                                           TTB 2012 Annual Report
diversion of products to evade Federal excise tax is not limited to tobacco. Though TTB has no similar
estimates of revenue losses from the diversion of alcohol, criminal case work in FY 2012 indicates that fraud in
the alcohol beverage trade poses both a public safety risk and a serious revenue threat.

Implementing the TTB Criminal Enforcement Program
Until FY 2011, addressing criminal activity in the alcohol and tobacco industries required that TTB coordinate
with other law enforcement agencies to exercise the Bureau’s criminal jurisdiction. Without dedicated special
agents to address the evasion of alcohol and tobacco excise taxes, TTB’s criminal case referrals were subject to
the availability of other law enforcement agencies, which have their own resource limitations and mission
priorities.

Recognizing the Bureau’s lack of resources to hire special agents and its inability to enforce its criminal
jurisdiction without agents, Congress authorized TTB funding in 2010 and 2012 to establish a criminal
enforcement program to address tobacco smuggling and other diversion activity. With this funding, TTB
entered into an agreement with IRS Criminal Investigation (IRS CI) to obtain criminal investigative services,
effectively allowing TTB to leverage the existing law enforcement resources within the Treasury Department to
enforce its criminal jurisdiction. This arrangement allowed TTB to engage in operations quickly and bypass
certain operational costs, both of which were critical considerations given the short-term nature of the
funding.

The complexity of diversion cases requires leveraging all of TTB’s enforcement resources to identify,
investigate, and successfully prosecute offenders. Recognizing the expertise required to develop these cases
effectively, in FY 2012, TTB provided advanced fraud and diversion training to its auditors and investigators and
expanded its team-based enforcement approach for major criminal cases with potential nationwide impact.
National Response Teams, or NRT, are comprised of auditors, investigators, and intelligence analysts that work
collaboratively on cases when TTB suspects that fraud and diversion are present. A total of eight NRT cases
were carried out in FY 2012, resulting in successful civil examinations, criminal case referrals, and the
identification of more than $75 million in potential excise tax liabilities. TTB will continue its use of NRT in FY
2013 to enhance its criminal enforcement program.

Achieving Criminal Enforcement Results
In its two years of operations, the criminal enforcement program at TTB has produced significant results. Using
a small contingent of agents supported by a robust team of forensic auditors, investigators, and intelligence
analysts, TTB has opened a total of 48 cases, 27 of which were opened in FY 2012. The total estimated tax
liability associated with these 48 cases is nearly $340 million. As of the close of FY 2012, TTB had referred 43
of these cases to an Assistant United States Attorney (AUSA), all of which were accepted for investigation. This
unprecedented acceptance rate for criminal referrals demonstrates both the merit and the magnitude of these
cases. The success of these investigations reflects the synergy that results from combining experienced civil
fraud auditors and investigators who are knowledgeable about the industry with skilled agents to develop
criminal cases.

The types of investigations initiated in the two years of TTB’s criminal enforcement program are representative
of the extensive tax fraud and criminal activity in the illicit alcohol and tobacco trade. The schemes employed
to evade excise tax payment include:
                                                        11
                                            TTB 2012 Annual Report
    •   Manufacturing of tobacco products without payment of Federal excise tax
    •   Cigarette distributors evading tobacco FST
    •   Cigarette distributors selling “exported” cigarettes in the U.S. without payment of Federal excise tax
    •   Cigarettes smuggled into the U.S. without payment of Federal excise tax
    •   Failure to pay Federal excise tax on distilled spirits
    •   Importation of misclassified distilled spirits to evade Federal excise tax
    •   Operating without a permit/wholesaling violations
    •   Importing alcohol without a permit
    •   False wine labeling and sales of counterfeit wine

Significantly, though criminal cases are often multi-year endeavors, TTB has resolved several cases in its two
year of operations. Notably, in FY 2012, three subjects indicted for illegal trafficking of cigarettes, tax evasion,
and other related crimes pleaded guilty. This case involved a TTB permittee operating in Florida who evaded
approximately $37.5 million in excise tax liabilities through off book manufacturing and sales of cigarettes. The
primary defendant in this case was sentenced on October 18, 2012, in United States District Court to 60
months of incarceration and three years of supervised release. He was also ordered to pay $9.4 million in
restitution and was ordered to forfeit $19.6 million. Two additional defendants were also sentenced to 30
months and 24 months of incarceration, respectively, and ordered to pay restitution of over $9.4 million for
Federal excise taxes, Department of Agriculture tobacco buy-out assessments, and escrow deposits due to
states for the tobacco litigation settlement fund.

Of the criminal cases currently under investigation, six subjects entered plea negotiations in FY 2012. These
subjects are expected to enter guilty pleas in early FY 2013.

Coordinating with Law Enforcement Partners

In FY 2012, TTB met with AUSAs from the Eastern, Northern, and Western Districts of New York to establish a
working relationship for matters of mutual interest in tax enforcement. In these exchanges, both parties
exchanged information regarding the current tobacco environment in New York as well as the practical
considerations involved with tobacco enforcement on Native lands. Enforcement of Federal excise tax laws on
Native American reservations involves the application of Federal revenue laws to activities that occur on tribal
lands, which raises issues regarding claims of tribal sovereignty in some cases. These matters are extremely
sensitive and have presented difficult enforcement issues based upon existing law establishing that Federal
excise tax laws apply on Native American lands.

During the meetings, TTB briefed the AUSAs on ongoing tax enforcement initiatives to ensure that TTB’s efforts
will not impede any ongoing criminal investigations. The Northern District AUSA also coordinated a meeting
between TTB and an Indian Tribal Nation. This meeting led to an ongoing relationship with the Nation that will
assist in our efforts to resolve potential Federal tax matters in FY 2013.

Unlicensed cigarette manufacturing on Native lands continues to be an enforcement problem and, in FY 2013,
TTB will continue to work proactively with tribal leaders, Federal law enforcement partners, and the AUSAs to
bring all of the illegal operations into compliance or terminate their operations.



                                                         12
                                            TTB 2012 Annual Report

Protect the Public
TTB’s public protection mission has broad meaning and is inclusive of activities that directly impact American
consumers, such as testing the safety of alcohol beverage products and verifying that label claims are truthful,
accurate, and not misleading, as well as work that directly impacts the U.S. economy by facilitating lawful trade
and fair competition within the alcohol and tobacco trade. TTB’s role in regulating the trade of alcohol and
tobacco products ensures consumer confidence in the integrity of the products manufactured in the U.S. and
ensures that businesses are operating on a level playing field—key outcomes that promote job growth and a
strong economy.

TTB’s work in this mission area aligns under three main programs: 1) Permits and Business Assurance; 2) Trade
Facilitation; and 3) Advertising, Labeling, and Product Safety. Taken together, these programs ensure the
integrity of the businesses that produce and distribute alcohol and tobacco products, the integrity of the
alcohol beverage products, and the integrity of the market in which these businesses operate.

Business Integrity
TTB facilitates growth in the U.S. economy by ensuring that only qualified applicants enter business as an
alcohol producer, wholesaler or importer, or as a tobacco products manufacturer, importer or exporter. The
FAA Act includes provisions to require a permit for those who engage in the business as a producer, importer,
or wholesaler of alcohol beverages. The IRC includes similar permitting requirements for tobacco
manufacturers, importers, and export warehouses, as well as some alcohol industry members.

The number of applicants filing for an original permit or registration with TTB has grown 50 percent between
FY 2008 and FY 2012. Today, the Bureau regulates nearly 61,700 industry members, an increase of 32 percent
over the 46,700 permit holders in FY 2008.

Under its FAA Act authority, TTB conducts a multi-tiered background evaluation prior to issuing a permit to
ensure that only qualified persons obtain a permit to operate within the regulated industries. Through this
process, and other activities under its Permits and Business Assurance Program, TTB prevents prohibited
persons from commencing operations and potentially diverting products from legitimate commercial channels
in order to fund illicit activity. Given the substantial tax revenue associated with the commodities TTB
regulates, the incentive to operate under color of law for illegal purpose and illegal profit is substantial and,
therefore, an important area of the Bureau’s focus.

In order to make the most effective use of limited resources, TTB applies risk criteria to its review of permit
applications and refers the highest risk applications to its investigators for a field inspection. TTB investigators
also perform field investigations on a random sample of applicants who received a permit to verify that the
business’ operations comply with Federal law. If TTB determines that a business is violating the conditions of
its Federal permit, TTB may suspend or revoke its permit.




                                                         13
                                TTB 2012 Annual Report




Top 10 States by Number of Alcohol Permits        Top 10 States by Number of Tobacco Permits
                         # Active Permit                                   # Active Permit
          State                                             State
                             Holders                                           Holders
California                     4,263              Florida                        233
Washington                     1,116              California                      95
Oregon                          674               New York                        75
New York                        586               North Carolina                  71
Texas                           462               Texas                           41
Michigan                        403               Virginia                        34
Pennsylvania                    360               New Jersey                      33
Virginia                        342               Pennsylvania                    31
Colorado                        318               Kentucky                        20
Ohio                            303               Illinois                        19


                                             14
                                                  TTB 2012 Annual Report



ALCOHOL INDUSTRY PERMIT                       Efficiency in permit processing is equally critical to support improved
                                              economic opportunities for U.S. businesses. Prompt turnaround time for
ACTIVITY
                                              permit application processing enables those who are qualified to hold a
                                              Federal permit to begin their operations sooner, facilitating U.S.
                                              economic growth in a fair marketplace.

                                              Improving Service in Permit Processing
                                              TTB processes applications for more than 20 types of permits or registra-
                                              tions for the alcohol, tobacco, firearms, and ammunition industries. New
                                              or existing alcohol and tobacco industry members must be approved by
                                              TTB in order to commence a new regulated industry operation or to
                                              update critical permit information, such as a change in location for an
                                              existing business. The new businesses permitted by TTB are
                                              predominantly small businesses, which contribute to local job
                                              opportunities as well as America’s competitiveness in the global market.

 The number of wineries and breweries         Over the past several years, the number of permit applications that TTB
 in the U.S. continues to trend up even       has received has increased dramatically. The increase in workload
 during a period of recession in the
                                              volume, combined with declining resources, has made it difficult for the
 global economy. Both the number of
 wineries and breweries has grown
                                              Bureau to maintain prompt processing times. Since TTB’s inception in
 significantly since FY 2008, with            2003, the permit processing workload has increased 119 percent. In the
 wineries up 40 percent and breweries up      year between fiscal years 2011 and 2012, TTB’s permit processing activity
 more than 60 percent in a period of          has increased 33 percent. Without intervening action, TTB projected that
 5 years. Breweries increased a
                                              average processing times would have exceeded 90 days by early FY 2012,
 remarkable 25 percent compared to the
 prior year. Market data indicates that       compared to 65 days in FY 2010. Not addressing delays in permit
 growth is strong in the craft brewer         issuance would have placed TTB in an obstructive posture at a time when
 segment, which includes microbreweries       job creation and United States competitiveness abroad are national
 and brewpubs.
                                              priorities.

                                              After a year of intensive development, in FY 2011, TTB implemented its
                                              electronic permit application system to address these service delivery
                                              issues. With the first two releases, in February and April 2011, Permits
                                              Online enabled certain industry members—alcohol wholesalers, alcohol
                                              importers, wineries, specially denatured alcohol users or dealers, and tax-
                                              free alcohol users—to complete and submit permit applications online.
Over the last five years, there has been
explosive growth in the number of craft
                                              These application types account for more than 70 percent of the total
distilleries, defined as beverage distilled   number of original permit applications received by TTB. In FY 2012, TTB
spirits that taxpaid less than 100,000        completed its implementation of Permits Online with a third system
proof gallons annually. This segment has      release that enabled electronic filing for its remaining high volume permit
increased by nearly 125 percent since FY
                                              types: breweries, distilled spirits plants, alcohol fuel plants, tobacco
2008.
                                              manufacturers and processors, and firearms manufacturers.



                                                               15
                                           TTB 2012 Annual Report
Significant system features include online self-registration, self-monitoring of an application’s status, and
electronically guided assistance through the application process. The built-in prompts and self-help
instructions at each step of the application process also ensure that the applications that reach TTB specialists
are completed correctly and contain all the required documentation. In FY 2012, TTB added numerous system
enhancements to improve both internal processing efficiencies and the ease of use for its customers, including
pre-population of certain required fields and streamlined fields for permit amendments.

The impact of Permits Online has been substantial. At year end, the overall adoption rate for Permits Online
was 62 percent. This level of electronic filing helped TTB to reduce the average processing time for original
applications to 67 days, which represents processing times 7 days faster than the FY 2011 average. The
average processing time for all approved permit applications filed in Permits Online was just under 57 days.
This improvement is notable given the influx of permit applications in FY 2012 and the decrease in the number
of employees processing them.

Going forward, TTB will continue to promote the use of Permits Online and implement enhancements that
improve its functionality. Enhancements planned for FY 2013 include the uploading of historical permit
information from TTB’s legacy permit system to Permits Online, which will allow existing industry members to
use Permits Online for filing amendments to their approved permit. As TTB receives more than 18,000
amendments annually, this upgrade will result in efficiencies for both TTB and its regulated industry members.
TTB also is working on an initiative that will make available to industry members who obtain their permits
through Permits Online an encrypted electronic copy of their application data, which may be provided to state
liquor authorities when applying for the equivalent state licenses. If states adopt this program, the application
process will be streamlined for applicants as they will only be required to enter certain information once that is
needed by both TTB and the states in the permitting process.

Importing Tobacco Products without a Permit
In support of the Bureau’s business integrity objectives, TTB monitors compliance with Federal permit
requirements among tobacco product importers through a variety of data analysis and investigative
techniques.

In FY 2012, through this data analysis, TTB intelligence analysts identified that 13 percent of active tobacco
importers in FY 2012 had illegally imported products. TTB responded by issuing cease and desist letters to
these importers. These efforts to identify and address compliance violations have proven effective, as all of
the importer entities notified by TTB have subsequently complied with their legal obligations or ceased
operations, and the overall rate of non-compliance with Federal permit requirements has declined since TTB
began tracking this information.

The rate of non-permitted tobacco importers that have declared entries of tobacco products to U.S. Customs
has declined since the Bureau initiated this enforcement strategy in FY 2008. During this period, the level of
illegal importers has dropped from 22 percent to 13 percent in FY 2012. As tobacco products are often
smuggled into the U.S. through undeclared importations, however, TTB must continue to supplement these
data mining efforts and to monitor importer activity through audits, investigations, and other intelligence
efforts to detect undeclared importations and address the substantial potential tax losses that they represent.



                                                       16
                                                             TTB 2012 Annual Report

                                                                               Market Integrity
EURASIAN WINE TRADERS TOUR TTB
                                                                               TTB is charged with assuring that the alcohol
LABORATORY                                                                     marketplace is free from practices that would stifle
                                                                               competition and act as a barrier to trade. Under its
                                                                               Trade Facilitation program, TTB meets this mandate
                                                                               through a variety of activities, ranging from
                                                                               investigations of industry trade practices to engaging
                                                                               foreign counterpart agencies to keep the channels of
                                                                               commerce open and operating in compliance with
                                                                               U.S. and international laws.

                                                                               TTB’s work in this area has direct influence on the
                                                                               Nation’s economic recovery. Industry trade
                                                                               association reports 10 state that the alcohol beverage
Eighteen producers and industry representatives from the                       industry contributes directly or indirectly to the U.S.
countries of Azerbaijan, Georgia, Moldova, and the Ukraine visited
                                                                               economy by providing nearly 4 million jobs and
TTB’s Beverage Alcohol Laboratory in Beltsville, Maryland, in
February 2012. The wine marketing and promotion group toured
                                                                               roughly $400 - $500 billion in economic activity.
the Laboratory and received a briefing by TTB chemists.                        Overseas demand for the products TTB regulates
The tour was part of the Department of Commerce’s Special
                                                                               remains strong, with U.S. exports of all alcohol
American Business Internship Training program (SABIT). The                     beverages totaling nearly $3 billion in 2011. The
SABIT program provides technical assistance by training Eurasian               majority of these exports are spirits and wine
business leaders in U.S. business practices.                                   products.
TTB participated in this program to explain U.S. import
requirements to these producers and industry representatives.                  Promoting Fair Competition in the U.S.
TTB has previously met with similar groups through SABIT in                    Marketplace
January 2010 and January 2011.
                                                                               As part of its Trade Facilitation Program, TTB has
According to data from the Department of Commerce and the U.S.                 reinvigorated its FAA Act trade practices program to
International Trade Commission, the U.S. imported wine valued at
                                                                               investigate acts that violate Federal law relating to
more than $2.31 million from these countries in 2010 (Georgia-
$1.1 million; Moldova-$857,000; Ukraine-$239,000; Azerbaijan-                  alcohol beverage marketing practices. The FAA Act
$114,000).                                                                     provisions that TTB enforces require TTB to ensure fair
Meetings like this support Treasury’s goal of enhancing U.S.                   competition in the alcohol beverage trade by not only
competitiveness by encouraging free trade and open markets and                 verifying that persons who engage in the trade are
providing direct assistance to developing countries. Further, this             qualified to do so within the meaning of the statute
work assures that alcohol beverage products comply with Federal
                                                                               but also by ensuring the trade practices among
production, labeling, and advertising requirements.
                                                                               industry competitors comply with the law. Regulated
                                                                               trade practices entail restrictions involving exclusive

         q137
         10
           “The Impact of Wine, Grapes and Grape Products on the American Economy 2007,” MKF Research LLC; “The National Trade
         Association Representing Producers and Marketers of American’s Favorite Brands of Distilled Spirits,” Distilled Spirits Council of the
         United States; “Beer Industry Contributes Nearly $200 Billion to U.S. Economy,” Beer Institute and National Beer Wholesalers
         Association. Economic Impact study conducted by John Dunham & Associates, New York City, using data compiled in 2008.



                                                                             17
                                                         TTB 2012 Annual Report
      outlets, tied-house arrangements, commercial bribery, and consignment sales. Unlawful trade practices
      threaten fair competition because such practices undermine equal access to the marketplace, precluding
      healthy small business activity, and limit consumer choices by allowing influential producers to unlawfully
      interfere with the supply chain.

      In FY 2012, TTB issued two industry circulars providing guidance to industry members on trade practice
      prohibitions. TTB issued Industry Circular 2012-01, Guidance Regarding Industry Members’ Participation in
      Retail Programs, to inform all industry members and other interested parties of the Bureau’s position
      regarding participation in retail promotional programs. In this circular, TTB provided guidance on the
      promotional activities it considers permissible between alcohol beverage suppliers and retailers. This circular
      was issued following the 2011 settlement of a series of trade practice investigations. As a result of these
      investigations, the Bureau alleged that certain suppliers violated the tied-house “slotting fee” provisions of the
      FAA Act by offering inducements to a large casino chain in order to receive preferred shelf and warehouse
      space. These TTB investigations resulted in offers in compromises from six companies totaling approximately
      $1.9 million, and marked the largest set of offers in compromise ever accepted by TTB for trade practice
      violations.

      TTB also issued Industry Circular 2012-2, Tie-In Sales, to update its published guidance to reflect current
      terminology and industry practices. This circular advised alcohol industry members and others that tie-in sales
      of alcohol beverage products were prohibited inducements under the “Tied-House” provisions of FAA Act. A
      tie-in sale is a form of unlawful quota sales, and occurs when an industry member requires a retailer to
      purchase a product that the retailer did not want to purchase in order to obtain the product the retailer
      wants.
and
      Finally, in FY 2012, TTB successfully brought to resolution a program implemented by an alcohol beverage
      control state 11 that conflicted with Federal trade practice law. TTB learned that a state’s department of liquor
      control had established a new policy that required alcohol suppliers and wholesalers to include an “exit
      strategy” for those products that they wanted to sell in the state Alcoholic Beverage Control (ABC) stores.
      Under the new policy, the supplier was required to “exit” the product if, within one year, the product failed to
      meet certain criteria established by the state for continued listing in its stores, including sales projections. TTB
      informed state officials that the exit strategy requirement placed both the state and participating industry
      members in jeopardy of violating the consignment sales prohibition of the FAA Act, since the sales under this
      program placed conditions on the purchase of the product and did not represent a bona fide sale. The state’s
      department of liquor control acted to address this issue, and informed TTB that it would eliminate the exit
      strategy provision.




      r137

      11
        A control state has a state monopoly over the wholesaling and/or retailing of alcohol beverages within their state. There are 18
      control states in the U.S.




                                                                        18
                                                                          TTB 2012 Annual Report
Facilitating U.S. Penetration into Foreign Markets

TTB has been actively engaged with U.S. trade officials in facilitating fair and open trade in alcohol beverages
to support new opportunities for U.S. businesses in overseas markets. U.S. exports of alcohol beverages
totaled nearly $3 billion in 2011, the most recent full year of data available. In line with increases in overall
export volume, alcohol beverage exports increased 17 percent compared to the prior calendar year. As the
technical expert in these commodities, TTB seeks to promote U.S. exports by facilitating industry compliance
with foreign requirements and by working with foreign regulators to address barriers that block market access
for U.S. products.
TTB must process certificates for U.S. producers to facilitate export sales because many foreign countries
require that shipments be accompanied by a certification from an appropriate government authority prior to
allowing entry of the product. This activity affirms the integrity of domestically produced alcohol beverages
and supports the U.S. trade policy goal to double exports by the end of 2014, as stated in the Administration’s
National Export Initiative.
For those countries that maintain a certification requirement, in FY 2012, TTB issued nearly 10,000 export
certificates for beer, wine, and distilled spirits. Without these certificates, which are only issued by TTB, U.S.
producers of alcohol beverages cannot sell their products in major markets abroad. Through its international
outreach and negotiations, TTB has arranged for the elimination or reduction of certification requirements for
wine exported to the 27 member states of the European Union, Argentina, Australia, Canada, Chile, Georgia,
New Zealand, and South Africa.




 TRENDS IN ALCOHOL BEVERAGE IMPORTS and EXPORTS
                                    U.S. Beverage Alcohol Exports                                                          U.S. Beverage Alcohol Imports
                                        (2007 - 2011, by value)                                                                (2007 - 2011, by value)
                           $1,400                                                                              $7,000
                           $1,200                                                                              $6,000
     Dollars in Millions




                                                                                         Dollars in Millions




                           $1,000                                                                              $5,000
                            $800                                                                               $4,000
                            $600                                                                               $3,000
                            $400                                                                               $2,000
                            $200                                                                               $1,000
                               $-                                                                                 $0
                                     2007    2008        2009      2010      2011                                           2007     2008        2009        2010       2011
                                                    Calendar Years                                                                          Calendar Years

                                Grape Wine    Distilled Spirits   Malt Beverages                                        Grape Wine     Distilled Spirits     Malt Beverages



  The value of the commodities that TTB regulates has increased, particularly in regard to wine products. In 2011, for example,
  global exports of U.S. wine totaled more than $1.2 billion, which represents a 22 percent increase from 2010. With the
  exception of the 2009 calendar year, exports of wine (by value) have increased each year for the previous five years. Distilled
  spirits exports reflect a similar trend, though at a more moderate level. Global exports of U.S. spirits totaled more than $1.3
  billion in 2011, representing a 14 percent increase over the same period in the prior year. Malt beverage exports also indicate a
  positive trend, with a consistent increase in exports since 2007.

  Imports of beverage alcohol products (by value) in 2011 increased from previous years. From 2010 to 2011, there was a 14
  percent increase in wine, a 10 percent increase in distilled spirits, and a 2 percent increase in malt beverages. Statistics indicate
  a slight decrease in imports from 2008 to 2009, which was also a trend with exports. Distilled spirits and wine imports reached
  a five-year high in 2011, totaling $5.7 billion and $4.8 billion, respectively.


                                                                                    19
                                                                                TTB 2012 Annual Report


ALCOHOL BEVERAGE EXPORTS

                                             Cased Beverage Distilled Spirits                                                                   Wine Exports by Fiscal Year
                                                 Exports by Fiscal Year                                                               110,000                                       108,688

                                 35,000                                                                                               108,000




                                                                                                        Wine-gallons (in thousands)
  Wine Gallons (In Thousands)




                                                27,524                          27,937    29,545
                                 30,000                                                                                               106,000     105,109                104,347
                                                           24,564     25,633
                                 25,000                                                                                               104,000
                                                                                                                                      102,000                 101,292
                                 20,000
                                                                                                                                                                                               99,778
                                 15,000                                                                                               100,000
                                 10,000                                                                                                98,000
                                  5,000                                                                                                96,000
                                     -                                                                                                 94,000
                                               FY 2008    FY 2009    FY 2010   FY 2011   FY 2012                                                 FY 2008     FY 2009     FY 2010   FY 2011    FY 2012



                                   Bulk Distilled Spirits Exports by Fiscal                                                                     Beer Exports by Fiscal Year
                                                    Year                                                                              6,000

                                 800,000                                                                                                                                                       4,894
                                                                                         681,571                                      5,000
  Proof-gallons (in thousands)




                                                                                                        Barrels (in thousands)
                                 700,000                                                                                                         4,020       4,045       4,023      4,222

                                 600,000                                                                                              4,000
                                                                               471,641
                                 500,000                                                                                              3,000
                                 400,000
                                 300,000                             249,132                                                          2,000
                                 200,000        122,200    111,444                                                                    1,000
                                 100,000
                                         -                                                                                               -
                                                FY 2008   FY 2009    FY 2010   FY 2011   FY 2012                                                FY 2008     FY 2009     FY 2010    FY 2011    FY 2012




                                                                                                   20
                                                          TTB 2012 Annual Report
                                                          TTB’s workload in processing export certificates increased by 19
                                                          percent between fiscal years 2008 and 2012, reflecting the growth in
 TRADE CERTIFICATE PROCESSING
                                                          U.S. wine and spirits exports. Exports of these alcohol beverage
     Certificates of Free Sale/Origin and by
             TTB for Exported Wine
                                                          commodities increased approximately 38 percent in the last five
                                                 5,575    calendar years, totaling nearly $3 billion in 2011. In order to facilitate
                                      3,850               and expedite the issuance of certificates, TTB implemented an
                            2,429                         enhancement to its Permits Online system to enable the electronic
                                                          submission of certificate requests.
                  1,402
     924



   FY 2008       FY 2009   FY 2010   FY 2011    FY 2012
                                                          Going forward, TTB will continue to seek agreements with U.S. trade
             VI1 Certificates Issued for Wine             partners to reduce or eliminate certification requirements where
              Exported to European Union
                            1,738
                                                          possible.
    1,404         1,333

                                                          Preventing and Addressing Barriers to Trade
                                       177
                                                  74      The TTB Trade Facilitation Program also involves identifying and
   FY 2008       FY 2009   FY 2010   FY 2011
       Certificates of Age/Origin Issued by
                                                FY 2012
                                                          addressing barriers to trade in the international marketplace. TTB is
             TTB for Exported Spirits
                                                          the principal advisor and technical expert for the Office of the United
    6,090         6,089

                                                          States Trade Representative (USTR) and other Federal agencies in the
                            5,609
                                      4,934
                                                 4,350

                                                          administration of U.S. alcohol laws, regulations, and policies, and
                                                          coordinates with these agencies as appropriate in responding to
   FY 2008       FY 2009   FY 2010   FY 2011    FY 2012
                                                          alcohol beverage and tobacco trade issues. TTB provides expert
In FY 2012, TTB issued almost 10,000 export
                                                          reviews of foreign regulatory proposals impacting the alcohol and
certificates for wine and distilled spirits products.     tobacco trade to identify and assess the impact of potential trade
Without these certificates, U.S. producers and            barriers for U.S. alcohol and tobacco exporters. The USTR estimates
exporters of alcohol beverages cannot register or         that between 10 – 20 percent of new barriers to trade relate to
sell their products in many key markets abroad,
                                                          alcohol beverages, and TTB plays a crucial role in the early
such as China, the EU, and Japan.
                                                          identification and resolution of these issues.
TTB’s workload in processing export certificates
increased by 33 percent between FY 2007 and FY            Members of the World Trade Organization (WTO) are obligated to
2011, the most recent five years of data available.       submit proposed, new, and amended technical regulations to the
Exports of alcohol beverages are on the rise, with
                                                          WTO for review by, and comment from, other WTO members. The
wine and spirits exports in 2010 of $2.5 billion, a
37 percent increase from 2007. In order to
                                                          notification process prevents new non-tariff trade barriers. TTB
facilitate the issuance of certificates, TTB now          participates in the interagency Technical Barriers to Trade (TBT) and
provides an electronic submission option for              Sanitary and Phytosanitary (SPS) Measures Working Group and
certificate requests through its Permits Online           provides its expertise on alcohol beverage regulations submitted to
system.
                                                          the WTO TBT Committee. In FY 2012, TTB addressed issues related to
TTB continues to work with U.S. trading partners          alcohol beverage regulations or standards proposed by the EU, India,
to eliminate unnecessary or burdensome                    Russia, South Korea, and Vietnam. For example, the EU proposed
certification requirements. Export certifications as      regulations seeking exclusive use of traditional terms such as
a whole increased 12 percent between FY 2011
and FY 2012; however, TTB processed 58 percent
                                                          “tawny,” “ruby,” “reserve,” “classic,” and “chateau” on wine labels,
fewer VI1 forms required for wine exported to the         which the United States views as descriptive and commercially
EU.                                                       valuable terms that are commonly used by U.S. wine producers.
                                                          Additionally, Russia proposed regulations on alcohol beverage

                                                                       21
                                           TTB 2012 Annual Report
product safety, warehousing, and tax stamps that present potential barriers to U.S. industry.

In all, during FY 2012, TTB reviewed 34 new regulatory measures submitted to the WTO TBT Committee
related to alcohol beverages, and provided comments to the notifying country on the 13 measures that
presented potential technical trade barriers for U.S. producers. The measures TTB provided comments on
included Colombian technical regulations on alcohol, Ugandan food additives, Dominican Republic technical
regulations on alcohol, Brazilian oenological practices, EU requirements for wine, and Central American
Customs Union requirements for labeling of distilled spirits.

TTB also participates in Codex Alimentarius committee meetings to prevent this standards-setting organization
from adopting new standards that would impede the U.S. export trade in alcohol beverages. The Codex
Committee on Food Additives (CCFA) sets the maximum use levels of food additives. In FY 2012, the
committee discussed and proposed maximum use levels for several colors, preservatives, and sweeteners in
various categories of foods, including alcohol beverages, and proposed maximum use levels were sent to the
Codex Commission for endorsement. The committee participants discussed the food categories, including
alcohol beverages, where the use of acidity regulators and stabilizing agents were appropriate for inclusion in
the General Standard for Food Additives (GSFA). Many developing countries look to the GSFA when setting
national legislation and do not allow the addition of additives that are not listed in the GSFA. This practice can
lead to trade barriers for U.S. alcohol beverages entering these countries.

Additionally, TTB participates in the Codex Committee on Food Labeling (CCFL). In FY2012, the CCFL discussed
non-addition claims for sugar and salt, guidelines for the use of “comparative” claims (i.e., claims of reduced
energy or nutrient content, “light” claims, and claims related to trans-fatty acids.

Supporting International Trade Agreements for Alcohol Beverages
TTB also works to address barriers in the international marketplace by participating with other Federal
agencies in the negotiation of international trade agreements related to alcohol and tobacco products on
behalf of the U.S. Government. In FY 2012, TTB participated with the USTR in three negotiating rounds of the
Trans-Pacific Partnership Agreement (TPP). The TPP—a free-trade agreement being negotiated between
Australia, Brunei, Canada, Chile, Malaysia, Mexico, New Zealand, Peru, Singapore, Vietnam, and the United
States—includes a Wine and Spirits Annex in the chapter on technical barriers to trade. The annex aims to
reduce barriers to trade in the regulation of wine and spirits by laying out acceptable procedures in the areas
of labeling, identity standards, conformity assessments, compliance periods, and acceptance of oenological
practices. Negotiations on this free-trade agreement continued in Auckland, New Zealand, in December 2012.

In FY 2012, TTB also continued its role in the interagency project with the USTR, the USDA Foreign Agricultural
Service, the U.S. Department of Commerce, and the U.S. Department of State to establish open dialogue and
exchange of information with the Asia-Pacific Economic Cooperation (APEC) economies in support of
expanding markets for U.S. exports. This forum is particularly important as emerging markets are creating
increasing numbers of technical barriers to trade in alcohol beverages.




                                                       22
                                             TTB 2012 Annual Report
APEC is the premier forum for facilitating economic growth, cooperation, trade, and investment in the Asia-
Pacific region. 12 The 21 APEC members are: Australia, Brunei Darussalam, Canada, Chile, the People’s Republic
of China, Hong Kong, Indonesia, Japan, the Republic of Korea, Malaysia, Mexico, New Zealand, Papua New
Guinea, Peru, the Republic of the Philippines, Russia, Singapore, Chinese Taipei, the United States, Thailand,
and Vietnam. Many of the APEC member economies are emerging export markets for the U.S. wine industry.

TTB worked with APEC economies to streamline and reduce unnecessary certification requirements, as these
requirements are a significant burden to U.S. exporters and TTB. During an April 2012 workshop, participants
from 26 countries discussed the role that export certificates play in ensuring that imported products are
properly regulated and safe, and the ways to reduce barriers posed by certificates or other assurance systems.
Moving forward, TTB will continue to work with APEC members to help those economies develop responsible
regulatory activity that does not impede trade in alcohol beverages.

Finally, in March 2012, certain provisions of the United States-Korea Free Trade Agreement (FTA) went into
effect, including the gradual elimination of Korean import tariffs on alcohol beverage products from the United
States. TTB assisted with the initial negotiation sessions of the FTA, providing technical expertise on distinctive
product designations for alcohol beverages. In addition, TTB has posted to its Web site a copy of the United
States-Korea FTA Certificate of Origin template, a self-certifying document needed to claim the reduced tariff.
As part of this effort, and at the request of USTR, TTB published Ruling 2012-1 in January 2012, which
established TTB’s recognition of Andong Soju and Gyeongju Beopju as geographical designations for certain
distilled spirits products from the Republic of Korea. This ruling formalizes the provision in the United States–
Korea FTA in which the United States agreed to recognize those products as distinctive products of Korea.

Coordinating with Foreign Counterparts to Extend Regulatory Controls

The global trade in alcohol beverages is active and increasing and, to be an effective regulator, TTB must seek
innovative and efficient ways to achieve its consumer protection and revenue collection mission. One key
strategy to ensure that U.S. businesses remain competitive on a global scale is through improved
communication with our trading partners. TTB’s expansion of international agreements has fostered a global
network of regulators in the alcohol and tobacco industries that ensure markets remain open and that illegal
activity in the global trade is addressed promptly.

In FY 2012, TTB made significant progress on international agreements with multiple counterpart agencies in
Brazil and Chile, continued its efforts toward a Memorandum of Understanding (MOU) with Russia, and
leveraged its established MOU with France and the People’s Republic of China in response to reports of
fraudulent or counterfeit wine products. TTB establishes these agreements to facilitate trade by increasing
mutual understanding of each country's alcohol and tobacco production, labeling, and licensing requirements,
and by providing a process for the exchange of regulatory information that has the potential to impact trade,
compliance, and product safety. TTB, working with its trade partners in the World Wine Trade Group (WWTG),
w137
12
   APEC is an inter-governmental grouping that operates on the basis of non-binding commitments and open dialogue.
Unlike the World Trade Organization (WTO) or other multilateral trade bodies, APEC has no treaty obligations required of
its participants. Decisions are reached by consensus and commitments are undertaken on a voluntary basis.


                                                           23
                                          TTB 2012 Annual Report
also signed an agreement to eliminate routine certification or other reporting requirements for wine products
or ingredients that would obstruct free flowing trade.

Brazil
Brazil is an important emerging market for U.S. exporters, but a number of trade barriers remain. Brazil
accounted for $294 million in alcohol and tobacco trade with the United States in 2011, and it is the world’s
sixth largest economy. TTB shares several mutual issues of interest with Brazil in the regulation of alcohol and
tobacco products, including joint challenges in preventing the loss of revenue from diversion. Brazil is also an
important export market for U.S. alcohol producers, who currently face multiple technical barriers to export
trade, such as onerous certificate requirements on a per shipment basis and a lack of clarity regarding labeling
regulations.

In August 2012, TTB signed an MOU with the Brazilian National Health Surveillance Agency (ANVISA), a semi-
autonomous government agency responsible for exercising sanitary controls over the production and
marketing of products and services, including tobacco. The MOU is intended to establish a consistent channel
for information exchange regarding imported and exported tobacco products. TTB also participated in the
inauguration of ANVISA’s pilot laboratory, which will allow it to conduct analyses on tobacco content and
emissions. Both agencies identified a number of specific technical areas in which cooperation under the MOU
could produce mutually beneficial results.

In FY 2012, TTB built additional relationships with its Brazilian counterpart agencies. In meeting with
representatives from the Ministry of Federal Revenue (Receita Federal), TTB learned about Brazil’s tax stamp
system for tobacco products, which involves a track-and-trace system to ensure proper payment of excise
taxes, and a similar system for alcohol beverages. TTB and Receita agreed to consider pursuing an MOU in
order to encourage the exchange of information with the intent of preventing revenue losses from tobacco
diversion.

TTB also met with the Brazilian Ministry of Agriculture, Livestock, and Food Supply (MAPA), the governmental
agency responsible for regulating the labeling and content of imported and domestic alcohol beverages.
During the meeting, both agencies provided an overview of the procedures required to provide recognition for
each other’s distinctive products – Cachaça, in the case of Brazil, and Bourbon and Tennessee Whiskey, in the
case of the United States – and also discussed a number of other recent regulatory developments with regard
to alcohol beverages. Both agencies agreed to continue discussions on an MOU in order to enhance prospects
for trade in alcohol beverages.

Chile
Two-thirds of Chile’s wine is exported and the United States is its biggest export market. Since 2007, the
United States’ imports of Chilean wine have increased by 41 percent. In March 2012, TTB met with the
Director of the Servicio Agricola y Ganadero (SAG), Government of Chile, to follow up on TTB’s proposal to
establish an MOU with SAG. SAG is responsible for ensuring that all wineries in Chile follow domestic and
international requirements. TTB discussed the benefits of a TTB-SAG MOU to help ensure that all imported
Chilean beverage alcohol products comply with Federal production, labeling, and advertising requirements.




                                                       24
                                             TTB 2012 Annual Report

   BRAZIL, U.S. SIGN EXCHANGE OF LETTERS ON DISTINCTIVE PRODUCTS
   TTB participated in a signing ceremony on April 9, 2012, between the United States and Brazil. The U.S. Trade
   Representative, Ambassador Ron Kirk, and the Brazilian Minister for Development, Industry and Foreign Trade,
   Fernando Pimentel, signed an agreement in the form of an exchange of letters on distinctive products.

   As a result of this agreement, the United States agreed to publish a notice of proposed rulemaking (NPRM) that
   would propose to recognize Cachaça as a type of rum that is a distinctive product of Brazil and propose to
   eliminate the requirement that Cachaça be labeled as "rum." The NPRM was published in the Federal Register on
   April 30, 2012.

   The next step would be for the U.S. to publish a final rule granting official recognition for Cachaça as a distinctive
   product of Brazil. Brazil has agreed to recognize Bourbon Whiskey and Tennessee Whiskey as distinctive products
   of the United States within 30 days of the final rule’s publication.

   This exchange of letters creates increased opportunities for U.S. spirits in the Brazilian market and ensures that
   products in Brazil labeled as Bourbon Whiskey and Tennessee Whiskey reflect their true origin.

   According to the USTR, in 2011, Brazil was our eighth largest goods trading partner with $74 billion in total trade
   between the two nations.

                                                                Fernando Pimente, Brazilian Minister for Development,
                                                                Industry and Foreign Trade, and Ambassador Ron Kirk, U.S.
                                                                Trade Representative, sign an agreement in the form of an
                                                                exchange of letters on distinctive products in Washington,
                                                                D.C., April 9, 2012.




France
France, along with Italy, is typically the largest or second-largest source of imported wine in the United States,
according to United States trade data. As a result, it is important that TTB develop effective partnerships with
the French authorities that have jurisdiction over the production, sale, and labeling of wine so that American
businesses and consumers have assurances as to the integrity of products that originate in France. To this end,
TTB signed an MOU with France’s General Directorate for Competition Policy, Consumer Affairs, and Fraud
Control (DGCCRF), which TTB signed on September 1, 2011. In FY 2012, this regulatory relationship served to
address an incident of fraudulent wine produced by a French winery. The DGCCRF, in accordance with the
MOU, contacted TTB in July 2012 to alert the Bureau to a recently discovered fraud case involving high-end
wines from Burgundy. The wine may have been labeled with “inexact” vintage dates and with an appellation
of origin designation to which the wine was not entitled. According to the DGCCRF, between one and five
percent of the winery’s output was affected by the fraud. TTB continues to work with the DGCCRF to obtain

                                                           25
                                           TTB 2012 Annual Report
additional information about the mislabeled wine, including confirmation of whether any of the mislabeled
wine was exported to the United States.

China
The People’s Republic of China is an important emerging market for U.S. alcohol beverage exporters and
represents the single largest destination country for export certifications processed by TTB. China is also a
potential source of counterfeit goods in the global marketplace. Thus, the MOU that TTB established with
China’s General Administration of Quality Supervision, Inspection and Quarantine (AQSIQ) in 2007 is an
important tool used by TTB to promote a stable export market for United States alcohol beverages and a
domestic market that is free of counterfeit products. In FY 2012, TTB received reports of counterfeit ice wine
produced in China. Under TTB regulations, ice wine sold in the United States must be made from grapes
naturally frozen on the vine. Many regions of the United States, including New York, produce ice wine, and
counterfeit product places them at a competitive disadvantage. TTB contacted the AQSIQ in accordance with
its MOU regarding the counterfeit ice wine reports. TTB also continues to monitor wine imported from China
and, to date, has not found counterfeit ice wine in the United States.

Russia
Although Russia is an important emerging market for U.S. exporters, current exports of U.S. alcohol beverage
products to Russia are low, in part, because of uncertainties related to Russia’s regulations for alcohol
beverage products. A functional relationship between TTB and Russia’s regulatory authorities on alcohol could
prevent or mitigate a number of potential trade problems.
In July 2012, TTB joined its partners in the USTR, USDA Foreign Agriculture Service, and the Department of
Commerce to discuss possibilities for engaging with Russia on alcohol beverage trade issues. TTB had
previously engaged representatives of Russia’s Federal Service for Alcohol Market Regulation (FSR) regarding
initiating negotiations for an MOU and, in FY 2012, continued its work with U.S. trade agencies to further its
long-term goal of signing a TTB-FSR MOU in order to promote effective regulation of the alcohol market and
facilitate compliant trade in alcohol between the United States and Russia.

World Wine Trade Group
The United States is a participant in the WWTG, an informal grouping of government and industry
representatives from the wine-producing countries of Argentina, Australia, Canada, Chile, Georgia, New
Zealand, the United States, and South Africa.

The WWTG, founded in 1998, aims to share information collaborate on a variety of international issues and
endeavors to create new opportunities for wine trade. Since its inception, the WWTG has completed a
number of agreements related to oenological practices, labeling practices for wine, and trade certifications, all
of which seek to minimize trade barriers and facilitate international trade.

In October 2011, the United States, along with representatives from Argentina, Australia, Chile, Georgia, and
New Zealand, signed an MOU on Certification Requirements, which aims to reduce barriers to international
wine trade and support exporters of wine in each participating country by encouraging the elimination of
burdensome requirements and routine certifications of wine products and ingredients. Under the MOU, the
participating countries should not require certification related to vintage, varietal, or regional claims for wine
unless they have legitimate concerns about such claims. If certification is necessary, the MOU encourages


                                                        26
                                            TTB 2012 Annual Report
participants to accept certificates issued by the official certification body or by an officially recognized
certification body of the exporting country.

TTB also provided technical advice to USTR during July 2012 negotiations with WWTG related to a second-
phase agreement on wine labeling. The parties to the draft agreement would accept the importation of wine
that is labeled in conformity with the exporting country’s rules on alcohol tolerance, single and multiple grape
varieties, single and multiple wine regions, and vintage dates, provided that the wine meets the specified
minimum standards. If implemented, the agreement would facilitate trade among the parties by reducing
unnecessary labeling-related trade barriers.

TTB also worked in FY 2012 with its WWTG trade partners on additional issues, such as new regulations and
oenological practices adopted by member countries, pesticide maximum reside levels, and sustainability
issues, including ways to prevent sustainability standards and labeling from becoming technical barriers to
trade.

Product Integrity
Consumer confidence is essential to ensuring that U.S. and world economies perform at their full economic
potential. TTB is the Federal agency responsible for carrying out provisions of the FAA Act that ensure that
labeling and advertising of alcohol beverages provide adequate information to the consumer concerning the
identity and quality of the product and to prevent misleading labeling or advertising that may result in
consumer deception regarding the product.
This consumer protection function falls under TTB’s Advertising, Labeling, and Product Safety Program. Before
an alcohol beverage product can be sold in the United States, TTB reviews the product label to ensure that it
contains all mandatory information and does not mislead the consumer. In addition, labels are reviewed for
compliance with the Alcohol Beverage Labeling Act, the Federal law that mandates that a health warning
statement appear on all alcohol beverages offered for sale and distribution in the United States. The approved
label application is called a Certificate of Label Approval (COLA).

TTB also conducts a marketplace sampling of alcohol beverages for container content and label compliance
through its Alcohol Beverage Sampling Program (ABSP). This involves examining a statistical sample of
domestic and imported wine, spirits, and malt beverage products to determine if the labels meet Federal
requirements, and the contents of the bottle match the label description. This process also includes a
chemical analysis of selected products by the TTB Laboratory for product identification and safety purposes.
TTB also reviews advertisements for alcohol beverage products from television, radio, the Internet, and
other ad sources for compliance with Federal regulations.

As part of the Bureau’s Advertising, Labeling, and Product Safety Program, TTB works to ensure that alcohol
beverages meet the standards of identity that their labels reflect and that all ingredients and treating materials
are authorized and within the limits set forth under applicable law and regulations. In the event that a food
safety or other product integrity issue occurs, the Bureau responds by working directly with the responsible
parties and, as appropriate, shares its findings with other regulatory and enforcement agencies and works in
partnership to timely resolve the issue.


                                                         27
                                          TTB 2012 Annual Report


Streamlining the Alcohol Beverage Label Approval Process
TTB reviews alcohol beverage label applications to fulfill the statutory requirement that bottlers and importers
of alcohol beverages have an approved COLA or an exemption certificate before the product enters domestic
commerce. The number of applications for label approval that TTB received between fiscal years 2008 and
2012 increased 14 percent. After a drop off in FY 2009, which may be attributable to the economic downturn,
the number of label filings trended up again in fiscal years 2010 through 2012. In one year, label applications
processed by TTB increased 5 percent. Again in FY 2012, the significant majority of label applications received
were for wine products, with the wine industry submitting 80 percent of all label applications processed by
TTB.

Due to resource and workload challenges, the Bureau initiated an evaluation of its COLA pre-approval process
and alcohol beverage product labeling regulations to focus on ways to streamline operations. TTB adopted a
number of changes that will reduce costs to the Bureau and industry, encourage the use of automated
processes, help industry to get products to the marketplace faster, and improve service.

TTB began the process of modernizing its alcohol beverage labeling program in FY 2011, and continued its
work in FY 2012 by implementing three main initiatives in support of this effort: 1) providing clear guidance to
industry, 2) improving its automated label application submission database, and 3) using a stratified random
sampling of alcohol beverage products in the marketplace as part of the ABSP to enhance enforcement efforts
and establish a tool for tracking compliance. The goal of this streamlining effort is to shift TTB’s focus in the
labeling area from pre-market approvals to a more useful marketplace review.

As part of this three-pronged approach, TTB continued its efforts to modernize the alcohol beverage labeling
regulations in parts 4, 5, and 7 of Title 27 of the Code of Federal Regulations. As part of this process, TTB
identified regulations that should be revised to reflect the current alcohol beverage market and industry
practices. By modernizing the labeling regulations to remove ambiguity and to remain current with market
conditions, TTB anticipates that industry will gain greater understanding of Federal requirements and be more
compliant. TTB plans to have a draft notice of proposed rulemaking (NPRM) for revisions to parts 4, 5, and 7 in
Bureau review by the end of FY 2012.

TTB also evaluated its current published labeling policies and internal processes to determine if the Bureau
could improve the COLA application process to reduce workload for both industry members and TTB. To date,
TTB has updated the COLA form and liberalized its list of allowable changes that industry members may make
to labels without resubmitting a COLA application. TTB anticipates that, over time, these changes will reduce
the number of resubmitted and new label applications. TTB also has amended personalized label guidance to
allow industry members to make certain additional changes without resubmitting labels for approval. Further,
TTB has relaxed its requirements related to type size requirements on labels and reduced review times by
eliminating its review of certain image-related issues on electronically filed label applications.

TTB is continuing to review each practice associated with the label approval process to identify practices that
the Bureau may streamline, cease, or enhance.




                                                       28
                                          TTB 2012 Annual Report


Evaluating Marketplace Compliance through the Alcohol Beverage Sampling Program
Once alcohol beverages enter the marketplace, TTB monitors labeling compliance through the Alcohol
Beverage Sampling Program (ABSP). In FY 2012, for the second year, TTB conducted the ABSP to garner
compliance results for all three alcohol beverage commodities (wine, distilled spirits, and malt beverages).

The purpose of the ABSP is to determine the compliance rate of alcohol beverage labels for all products found
in the marketplace in a determined period of time. Specifically, TTB seeks to determine the percentage of
products that are fully and accurately labeled, i.e., where the label accurately reflects the contents of the
bottle. The Bureau accomplishes this by examining a statistically valid sample of alcohol beverages in the
marketplace and reviewing the labels and contents of those products. TTB reviews the label of each product
included in the ABSP sample to ensure that it contains all legally required information and determines if there
is a valid COLA for the product. TTB also chemically tests each product to evaluate whether the label
information accurately reflects the content of the container. Based on the statistically valid sample collected
by the ABSP, TTB then extrapolates the ABSP findings to make conclusions about all products available in the
marketplace during the specific time period.

In FY 2011, TTB expanded the ABSP to include an investigative component, which provided additional
“content” compliance information for domestic wine. In FY 2012, TTB continued these efforts, focusing on
distilled spirits and malt beverages. TTB investigators performed limited product integrity investigations on
certain distilled spirits and malt beverages that were sampled for the ABSP, conducting reviews of proprietors’
records to verify the contents of the bottle were accurately represented by the label. Certain claims made on
labels, such as vintage date or varietal, require an inspection of production records, as these claims cannot be
verified by chemical analysis.

Preliminary data indicates that there is no statistically significant difference between the estimated compliance
rates for distilled spirits, malt beverages, and wine between FY 2011 and FY 2012. However, preliminary data
indicates that the overall compliance rate for distilled spirits decreased between 2011 and 2012, primarily due
to issues with proofing. As in prior years, there was no statistically significant difference between the
estimated overall compliance rates for domestic versus imported alcohol beverage products in FY
2012. Significant findings that required TTB intervention included wines that were misclassified for tax
purposes. TTB resolved these issues during the course of the ABSP investigation or through follow-up action
with industry members.

The Bureau’s monitoring of product and label compliance through the ABSP enables TTB to evaluate and
ensure the continued integrity of U.S. alcohol beverage products, both in the view of U.S. consumers and TTB’s
international counterparts, which is critical to gaining foreign market access for U.S. exporters. The complete
results of the ABSP for FY 2012 can be found on TTB.gov.

Improving Formula Processing with Online Filing Solution

TTB reviews domestic and imported alcohol beverage formulations and issues formulas, statements of process,
laboratory analyses, and pre-import letters. In the last five years, the number of formula applications that TTB
has received has grown by an average of nearly 1,500 applications per year, and increased 98 percent since
2008.
                                                        29
                                          TTB 2012 Annual Report
As part of TTB’s strategy to move its core business services into the online environment, TTB developed and
deployed Formulas Online, an electronic filing solution for industry to submit their formulas to TTB for review
for regulatory and tax compliance. Formulas Online is a Web-based system that allows external users to draft,
submit, and track formula applications for alcohol products. Whether TTB receives paper or electronic formula
applications, all submissions are captured in Formulas Online, providing a streamlined process for TTB
specialists to view, evaluate, request additional information or corrections,
and approve or reject applications.

TTB deployed the first release of Formulas Online in January 2011, which
enabled alcohol beverage producers and importers to electronically file
their formulae with TTB for approval. The system has built-in validations of
the data entered to assist industry in complying with Federal regulations.
As part of TTB’s ongoing efforts to reduce the regulatory compliance
burden, TTB integrated the Formulas Online system with its electronic filing
system for label applications, COLAs Online. In FY 2012, after just 20
months in production, TTB received 49 percent of alcohol beverage
formula submissions electronically through Formulas Online.

In early FY 2012, TTB released the second phase of Formulas Online, which streamlined the formula
submission process for nonbeverage alcohol products. Formulas Online now allows companies to submit
drawback and specially denatured alcohol formulas electronically, check the status of submissions, and receive
notice of TTB’s action in near real-time. Through webinars and significant outreach coordinated with key
stakeholders, such as the Flavor and Extract Manufacturers Association, TTB has been able to increase the
number of formulae submitted electronically to approximately 60 percent in less than one year.

Protecting Consumers from Adulterated and Contaminated Products
In administering the Advertising, Labeling, and Product Safety Program, TTB also conducts routine analysis of
sampled alcohol beverages for ingredients or materials whose presence is prohibited or limited. Examples
include thujone and toxic heavy metals. Additional examples include wines that are analyzed to ensure safe
levels of pesticides and ochratoxin-A, and malt beverages that are tested for mycotoxins, among other things.

TTB has established an intra-agency Pesticides, Adulterants, and Contaminants (PAC) Task Force to clearly
define the steps and procedures TTB will take in response to unsafe ingredients, pesticides, or hazards in any
beverage product that TTB regulates. As marketplace findings dictate, TTB coordinates with other Federal
agencies, foreign governments, and foreign alcohol beverage producers to address any consumer health
hazard.

In FY 2012 the PAC Task Force was called into action when a wine-spirits product was discovered to be
adulterated with high levels of copper. The PAC Task Force investigation revealed that the adulterated wine-
spirits product had also been used to produce Port wine. TTB investigated the incident in consultation with the
Food and Drug Administration (FDA), and determined that the Port was also considered adulterated, pursuant
to the FDA’s policy that adding “adulterated food” to “good food” adulterates the final product. Both the Port
and the clear wine-spirits were voluntarily held by the industry member on its premises until the products


                                                      30
                                          TTB 2012 Annual Report
could be reconditioned through an acceptable method. TTB continues to coordinate with the FDA to address
this issue and assure that U.S. consumers are not at risk of exposure to a health hazard.

Additionally, in FY 2012, TTB received notification that tainted liquor was responsible for killing at least 26
people in the Czech Republic during September 2012. The Czech Government reported that the tainted
distilled spirits were counterfeit products distributed through unofficial channels. The counterfeit vodka and
fruit-flavored spirits were adulterated with methanol, a poisonous form of alcohol normally used for industrial
purposes.

In response to this information, TTB coordinated with its partner agencies—FDA, CBP, and USDA—to take
precautionary measures to ensure the safety of American consumers. TTB verified through the Embassy of the
Czech Republic that there was no evidence to indicate that tainted Czech distilled spirits products were
commercially imported into the United States. TTB verified this information by review its labeling database to
identify any products that could potentially be imported from the Czech Republic. Federal law requires a COLA
for each unique distilled spirits product imported into the United States to ensure that the product complies
with Federal alcohol labeling regulations. Additionally, CBP monitored shipments of distilled spirits from the
Czech Republic and worked with TTB when follow-up action was necessary. TTB actively monitors situations
such as these and responds appropriately to ensure the safety of U.S. consumers.

Voluntary Compliance

In its Collect the Revenue and Protect the Public programs, TTB promotes voluntary compliance from the
regulated industries through its outreach efforts. TTB employs a dedicated staff of liaisons to provide industry
members and states with direct assistance on specific needs or guidance on broader issues affecting the
regulated commodities.

Supporting Compliance through Outreach and Education
The Bureau sponsors seminars and workshops to educate industry members on Federal requirements in the
areas of manufacturing, marketing, importing, and exporting alcohol and tobacco products, as well as paying
tax on alcohol, tobacco, firearms, and ammunition products. In FY 2012, TTB held several Webinars for
industry to support increased adoption rates for its new e-Gov filing solutions, Permits Online and Formulas
Online. TTB developed and delivered six training Webinars for Permits Online, and developed online tutorials
for on-demand access to guidance and tips related to the Federal permit application process. Further, since
February 2012, TTB has held seven Formulas Online Webinars in which industry members received virtual
training on various aspects of the formula system. TTB customized the sessions held in FY 2012 for
commodity-specific audiences. Each of the sessions included a recorded demonstration, review of browser
compatibility requirements, registration tips, and guidance on how to submit a formula for malt beverage,
wine, and distilled spirits products. In the years ahead, TTB intends to continue to leverage the TTB.gov site
and other Web-based capabilities to provide online seminars and tutorials so that industry members will have
additional on-demand resources and options to obtain answers related to tax and regulatory compliance.

In FY 2012, TTB continued to raise awareness of the Pay.gov system for filing tax returns and operational
reports, an important strategy to improve compliance rates as the system facilitates the submission of
complete and accurate filings. A multi-faceted effort was implemented across TTB to promote Pay.gov use,

                                                       31
                                           TTB 2012 Annual Report
which included outreach at industry events and seminars, system enhancements, and targeted education
efforts for industry members that are not yet registered in the system. From a systems and operational
perspective, TTB increased the number of TTB tax-related forms available via Pay.gov and streamlined the
automatic registration of new industry members. These outreach efforts and system enhancements
contributed to increased rates of industry members using the system to electronically submit operational
reports and tax returns. At year-end, 22 percent of excise tax returns and 33 percent of operational reports
were submitted through Pay.gov, a 1 percent and 5 percent increase over FY 2011, respectively. In FY 2013,
TTB plans to address a primary hindrance for industry members in using Pay.gov by enabling the system to
accept credit card payments. This enhancement would also address a timing issue that requires those who file
electronically to remit tax payments early.

Improving Access to Online Guidance
To support transparency in government and improve customer access to information, TTB implemented
several initiatives in FY 2012 that should facilitate industry compliance. In September 2012, TTB launched its
new TTB.gov Web site, which includes enhancements that improve the accurate and timely distribution of
information from TTB, increase site usability, and provide an improved platform for e-Gov solutions and
mobile and Web-based technologies.

In developing its new Web site, TTB researched Web best practices, analyzed Web metrics, and evaluated user
feedback to determine optimal content organization. TTB also identified the most visited pages, most popular
search terms, and most popular tasks from its prior Web site, and used this data to organize information and
develop an intuitive layout for the new Web site.

TTB expects the refreshed TTB.gov site
to increase voluntary compliance,
particularly for new industry members,
and improve usage rates for TTB’s
online systems, such as COLAs Online,
Permits Online, and Formulas Online.
The new design should also assist TTB
employees in providing quality service
to industry members by facilitating
access to TTB's policies and procedures,
which will help industry members
understand and comply with Federal
requirements.

Further, as part of its efforts to improve public guidance, in FY 2012, TTB reviewed all of the frequently asked
questions (FAQ) on TTB.gov, and revised and updated them as necessary. This project entailed the
coordinated review of 116 FAQs published to support industry compliance efforts. TTB intends to publish the
revised guidance documents in FY 2013, and to keep these documents and all Web content up-to-date through
periodic reviews.



                                                       32
                                          TTB 2012 Annual Report
Streamlining Regulations to Reduce the Compliance Burden
TTB also strives to reduce the compliance burden on industry by providing clear regulatory guidance. TTB has
a continuous regulations modernization effort underway to ensure that its regulations and enforcement
strategy keep up with changes in the industries that it regulates and, in FY 2012, TTB made significant progress
in updating its regulations to reflect current practices and conditions.

TTB published an NPRM that proposed revisions to the distilled spirits plant (DSP) reporting requirements in 27
CFR part 19 in FY 2012. This NPRM proposed replacing the current four report forms that DSPs use to report
their operations on a monthly basis with two new forms that they would submit monthly, or quarterly if they
qualify to file taxes on a quarterly basis. TTB undertook this project to address numerous concerns and desires
for improved reporting by the affected distilled spirits industry members and to reduce costs to both the
industry and TTB by significantly reducing the number of monthly plant operations reports that DSPs must
complete and file, and that TTB must process. TTB received some comments in response to the NPRM that
suggested changes to the proposed forms; TTB is considering these comments and coordinating with the
appropriate stakeholders to revise its proposal. TTB intends to continue this rulemaking project in FY 2013.

In FY 2012, TTB also continued a rulemaking project to revise the specially denatured alcohol (SDA) and
completely denatured alcohol (CDA) formula regulations. SDA and CDA are widely used in the American fuel,
medical, and manufacturing sectors. The industrial alcohol industry is far larger than the beverage alcohol
industry in both size and scope, and it continues to grow rapidly in the United States. Based upon a
determination that certain products present minimal revenue risk, TTB is proposing to reclassify some SDA
formulas as CDA and to issue new general use formulas for articles made with SDA so industry members would
not need to seek formula approval from TTB as frequently, which would assist industry members in getting
their products to the marketplace quickly and efficiently. TTB estimates that this effort will decrease the
number of formula submissions required from industry by an estimated 80 percent. These changes would also
remove unnecessary regulatory burdens and update the regulations to align them with current industry
practice. TTB expects to publish a final rule in FY 2013.

Finally, in FY 2012, TTB drafted a temporary rule that reduces to $1,000 the penal sum for a brewer’s bond in
certain low revenue risk contexts. In particular, this rule would apply in instances where both the excise tax
liability of the brewer is expected to be not more than $50,000 in the calendar year and the brewer was liable
for not more than $50,000 in the preceding calendar year. Under the temporary rule, for a period of three
years, the penal sum of the required bond will be a flat $1,000 for brewers filing excise tax returns and
remitting taxes quarterly. In a concurrent NPRM, TTB proposes to adopt the $1,000 penal sum amount for the
brewer’s bond required for brewers filing quarterly excise tax returns as a permanent regulatory change. This
proposed rule also proposes amendments to the regulatory text to require that small brewers file Federal
excise tax returns and payments quarterly, and submit reports of operations quarterly. TTB undertook this
project because these changes, which are consistent with a legislative proposal contained in the President's
Budget for FY 2013, would result in cost savings for small businesses and efficiency savings for TTB. TTB
expects to publish the Small Brewer’s Bond Reduction temporary rule and NPRM in the first half of FY 2013.

Moving forward, TTB will continue to modernize its regulations to make positive changes to the regulatory
framework, which TTB believes will improve voluntary compliance by industry and significantly enhance TTB’s
accomplishment of its mission.

                                                       33
                                              TTB 2012 Annual Report


 Performance Summary
 Collect the Revenue
 TTB met all of its performance measures under the Collect the Revenue activity. A detailed summary of TTB
 performance is discussed in Part II of this report, Program Performance Results.
 Investments in the Collect the Revenue mission resulted in the following accomplishments in FY 2012:
 Tax Collection
 •   TTB collected $23.4 billion in excise taxes and other revenues from 8,533 13 taxpayers in the alcohol,
     tobacco, firearms, and ammunition industries. In all, TTB returned $449 for every $1 expended on tax
     collection activities. Since the tax rate increase on tobacco products took effect, the return on TTB tax
     collection activities has increased by approximately 42 percent.
 •   TTB expanded its e-filing capability to allow all excise taxpayers to file and pay taxes, and file monthly
     operational reports, electronically through the Pay.gov system. The total number of Pay.gov registrants
     increased by 32 percent in FY 2012, bringing the total to more than 9,500. As registered users increase,


                                                             TTB collected $23.4 billion in tax revenue in FY 2012, a
                                                             year-to-year decrease of less than one half of 1 percent.
                                                             Declining tobacco revenues offset the 3 percent increase
                                                             in alcohol tax collections. TTB tobacco revenue
                                                             collections reached an historic high in FY 2010 and, as
                                                             predicted, have undergone a downward trend since the
                                                             2009 increase in the Federal excise tax rate as price on
                                                             tobacco products are closely correlated to consumption
                                                             patterns and diversion activity. Even with this decline,
                                                             since 2008, tobacco revenues collected by TTB have
                                                             increased 119 percent.

                                                             TTB regulates approximately 61,700 permittees, but only
                                                             a small percentage file a return and pay taxes in a given
                                                             fiscal year. The largest segment of TTB permit holders—
                                                             alcohol importers and wholesalers—do not pay taxes to
                                                             TTB. Following several years of modest growth, the TTB
                                                             tax base grew 10 percent for the second consecutive
                                                             fiscal year. Since 2008, the number of taxpayers has
                                                             increased 30 percent.


 hh137
13
  About 13,640 TTB permittees were subject to file a tax return and pay excise taxes this fiscal year; however, many
 operations do not result in the taxable removal of product from bonded premises. Therefore, in FY 2012, a total of 8,533
 permittees (63 percent) had operations that required them to file a tax return and pay excise tax.


                                                            34
                                                    TTB 2012 Annual Report

       TTB continued its efforts to promote Pay.gov use through presentations at industry seminars, system
       enhancements, and improved analytics to target outreach efforts to unregistered industry members. In FY
       2012, TTB increased the participation rate of industry members who electronically file operational reports
       and tax returns and, as of fiscal year-end, 22 percent of excise tax returns and 33 percent of operational
       reports were filed through Pay.gov, a 1 percent and a 5 percent increase over FY 2011, respectively.
Tax Classification
•      The lack of clear standards in the tax code to differentiate certain tobacco products, and the consequent
       potential for misclassification and erroneous tax payment on these products, presents particular
       enforcement challenges for TTB. The Children’s Health Insurance Program Reauthorization Act of 2009
       (CHIPRA) significantly increased tax rates on cigarettes and other tobacco products and highlighted the
       importance of classification of tobacco products. The law created parity for small cigars and cigarettes to
       address concerns over misclassification of these products and potential revenue losses; however, CHIPRA
       introduced disparities in tax rates for small and large cigars and pipe and roll-your-own (RYO) tobacco.
       These large Federal excise tax disparities among tobacco products create opportunities for tax avoidance,
       as evidenced by significant market shifts by manufacturers to produce lower tax products and changed
       purchasing patterns from price-sensitive consumers toward the lower-taxed products.
       In FY 2012, the Government Accountability Office (GAO) studied the market shifts in smoking tobacco
       products since CHIPRA, and estimated that these shifts have resulted in Federal revenue losses of up to
       $1.1 billion. 14 GAO recognized that Treasury has taken steps to respond to these market shifts, but has
       limited options. For example, Treasury has pursued differentiating between RYO and pipe tobacco for tax
       collection purposes but faces challenges because the definitions of the two products in the IRC do not
       specify distinguishing physical characteristics. See GAO-12-475 on www.GAO.gov for more details,
       including GAO recommendations to Congress regarding disparities in the tax code.
•      The tax differential on certain tobacco products also contributed to the proliferation of cigarette
       manufacturing machines at retail establishments. TTB issued a ruling in September 2010 that defined
       retailers that engaged in this type of activity as manufacturers of tobacco products. The courts enjoined
       TTB from taking enforcement action until, in July 2012, Congress enacted the Moving Ahead for Progress in
       the 21st Century Act (H.R. 4348, also known as "MAP‐21"), which definitively addressed the legal status of
       retailers that provide cigarette-making machines to customers. The law clarified that such manufacturers
       are required to apply for a permit from TTB, as well as pay Federal excise taxes and comply with other TTB
       regulatory requirements.
•      The TTB Tobacco Laboratory analyzed 350 tobacco samples in support of tobacco tax classification,
       regulatory projects, audits, investigations, criminal diversion cases, and in the development of protocols
       for counterfeit tobacco product authentication. Year-to-year, the workload in processing tobacco samples
       remained relatively constant.




ii137
14
     These tax loss estimates cover the period April 2009 through September 2011.



                                                                   35
                                           TTB 2012 Annual Report

•   TTB also analyzes nonbeverage and beverage alcohol samples to assign or verify a tax classification. For
    this purpose, TTB chemists processed approximately 1,400 specially denatured alcohol formulas and
    samples to support tax-free alcohol claims. TTB analyzed another 1,300 beverage alcohol samples
    associated with pre-import evaluation, the 5010 tax credit, and enforcement activities, as compared to
    1,200 samples in FY 2011. Pre-import evaluations also serve to protect consumers, as the analytical tests
    also analyze products for limited or prohibited ingredients.
Civil Tax Enforcement
•   During FY 2012, TTB completed approximately 720 audits, examinations, and revenue investigations
    resulting in $47.7 million in identified tax, penalty, and interest being due, with $11.9 million collected to
    date.
•   TTB continued to enforce the collection of the tobacco FST from the manufacturers, importers,
    wholesalers, and retailers who held tobacco products for sale at the time of the tax rate increase imposed
    by CHIPRA. In FY 2012, to address the significant revenue risk exposure that remains, TTB developed a
    national FST automated non-filer project strategy that addresses all FST non-filers, utilizing minimal TTB
    resources. By combining field analytics with a risk-based assessment approach, TTB identified 188
    taxpayers with potential FST liability of $22.5 million, plus interest and penalties. Total FST collections to
    date are well over $1.2 billion.


                                                                                        The total number of active
                                                                                        TTB permit holders in the
                                                                                        alcohol, tobacco, and
                                                                                        firearms industries has
                                                                                        increased 32 percent since
                                                                                        FY 2008. This year, the
                                                                                        number of active permit
                                                                                        holders increased 10
                                                                                        percent, much higher than
                                                                                        the average annual increase
                                                                                        of 7 percent, due principally
                                                                                        to the 33 percent increase in
                                                                                        active alcohol permittees.
                                                                                        Firearms and tobacco
                                                                                        permittees also trended up,
                                                                                        with 5 and 6 percent
                                                                                        increases respectively.




                                                        36
       TTB 2012 Annual Report


FY 2012 TAX COLLECTIONS BY STATE




                37
                                          TTB 2012 Annual Report

•   Under the CHIPRA legislation, tobacco processors must now obtain a permit and report on the first
    removal, transfer, or sale of processed tobacco to another entity. There is no requirement that processed
    tobacco be transferred or sold to a permittee or that subsequent transfers be reported. Consequently,
    transfers of this non-taxpaid tobacco product carry a high revenue risk. TTB initiated a pilot project in FY
    2011 to conduct “forward traces” of processed tobacco from the point of removal by the permittee and
    discovered that the product was being distributed to non-permitted manufacturers who did not report or
    file Federal excise taxes. As of the close of FY 2012, driven by a newly developed risk model, TTB auditors
    and investigators have identified $182 million in potential tax liability, based upon these forward trace
    investigations.
Criminal Tax Enforcement
•   TTB has criminal enforcement authority over the commodities it taxes and regulates. Tax fraud in these
    industries, whether through unlawful product diversion or other means, poses a high risk to Federal
    revenue collection. Diversion includes tax evasion, theft, distribution of counterfeit products, and
    distribution in the United States of products marked for export or for use outside the U.S. TTB entered
    into a reimbursable agreement with the IRS Criminal Investigation division agent services in FY 2012, to
    operate a law enforcement program to counteract illicit trade in the alcohol and tobacco industries. In just
    two years of operations, TTB agents opened 48 cases for investigation, 27 of which were opened in FY
    2012. The total estimated tax liability associated with these cases is $336.7 million, with an additional
    $115.8 million in seizures and forfeitures. As of the close of FY 2012, TTB had referred 43 of these cases to
    an Assistant United States Attorney, all of which were accepted for investigation.




                                                       38
                                            TTB 2012 Annual Report

Protect the Public
TTB met all of its performance measures under the Protect the Public activity. A detailed summary of TTB
performance is discussed in Part II of this report, Program Performance Results.

Investments in the Protect the Public mission resulted in several key achievements during FY 2012:

Permitting of Alcohol and Tobacco Businesses
• TTB issues original and amended permits to persons who are engaged in the alcohol and tobacco
   industries and, in FY 2012, TTB processed 7,941 original and 19,416 amended permits. Original permit
   applications have increased 33 percent over last year, the largest annual increase in applications since TTB
   was established. Since 2004, the average annual rate of increase has been 4 percent.
•   TTB managed the increase in applications and achieved improvements in the average processing time for
    original permit applications through efficiencies gained from its new Permits Online system and other
    efficacy measures. Fully implemented in FY 2012, Permits Online enables the electronic submission and
    processing of 19 of the 23 permit types issued by the Bureau, cutting down on both the burden for
    industry and the manual and administrative processing tasks for TTB. TTB also streamlined its internal
    processes related to issuing permits, applying risk factors to ensure that high risk applications receive the
    appropriate scrutiny. These efforts resulted in TTB exceeding its performance target by 11 percent,
    reducing processing times from 74 days in FY 2011 to 67 days in FY 2012. In total, TTB issued 6,574
    permits and registrations to qualified applicants.
•   As illicit activity in the alcohol and tobacco industries has the potential to be highly lucrative, it is crucial
    that TTB prevent criminal operatives from obtaining a permit to engage in the alcohol and tobacco trade
    through its permit investigation process. In support of this objective, TTB initiated approximately 300
    permit investigations to verify that applicants were qualified and not prohibited from engaging in business
    activity in the alcohol and tobacco industries, and that those operating in these industries were properly
    permitted and operating in compliance with Federal regulations. TTB also performs post-application
    investigations to verify that those who were issued a permit in the prior year supplied accurate
    information on their application and that they are conducting compliant operations.



                                                                          In five years, the total number of original
                                                                          permits and registrations approved by
                                                                          TTB has grown 43 percent. Between
                                                                          fiscal years 2011 and 2012, the total
                                                                          number of original permits issued
                                                                          increased by 30 percent. This year, TTB
                                                                          approved an additional 1,500 permits
                                                                          compared to FY 2011. Firearms
                                                                          registrations approved by TTB remained
                                                                          relatively constant, while the number of
                                                                          tobacco permits issued continued to
                                                                          trend down, decreasing 19 percent
                                                                          compared to the prior year.


                                                         39
                                           TTB 2012 Annual Report

Alcohol Beverage Label Approval
•   The number of Certificate of Label Approval (COLA)         ALCOHOL BEVERAGE LABEL
    applications submitted by the alcohol beverage             PROCESSING
    industry and processed by TTB has steadily increased
    in each of the last three years. TTB approved 134,618
    (88 percent) of the 152,741 COLA applications
    received; the remaining 18,123 (12 percent) were
    either rejected, returned for correction, withdrawn,
    expired, or surrendered. The number of COLA
    applications received increased by 5 percent from
    2011.
•   TTB made progress in streamlining its labeling
    program to address the annual workload increases
    through a revision of its COLA form (TTB Form
    5100.31). The most significant change involved the
    expansion of the list of items that may be changed on
    an alcohol beverage label without TTB approval.
    These changes are expected to reduce the number of
    resubmitted and new label applications. Going
    forward, TTB will continue to look for similar solutions
    to reduce regulatory burden and help industry
    members get their products to the marketplace faster
    without compromising our mandates under the
    Federal Alcohol Administration Act. A revision of its
    labeling regulations, initiated in FY 2012, will mark a
    major milestone in addressing the operational
    challenges TTB faces and ensuring the long-term
    effectiveness of this crucial Protect the Public
    program.
•   Nearly 140,000 (91 percent) of the COLA applications
                                                               Between fiscal years 2008 and 2012, the number
    received by TTB in FY 2012 were submitted through          of alcohol beverage label applications submitted
    COLAs Online, the Bureau’s system for the electronic       to TTB increased 14 percent. Following a year of
    filing of label applications. TTB was successful in        10 percent growth in label applications, the
    increasing the rate of e-filing by 3 percent over the      annual increase in COLA submissions in FY 2012
                                                               was 5 percent. TTB implemented changes to its
    previous fiscal year. The increase in online
                                                               labeling program to reduce both the filing burden
    applications is due in large part to outreach efforts by   on industry and the processing burden on TTB that
    TTB through educational workshops, improvements to         included the expansion of allowable changes to a
    online information, and one-on-one demonstrations          label that do not require a new COLA. Through
    to those industry members who are the highest              targeted education efforts, the Bureau was
                                                               successful in increasing usage rates for the
    volume label application filers.                           electronic label filing system by 3 percent, with 91
•   In support of truthful and accurate labeling, as well as   percent of all label applications submitted
    tax collection, TTB reviews and approves formulae for      electronically.

                                                        40
                                          TTB 2012 Annual Report

    alcohol beverages. Over the period of FY 2011 to FY 2012, formula submissions for domestic and imported
    alcohol beverage products increased 28 percent, to more than 11,700 submissions. TTB deployed an
    electronic filing system, Formulas Online, in January 2011 to help manage the workload and prevent
    erosion in processing times. Formulas Online allows external users to draft, submit, and track formula
    applications for domestic and imported alcohol beverages, and in just 20 months of operations, has
    achieved an e-filing rate of 49 percent.
•   In FY 2012, TTB rolled out an enhancement to Formulas Online that enabled e-filing nonbeverage alcohol
    products, such as flavors and specially denatured alcohol products. At year end, TTB was successful in
    achieving a 60 percent e-filing rate for these formula submissions. The success of the system is due, in
    part, to outreach efforts. TTB held multiple Formulas Online Webinars to offer training to new users on
    topics such as system registration; the basics of drafting, submitting, and tracking formula applications;
    and common pitfalls to avoid when submitting electronic formula applications.

Product Safety and Testing
•   In assuring the integrity of alcohol beverage products offered for sale to U.S. consumers, TTB analyzed and
    reviewed for compliance approximately 650 alcohol beverage products as part of the Alcohol Beverage
    Sampling Program (ABSP). The ABSP uses statistically valid sampling of products in the marketplace to
    validate that they are properly labeled to protect consumers. This program enables TTB to be proactive
    rather than reactive to potential labeling issues or threats to the food supply. Fiscal year 2012 marked the
    second year that the ABSP was expanded to include all three beverage alcohol commodities in order to
    produce timely compliance information on an annual basis. TTB also continued its field investigations of
    the sampled products to verify alcohol beverage label claims, such as grape varietal or vintage, which can
    only be determined by reviewing production records. In FY 2012, TTB focused its product integrity
    investigations on distilled spirits and malt beverages. Non-compliance findings in FY 2012 did not present
    significant tax or consumer safety issues, and TTB took corrective actions as appropriate with the
    responsible producers or importers. TTB also continued its work with the FDA to resolve an FY 2011 ABSP
    finding that related to traces of lead found in a rum product. For a full report on the ABSP, please visit
    TTB.gov.




                                                       41
                                          TTB 2012 Annual Report

Trade Practice Enforcement
•   As part of its Trade Facilitation Program, TTB has reinvigorated FAA Act trade practices activities to
    investigate acts that violate Federal law relating to alcohol beverage trade practices. Trade practice
    violations undermine fair competition within the trade and, thus, artificially influence consumer access to
    products based upon anti-competitive practices by influential producers. In FY 2012, TTB issued two
    industry circulars providing guidance to industry members to ensure a level playing field. TTB issued
    Industry Circular 2012-01, Guidance Regarding Industry Members’ Participation in Retail Programs, to
    inform all industry members and other interested parties of the Bureau’s position regarding participation
    in retail promotional programs. In this circular, TTB provided guidance on its views of several permissible
    and impermissible activities for industry members who provide promotional support to alcohol beverage
    retailers. TTB issued Industry Circular 2012-2, Tie-In Sales, to update its guidance related to the use of
    current terminology and industry practices found in today’s marketplace. The purpose in publishing this
    circular was to remind alcohol industry members and others that tie-in sales of alcohol beverage products
    are unlawful prohibited inducements under the FAA Act. Both industry circulars are available on TTB.gov.

International Trade Facilitation
• TTB’s Trade Facilitation program helps to strengthen the U.S. economy by facilitating import and export
    trade in alcohol beverage products, while administering the consumer protection standards under its
    jurisdiction. In FY 2012, TTB made progress on establishing or effectively employing its international
    agreements with its counterpart agencies in Brazil, Chile, France, China, and Russia. These countries
    represent important trade partners and major markets for U.S. businesses. These agreements are
    designed to facilitate trade by increasing mutual understanding of each country's alcohol and tobacco
    production requirements and labeling and licensing standards, and provide a process for the exchange of
    regulatory information that has the potential to enhance protection of the revenue or impact product
    trade, compliance, and safety.
•   As the technical expert in these commodities, TTB must process certificates for U.S. producers in order for
    the producers to be able to export their alcohol beverages to many foreign countries. In FY 2012, TTB
    issued approximately 10,000 export certificates for beer, wine, and distilled spirits. Without these
    certificates, which are only issued by TTB, U.S. producers of alcohol beverages cannot sell their products in
    major markets abroad. Through its international outreach, TTB has arranged for the elimination or
    reduction of certification requirements for wine exported to 27 Member States of the European Union and
    participants in the World Wine Trade Group (Argentina, Australia, Canada, Chile, Georgia, New Zealand,
    and South Africa). In October 2011, TTB and WWTG participants signed an MOU on certification
    requirements that will facilitate trade by encouraging the elimination of routine certifications or reports
    for wine products and ingredients. In FY 2012, as part of the United States-China Strategic and Economic
    Dialogue, an annual meeting of U.S. and Chinese government officials to discuss trade and other economic
    issues, TTB introduced an agenda item related to the consolidation of the required export certifications
    that U.S. alcohol beverage exporters submit. Currently, United States exporters send four separate
    certificates with each shipment in an attempt to meet China’s import rules, including the certificates of
    free sale, origin, health, and sanitation. The U.S. delegation indicated it would follow-up with China’s
    General Administration of Quality Supervision, Inspection, and Quarantine and the General Administration
    of Customs on the proposed consolidated export certificate for alcohol beverage products shipped to
    China.
                                                       42
                                              TTB 2012 Annual Report

•   In FY 2012, TTB continued its coordination with wine regulators from the economies of the Asia-Pacific
    Economic Cooperation (APEC). APEC is the premier forum for facilitating economic growth, cooperation,
    trade, and investment in the Asia-Pacific region, and the 21 member countries are emerging export
    markets for the U.S. wine industry. TTB is leading the effort to produce a compendium of wine labeling,
    compositional, and pesticide residue requirements, with the goal of increasing transparency for U.S.
    exporters to facilitate export trade in wine.
•   TTB supported the USTR by participating in three negotiating rounds of the Trans-Pacific Partnership
    Agreement (TPP) held in FY 2012. The TPP—a free-trade agreement being negotiated between Australia,
    Brunei, Canada, Chile, Malaysia, Mexico, New Zealand, Peru, Singapore, Vietnam, and the United States—
    includes a Wine and Spirits Annex in the chapter on technical barriers to trade. The annex aims to reduce
    barriers to trade in the regulation of wine and spirits by laying out acceptable procedures in the areas of
    labeling, identity standards, conformity assessments, compliance periods, and acceptance of oenological
    practices.




     AMERICAN VITICULTURAL AREAS
    An American Viticultural Area (AVA) is a delimited grape-growing region having a
    viticulturally significant name, a delineated boundary, and distinguishing features
    as described in part 9 of the TTB regulations. Distinguishing features may include
    climate, geology, soils, physical features, and elevation.

    An AVA designation allows vintners and consumers to attribute a quality,
    reputation, or other characteristic of a wine made from grapes grown in an area
    to its geographic region. The establishment of an AVA allows vintners to more
    accurately describe the origin of their wines to consumers and helps consumers
    to identify wines that they may purchase.

    TTB published 14 AVA-related documents in FY 2012. Seven of those documents
    established new AVAs, some of which included the Pine Mountain-Cloverdale
    Peak AVA, the Fort Ross-Seaview AVA, the Naches Heights AVA, and the
    Coombsville AVA. TTB proposed and subsequently established three AVAs in FY
    2012, including the Wisconsin Ledge AVA, the Middleburg Virginia AVA, and the
    Inwood Valley AVA. Additionally, TTB proposed the establishments of the
    Ancient Lakes of Columbia Valley AVA, the Elkton Oregon AVA, and the Indiana
    Uplands AVA. TTB also published a final rule that expanded the boundary of the
                                                                                          Aerial photographs of the Naches Heights
    already existing Russian River Valley and Northern Sonoma AVAs.
                                                                                          in Yakima Valley, which received TTB
                                                                                          approval as a certified American
    At the end of FY 2012, TTB and its predecessor agency, the Bureau of Alcohol,         Viticulture Area effective January 13,
    Tobacco and Firearms, had established a total of 205 AVAs.                            2012. Naches Heights is an elevated
                                                                                          plateau in Yakima County, Washington,
                                                                                          that encompasses 13,254 acres.
    TTB also published the new “AVA Manual for Petitioners” in FY 2012. This
                                                                                          The new AVA is the fifth appellation
    manual contains frequently asked questions, regulatory requirements for new,          located in Yakima County (other county
    modified, and overlapping AVAs, information on how to prepare petitions to            appellations are Columbia Valley AVA,
    establish new AVAs and to modify existing AVAs, as well as tables to help             Yakima Valley AVA, Rattlesnake Hills AVA
                                                                                          and Snipes Mountain AVA).
    petitioners organize distinguishing feature data.


                                                             43
                                           TTB 2012 Annual Report



Financial Summary
Federal Excise Tax Collections
                                                                                                 Alcohol and Tobacco Excise Tax Collections
                                                                                         17000
TTB collects excise taxes from the alcohol,




                                                             Collections (in Millions)
                                                                                         15000
tobacco, firearms, and ammunition industries. In
                                                                                         13000
addition, the Bureau collects Special
                                                                                         11000
Occupational Tax (SOT) from certain tobacco
                                                                                          9000
businesses. During FY 2012, TTB collected $23.4
                                                                                          7000
billion in taxes, interest, and other revenues.
                                                                                          5000
                                                                                                   2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012
Substantially all of the taxes collected by TTB are                                                               Alcohol          Tobacco
remitted to the Department of the Treasury
General Fund. The firearms and ammunition
excise taxes (FAET) are an exception. This                                                     Firearms and Ammunition Excise Tax Collections
revenue is remitted to the Fish and Wildlife                                             550

Restoration Fund under provisions of the
                                                            Collections (in Millions)
                                                                                         450

Pittman-Robertson Act of 1937. The U.S. Fish                                             350
and Wildlife Service, which oversees the fund,                                           250
apportions the money to State governments for
                                                                                         150
wildlife restoration and research, and hunter
                                                                                         50
education programs.                                                                              2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012

                                                                                                                            FAET




       FY 2012 Excise Tax Collections:                     TTB’s tax collections for domestic alcohol beverages
                                                           have shown a relatively stable rising trend for several
Alcohol……………………………… $ 7,856,391,000                        years. The tax for imported alcohol beverages is
Tobacco……………………………… $ 15,002,616,000                       collected by U.S. Customs and Border Protection.
FAET……………………………………. $    514,622,000
SOT……………………………………… $         249,000                       Tobacco tax revenues in FY 2012 decreased by 3 percent
FST……………………………………… $       5,942,000                       from the prior year.        This trend tracks with
Other………………………………….. $        61,000                       Congressional Budget Office projections for tobacco tax
                                                           revenue following the passage of the CHIPRA
Total……………………………….          $ 23,379,881,000               legislation.

                                                           Since TTB assumed the responsibility for administering
                                                           the FAET in 2003, collections have increased 167
                                                           percent.




                                                      44
                                          TTB 2012 Annual Report

Refunds and Other Payments
During FY 2012, TTB issued $709 million in tax refunds and cover-over payments, and drawback payments on
taxes paid by Manufacturers of Nonbeverage Products (MNBPs).

Cover-over Payments
Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on certain articles
produced in Puerto Rico and the Virgin Islands, and brought in or imported into the United States. In
accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the U.S. are “covered over,” or paid
into the treasuries of Puerto Rico and the Virgin Islands, less the collection expenses incurred by TTB. During
FY 2012, cover-over payments totaled $386 million. Year-to-year, cover-over payments can vary. Cover-over
payments to the Virgin Islands decreased 3 percent, while payments to Puerto Rico decreased nearly 17
percent.

Drawback Payments
Under current law, 26 U.S.C. 5134, MNBPs may be eligible to claim a refund of taxpaid on distilled spirits used
in their products.

During FY 2012, drawback payments totaled $289 million. In the case of distilled spirits on which the tax has
been paid or determined, a drawback is allowed on each proof gallon at the rate of $1 less than the rate at
which the distilled spirits tax had been paid or determined. The refund is due upon the claimant providing
evidence that the distilled spirits on which the tax has been paid or determined is unfit for beverage purposes,
or was used in the manufacture of medicines, medicinal preparations, food products, flavors, flavoring
extracts, or perfume. The claimant must submit a product formula to the TTB laboratory for analysis and
approval of the nonbeverage claim. To assess drawback claims, the TTB Laboratory analyzed approximately
10,000 formulas and samples in FY 2012.



                                      FY 2012 Excise Tax Refunds:
                    Alcohol and Tobacco Excise Tax Refunds………… $              30,293,000
                    Cover-over Payments, Puerto Rico…….…..………… $             376,373,000
                    Cover-over Payments, Virgin Islands………………. $               9,337,000
                    Drawbacks on MNBP Claims…………………………… $                    289,330,000
                    Interest and Other Payments………………………….… $                  3,824,000

                    Total……………………………………………………………………$                         709,157,000




                                                       45
                                             TTB 2012 Annual Report

FY 2012 Bureau Budget
Direct Appropriations (Salaries & Expense Account)
The TTB budget authority for appropriations received in FY 2012 from the salaries and expense account was
$99,878,000. This amount included $2 million for the costs of special law enforcement agents to target
tobacco smuggling and other criminal diversion activities. TTB elected not to hire the agents directly, but to
enter into an interagency agreement with the Internal Revenue Service Criminal Investigation office to conduct
criminal investigations into violations of the tax laws TTB enforces. The authorized full-time equivalent (FTE)
staffing level for direct positions was 496.

Offsetting Collections and Reimbursable Accounts
During FY 2012, the Bureau realized spending authority in the amount of $6.8 million, which includes offsetting
collections and changes in unfilled customer orders. Those funds originated from multiple sources including
recoveries from the operation of the cover-over program and other enforcement activities in Puerto Rico, and
funding from the Department of the Treasury’s Executive Office of Asset Forfeiture to cover investigative
expenses; and funding from the Community Development Financial Institutions Fund (CDFI) for reimbursement
of information technology support services.



Obligations and Expenditures by TTB Program




  The Bureau’s expenditures by its major programs remained relatively consistent between fiscal years 2011
  and 2012.
                                                          46
                                           TTB 2012 Annual Report

Audit of TTB’s FY 2012 Financial Statements
The Department of the Treasury is one of 23 Federal agencies that are required by law to produce annual
audited financial statements. TTB’s financial activities are an integral part of the information reported on by
the Treasury Department.

TTB’s Annual Report includes audited FY 2012 and FY 2011 financial statements; the Independent Auditors’
Report on these financial statements, as well as reports on the Bureau’s internal control over financial
reporting and compliance with laws and regulations.

Management Assurances
An independent, full-scope financial statement audit was conducted for FY 2012 and TTB received an
unqualified audit opinion. For FY 2012, TTB provides reasonable assurance that the objectives of the Federal
Managers’ Financial Integrity Act have been achieved, and the Bureau’s financial management systems are in
substantial compliance with the Federal Financial Management Improvement Act. This overall determination
is based on past and current practices, an improved controls environment, scrutiny by external audit sources,
internal evaluations, and administrative and fiscal accounting system enhancements.

During the year TTB implemented corrective actions to improve internal controls that were designed to ensure
the review of the allowance for doubtful accounts on tax and trade receivables and accurate recording of
financial transactions into the asset accounts of the general ledger and accurate reporting of assets in the
financial statements. These changes were made to address prior year audit findings.

Also during FY 2012, TTB applied its custom risk management tools to its Revenue Accounting Section to
identify risks in the accounting and tracking of TTB’s annual Federal excise tax collections, and to the National
Revenue Center, with a focus on its key business processes. Those tools disclosed that TTB has adequate
internal controls in place to mitigate risk to operations, and that the overall risk of fraud, waste, and abuse is
characterized as “LOW.”

Bureau Challenges
TTB plans to revisit the vulnerability and risk management tools that are used each year to monitor the
internal controls over tax collections to ensure these documents reflect the key business processes in
operation at the National Revenue Center and fully support our internal control program at the Bureau. As
systems and businesses processes change it is important that TTB update the tools that are being used to
monitor its tax processing activities.




                                                        47
 TTB 2012 Annual Report




Page left intentionally blank.


             48
                                            TTB 2012 Annual Report


Part II
Program Performance Results
Performance Overview

TTB reports its performance in terms of six metrics that represent its ability to supply satisfactory service to its
customers in the industry, foster compliance from taxpayers, employ technology to meet its public protection
mission, and return value to the Nation for the investment in TTB programs.

TTB exceeded the performance targets for four of the six measures reported to its stakeholders in FY 2012. For
the two remaining performance measures, TTB came within two percent of achieving its targeted level of
performance. Based on external factors and the results achieved this fiscal year, TTB reviewed its FY 2012
performance targets and set targets that reflect workload projections, resource constraints, planned business
process improvements, and anticipated impacts from technology enhancements. To meet its performance
goals in FY 2012, TTB will implement an aggressive strategic agenda that integrates new technology, human
capital management strategies, and targeted efforts in both outreach and enforcement. All performance
results are subject to management review and periodic audit by the Department of the Treasury.


                               FY 2012 Performance Measure Status
       Performance Targets Met                                                             4
       Performance Targets Not Met                                                         2
       Baseline                                                                            0
       Total Performance Measures                                                          6



                                         Performance Measure Trends
                                               FY 2008 - FY 2012
                            100%         100%        100%
                                                                  83%
                                                                               67%

                                                                                     33%
                                                                        17%


                               2008        2009          2010         2011       2012

                                                   Met      Not Met




                                                         49
                                           TTB 2012 Annual Report



Summary of Collect the Revenue Performance
                               FY 08    FY 09     FY 10        FY 11        FY 12         FY 13    FY 12     % of
Performance Measure                                                                                Target    Target
                              Actual    Actual   Actual        Actual   Target   Actual   Target   Met?     Reached


Amount of revenue
collected per program          $313      $427     $478         $468     $410     $449     $400       Y      110%
dollar

Percentage of voluntary
compliance from large
taxpayers in filing timely     94%       94%      94%           95%     94%      92%       90%       N       98%
tax payments (in terms of
revenue)


Performance Discussion
In FY 2012, TTB met one of its two annual targets for the performance measures under the Collect the
Revenue budget activity. Taken together, these measures demonstrate the effectiveness and efficiency with
which TTB operates its revenue collection mission. TTB considers its two Collect the Revenue performance
measures to be important indicators of performance under this budget activity; however, the downward
trends in performance results do not necessarily indicate faltering performance, as they must be interpreted to
account for certain factors that fall outside of TTB’s direct influence and their impact on performance results.

Improve Efficiency of Tax Collection

The amount of revenue collected per program dollar measure uses annual collections figures and the actual
expenditures and obligations for collection activities to quantify the efficiency of the TTB tax collection
program. In FY 2012, TTB reported a return on investment of $449 for every dollar spent on collection
activities. TTB exceeded its target by 10 percent due to ongoing and successful compliance audit and
investigation efforts combined with process improvements and streamlining efforts. Moving forward, TTB
expects to meet its targeted performance levels due to savings achieved from the implementation of improved
targeting techniques for enforcement efforts and through proposed revisions to its industry reporting
requirements.

Tax Collection Activities
TTB collects approximately $23.4 billion in excise taxes, interest, and other revenues from alcohol, tobacco,
firearms, and ammunition industries. In determining its performance targets for this measure, TTB examines
historical collections trends across each of its regulated commodities, as well as other predictors that influence
consumer behaviors.




                                                          50
                                                 TTB 2012 Annual Report

The following displays the historical collections at TTB from FY 2001 to 2012 by revenue type:

Excise Tax and Other Collections by Fiscal Year
Dollars in Thousands
   Fiscal
    Year         Alcohol        Tobacco            FAET             SOT             FST                 Other           Total
    2003          6,910,631       7,380,807          193,414          103,781            1,628                    -      14,590,261
    2004          6,995,366       7,433,852          216,006          100,562                 -                 359      14,746,145
   2005           7,074,076       7,409,608          225,818           10,190                9                  141      14,719,842
   2006           7,182,940       7,350,058          249,578            2,895              638                  146      14,786,255
   2007           7,232,138       7,194,081          287,835            2,808                 -                 32       14,716,894
   2008           7,420,576       6,851,705          312,622              448                 -                 634      14,585,985
   2009           7,424,292      11,548,504          452,693              272       1,192,375                   970      20,619,106
   2010           7,476,789      15,913,479          360,813              300            8,558                  180      23,760,119
   2011           7,594,330      15,515,073          344,262              268            5,220             2,257         23,461,410
   2012           7,856,391      15,002,616          514,622              249            5,942                  61       23,379,881
  Average    $    7,316,753 $    10,159,978 $        315,766 $         22,177 $       121,437 $                 478 $    17,936,590
FAET - Firearms and Ammunition Excise Tax     SOT - Special Occupational Tax    FST - Floor Stock Tax       Other - Suspense Account


Note: Tobacco revenue increased in 2009 as a result of the passage of the Chidren’s Health Insurance Program
Reauthorization Act (CHIPRA) legislation, which increased the tax rate on tobacco products. Also, legislation was enacted
in July 2005 that repealed the SOT for all alcohol taxpayers. The SOT for tobacco permitees remains intact.

Since 2008, the return on investment for the Collect the Revenue program increased by more than 30 percent,
principally because of the higher Federal excise tax rate imposed on tobacco products under the February
2009 CHIPRA legislation. This legislation nearly tripled the Federal tax rate on certain tobacco products and, as
a result, TTB’s return on investment reached an historic high in FY 2010 of 478:1. However, shifts in
consumption patterns, product manufacturing, and trade will impact Federal revenues in the years ahead. In
accounting for these types of marketplace shifts, TTB used CBO revenue projections for increased tobacco
excise tax collections to determine its targeted performance levels for fiscal years 2013 – 2014.

Streamlining Efforts for Tax and Regulatory Requirements
The performance target of $400 for FY 2013 reflects TTB’s analysis of collections data, and will be met, in part,
through continued efficiencies gained in TTB’s costs to operate its Collect the Revenue activities. Specifically,
TTB issued a proposed regulation in December 2011 to streamline its distilled spirits plant reporting
requirements to reduce the compliance burden for industry and, consequently, the TTB workload. This
revision to the regulations would replace the current four report forms used by distilled spirits plants to report
their operations on a monthly basis with just two report forms. Plants that qualify to file taxes on a quarterly
basis would submit the new reports on a quarterly basis. The Bureau plans to publish a final rule to implement
this change in FY 2013.

TTB also expects to achieve savings in the processing of surety bonds and tax filings through the legislative
initiative, which, in turn, should improve the efficiency quotient for this measure. TTB continues its efforts to
seek a legislative change to repeal the bond requirement for businesses owing $50,000 or less annually and
mandate the quarterly filing of tax returns. Currently, the cost of the bond requirement deters these taxpayers
from filing tax returns and payments on a quarterly basis, and its elimination will reduce this filing and financial
burden on industry, increase quarterly filings, and, thus, result in efficiencies for TTB.
                                                         51
                                            TTB 2012 Annual Report

In the interim period, TTB plans to propose a regulatory change to eliminate the bond requirement for small
brewers and mandate quarterly filing of tax returns and reports for these taxpayers to produce efficiencies for
both the industry and the Bureau.

Increase Voluntary Compliance from Taxpayers

Fostering voluntary compliance among excise taxpayers is a primary tax administration strategy for TTB and
supports the high priority performance goal of the Department of the Treasury. A key performance metric
shows that 92 percent of large taxpayers (i.e., those that pay more than $50,000 in annual taxes) voluntarily
file their tax payments on or before the scheduled due date.

In FY 2013, TTB will employ several complementary strategies to meet its performance target of 90 percent,
including renewing its focus on enhanced e-filing options, developing a balanced field approach of audits and
investigations that targets non-compliant industry members, establishing an identifiable presence within the
industry that encourages voluntary compliance, and identifying any gaps in tax payment from illegal entities
and individuals operating outside of the lawful distribution system for alcohol and tobacco products.

TTB’s effective use of its new automated tool to identify and address non-compliance in the timely filing of tax
payments resulted in increased filings in FY 2012; however, as these additional filings were submitted late,
TTB’s overall rate of voluntary compliance declined for the fiscal year. Initiated in FY 2010, TTB has continued
to develop its automated system, the Error Tracking Database (ETD), to identify late filers, non-filers, and
errant filings of operational reports as well as missing excise tax returns for breweries and tobacco
manufacturers. The ETD identifies approximately 70 types of errors on the operational report, including
whether the report was missing, and generates compliance letters to be mailed out. As industry members take
action in response to TTB’s notifications, TTB expects that compliance in timely filings may continue to decline
before these enforcement efforts lead to improved compliance rates. TTB plans to expand the ETD to include
wineries and distilled spirits plants in FY 2013. Also in FY 2013, to meet its performance target of 90 percent,
TTB will continue its outreach efforts to educate and train industry members on Federal compliance
requirements, maintain a visible field presence, and continue to promote the use of Pay.gov. Electronic filing
through Pay.gov reduces errors on operational reports and tax returns, and contributes to timely filings.

Electronic Filing Improvements
TTB aims to improve voluntary compliance by working toward allowing TTB permitted and taxpayers to file all
payments, returns, and applications online with the National Revenue Center. In FY 2012, TTB expanded the e-
filing program to allow all excise taxpayers to file and pay taxes and file monthly operational reports
electronically through the Pay.gov system. The total number of Pay.gov registrants in FY 2012 increased over
the prior year by approximately 33 percent, bringing the total to more than 9,500.

Going forward, TTB is intensifying its efforts to increase the electronic filing rate of operational reports and tax
returns through the Pay.gov system. At the close of FY 2012, TTB had made some progress in promoting
Pay.gov, with the e-filing rate for operational reports reaching 33 percent and the e-filing rate for tax returns
increasing to 22 percent, a gain of 5 percent and 1 percent over FY 2011, respectively. In order to raise the
industry awareness level and demonstrate the benefits of electronic submissions, a multi-faceted approach
has been initiated, which includes: conducting Pay.gov presentations at industry-sponsored seminars;
emphasizing Pay.gov in communications with new industry members; adding information about Pay.gov to
                                                         52
                                           TTB 2012 Annual Report

notification letters related to missing or late tax payments; and increasing the number of TTB tax-related forms
available in Pay.gov.

Further, TTB is working to allow credit card payments through Pay.gov, which would address a system issue
that requires early payment of taxes for those that elect to e-file. This timing issue is the primary obstacle that
prevents industry members from filing and paying their taxes through the electronic filing system.

Tax Enforcement Audits and Investigations
An identifiable enforcement presence is a well-established driver of compliance rates. In FY 2012, in support of
its voluntary compliance efforts, TTB used increasingly sophisticated risk models and audit targeting
techniques to complete field work for approximately 720 targeted audits, examinations, and revenue
investigations. These audits and investigations resulted in the identification of $47.7 million in additional tax,
penalties, and interest from industry members.

TTB initiated several priority enforcement initiatives in FY 2012 that leverage technology and analytical
techniques to better identify high-risk targets so that TTB makes the most efficient use of its enforcement
resources. A primary focus was the development of an integrated tobacco risk model for the identification of
high-risk tobacco importers for audit or investigation. With this new model, TTB is able to perform more real-
time targeting of tobacco importers, including importers of processed tobacco.

In FY 2012, due to the potential for tax evasion, TTB concentrated a portion of its enforcement resources on
manufacturers of processed tobacco. Under the CHIPRA legislation, tobacco processors must now obtain a
permit and report on the first removal, transfer, or sale of processed tobacco to another entity. There is no
requirement that processed tobacco be transferred or sold to a permitted or that subsequent transfers be
reported. Consequently, transfers of this non-taxpaid tobacco product carry a high revenue risk. TTB initiated
a pilot project, driven by a newly developed risk model, which directs its auditors and investigators to conduct
“forward traces” of processed tobacco through the distribution system. These forward trace investigations
have resulted in multiple civil and criminal cases that have identified more than $182 million in potential
revenue loss from the diversion of more than 10 million pounds of processed tobacco to non-permitted
entities.

Going forward, TTB will continue its development of a similar risk model for alcohol importers. The alcohol
importer risk model analyzes import data from CBP and alcohol importer permit data from TTB’s databases to
identify potential import activity by non-permitted entities and other anomalies for potential audit. After
initial testing in FY 2012, TTB is refining and expanding the scope of the alcohol importer risk model to include
national data on alcohol imports. In FY 2013, TTB plans to use the new risk model in its audit planning, and to
continue refinements to all of its alcohol and tobacco risk models through the integration of viable external
data, including FinCEN data and Census population data, among other sources.

Interagency Partnerships
TTB also uses an interagency approach in applying its enforcement strategies that involves cooperation with
local, state, Federal, and foreign government counterpart agencies to maximize the deterrent impact of
enforcement actions. In FY 2012, in response to the specific revenue threat from imported alcohol and
tobacco products, TTB engaged CBP to address alcohol and tobacco importers that are delinquent in paying tax

                                                        53
                                            TTB 2012 Annual Report

liabilities, as identified through TTB audits and investigations. In general, CBP’s decisions regarding duty and
tax collection are deemed to be final within 180 days after liquidation. However, in 2009, CHIPRA extended
the statute of limitations for the collection of taxes on imported alcohol and tobacco products to three years.
While this amendment addressed the time period in which assessment and collection can occur, it did not
address how these actions were to be enforced. TTB seeks to close this gap by partnering with CBP’s Office of
Regulatory Audits to conduct joint audits of tobacco importers. TTB initiated a pilot project with CBP in FY
2012, and intends to begin implementing this unified enforcement approach in FY 2013.

Criminal Enforcement
Further, in its efforts to maintain tax compliance within the industries it regulates and to collect all revenue
due on alcohol and tobacco products, the bureau worked to address the illicit activity present in the
marketplace. Failure to address illicit trade not only deprives the U.S. Treasury of revenue, but also gives non-
compliant actors an unfair competitive advantage over their lawful counterparts.

TTB has criminal enforcement authority under the IRC, which includes penalties for illicit tobacco product
manufacturing and evasion of excise tax. Until FY 2010, however, TTB did not have the resources for special
agents to effectuate this authority. Instead, TTB had to rely on the availability and interest of other Federal
and state law enforcement agencies, agencies with separate and distinct missions, to either initiate joint
investigations that would include violations of IRC provisions enforced by TTB or accept a criminal investigation
referral.

Using two-year funding, TTB entered into an interagency agreement in FY 2011 to reimburse IRS for agent
services to enforce the criminal provisions of TTB’s jurisdiction. After a lapse in funding due to the Continuing
Resolution in place for the first quarter of FY 2012, TTB received an additional $2 million in its FY 2012
appropriation to continue its efforts to combat tobacco smuggling and other criminal diversion activities. TTB
used this funding to recommence its criminal enforcement program under an interagency agreement with the
IRS. Between fiscal years 2011 and 2012, in just 16 months of actively opening new investigations, this
program has resulted in the initiation of 48 cases with a total estimated Federal excise tax liability of over $336
million, and combined seizures and forfeitures totaling approximately $115 million. Of the 48 active cases, 25
relate to illicit tobacco trade (52 percent), 21 relate to the illegal alcohol trade (44 percent), and 2 cases involve
both alcohol and tobacco products, demonstrating that criminal activity is present across the industries TTB
regulates. TTB has presented 43 cases to an AUSA for prosecutorial investigation, and 100 percent have been
accepted, indicating the quality of the cases that TTB has referred.

Criminal cases are often multi-year endeavors and, in FY 2012, TTB was successful in bringing several cases to
final resolution in the legal system. Two cases forwarded for prosecution in 2011 resulted in guilty pleas by the
defendants during FY 2012. One defendant received probation, and the second defendant is scheduled for
sentencing in December 2012. Another three subjects were indicted and pleaded guilty, with two of the
subjects sentenced to approximately two years of incarceration. The third subject in the case is scheduled for
sentencing in FY 2013. TTB also entered plea negotiations for six of its cases in FY 2012, and expects to reach
agreements in early 2013. Successful cases, applying the full effect of both civil and criminal penalties, result in
a disincentive to those who would otherwise commit alcohol and tobacco tax and criminal fraud activities.
Absent a criminal tax enforcement presence, this activity will continue to go unchecked.


                                                         54
                                           TTB 2012 Annual Report

Summary of Protect the Public Performance
                                  FY 08     FY 09   FY 10     FY 11          FY 12        FY 13    FY 12      % of
Performance Measure                                                                                Target    Target
                                  Actual   Actual   Actual   Actual   Target    Actual    Target   Met?     Reached

Percent of electronically filed
Certificate of Label Approval      62%      74%      79%      88%      88%       91%       92%       Y       103%
(COLA) applications

National Revenue Center (NRC)
                                   90%      89%      89%      90%      85%       84%       85%       N       99%
customer service survey results

Average number of days to
process an original permit         64        64       65       74       75           67    65        Y       111%
application at the NRC

Percentage of importers
identified by TTB as illegally
                                   22%      15%      15%      14%      14%       13%       14%       Y       107%
operating without a Federal
permit




Performance Discussion
In FY 2012, TTB met three of its four annual targets for the performance measures under the Protect the Public
budget activity. TTB tracks its success in meeting its trade and consumer protections goals through four
principal performance measures that indicate how timely the Bureau is in issuing permits to qualified alcohol
and tobacco businesses, how satisfied businesses are with TTB’s permitting and claims process, how effective
TTB is in deterring illicit importation of tobacco products by non-permitted entities, and the efficiency of the
Bureau’s alcohol beverage label application processing activity. Taken together, these measures reflect the
priorities of a service-oriented organization, which applies technology to the greatest extent in order to
perform its consumer protection role and in order to assure that commerce is fair, lawful, and open.

Improve Efficiency and Effectives of Permitting Process

TTB protects consumers by screening permit applicants to ensure only qualified persons engage in operations
in the alcohol, tobacco, firearms, and ammunition industries. For this purpose, in FY 2012, TTB processed
approximately 7,940 original and 19,400 amended permits, and performed 300 investigations into high-risk
applicants to meet TTB’s business integrity objective. TTB also monitors its timeliness in processing permit
applications, as undue delays in permit application processing stunt Federal revenues and impede economic
growth, primarily in the small business sector, as taxable commodities, such as finished wine, beer or spirits
products, cannot be lawfully produced without a Federal permit from TTB. TTB targeted a 75-day turnaround
time for original permit applications in FY 2012, and exceeded its target by achieving an average processing
time of 67 days for applications. Moving forward, TTB will promote electronic filing, continue to implement


                                                      55
                                           TTB 2012 Annual Report

system enhancements to Permits Online, and streamline its processing procedures to meet its performance
target of 65 days in FY 2013.

TTB completed its rollout of the Permits Online system in FY 2012 in order to improve permit processing times
and increase the number of paperless transactions with the business community TTB services. Permits Online
provides a secure, Web-based solution that allows members of the alcohol and tobacco industries to
electronically submit applications for permits to operate. Applicants who plan to produce finished distilled
spirits, wines, malt beverages, and tobacco products, and persons wishing to operate businesses such as
alcohol wholesalers, alcohol importers, tobacco importers, specially denatured spirits users and dealers, tax-
free alcohol users, alcohol fuel plants, tobacco processors, and tobacco export warehouses, must submit
original and amended permit applications. TTB’s National Revenue Center currently processes original
application packets for 23 types of permits/ registrations.

Over the past several years, however, the volume of paper applications has increased making it difficult to
maintain service levels. Between 2008 and 2011, TTB experienced an average annual increase of 3 percent in
original permits applications. In FY 2012, however, the number of original permit applications received
increased 33 percent, primarily due to growth in the brewery and alcohol wholesalers segments. In comparing
applications received in FY 2012 to those received FY 2011, the number of brewer and alcohol wholesaler
applications have increased 74 percent and 61 percent, respectively. TTB made improvements to processing
times in the first half of FY 2012, but progress has slowed in the second half of the fiscal year, in part, due to
this increase in the number of permit applications.

Even with greater than anticipated adoption rates for the Permits Online system, which reached 62 percent for
the year, TTB does not anticipate achieving sustained reductions to turnaround time until the latter quarters of
FY 2013 or early FY 2014. Rather, the immediate benefit of Permits Online has been cost savings, with system
efficiencies contributing to nearly $1 million in reductions in TTB’s budget. These reductions (equivalent to 9
FTE) have produced monetary savings, but have slowed anticipated improvements in service delivery. TTB
projects to average 65 days to process an original permit application at the close of FY 2013, with greater
improvements expected by the close of FY 2014. Incremental improvements to performance during a period
of declining staff and increasing workloads will demonstrate TTB’s effectiveness and the success of its new e-
filing system, without which processing times would exceed 90 days.

TTB intends to meet its 65-day performance target through a combination of streamlining its internal
procedures, industry outreach, and ongoing system enhancements. TTB will update its risk model and its
procedures used to process permit applications. Increased focus on risk modeling and statistical sampling will
help TTB maintain its assurance that it is permitting only qualified applicants while managing workloads. In
addition, TTB will continue to promote use of the Permits Online system by all permit applicants, including
through Webinars and online training modules.

TTB also understands that the customer experience in using the system is a critical driver of adoption rates.
With that in mind, TTB routinely updates the business rules and customer support features embedded in the
system to help prospective industry members submit complete and accurate information on their permit
application the first time. By receiving complete applications, TTB can reduce the time spent in returning
applications to customers for correction and re-reviewing corrected submissions, thus improving the time from
application to permit issuance.
                                                       56
                                          TTB 2012 Annual Report

TTB is also making steps to speed its transition to an entirely online processing environment. System
enhancements planned for fiscal years 2013 and 2014 include the data upload of historical permit application
data from TTB’s permit and tax database to the Permits Online system. This initiative will allow TTB’s 61,700
permittees who originally filed a paper permit application to file for amendments to their permit electronically
through Permits Online. As TTB receives approximately 18,000 permit amendments annually, this project will
result in efficiencies for both TTB and the businesses its serves.

Increase Customer Satisfaction with TTB Service Delivery

TTB also measures its performance in its permit processing function through surveying the businesses that
apply for a TTB permit. The NRC customer survey solicits feedback on the level of service provided to
applicants for an original or amended permit, and those industry members who file a claim to recover taxes
paid on nonbeverage alcohol or overpayments of tax. TTB targets a sustained score of 85 percent on customer
satisfaction for permit application and claims processing, and achieved a composite score of 84 percent in FY
2012. TTB’s satisfaction rate, derived from a telephone survey of industry members who received permitting
or claims service from the TTB National Revenue Center in the prior month, decreased in FY 2012 due in part
to the process changes associated with the Permits Online system. For those who elected to file original or
amended permit applications electronically, increased satisfaction with faster response times was potentially
offset by the learning curve associated with adapting to the new system. This was true for those industry
members types added to the system in FY 2012, which represented the most complex permit applications, and
who reported decreased satisfaction rates. For those who paper-filed their permit applications, satisfaction
scores were also impacted due to the Permits Online rollout, as processing times for paper applications
increased during this period.

Service enhancements, including the initiative to enable all permittees to file a permit amendment
electronically through Permits Online, are expected to contribute to the Bureau’s ability to meet its targeted
performance level. The FY 2013 target for performance of 85 percent factors in anticipated growth in
adoption rates of the Permits Online system, as well as other improvements to business processes and TTB call
centers that directly impact the business community that TTB services. TTB will introduce an e-mail survey in
FY 2013 to replace the labor intensive telephonic surveying method that supports this measure. TTB will
reconsider its performance target after establishing a new baseline for this measure in FY 2013.

Ensure Compliance with Importer Permit Requirement

Maintaining lawful operations in the trade of alcohol and tobacco commodities is a principal TTB objective. TTB
continues its enforcement of Federal permit requirements, targeting entities identified as importing cigarettes
and other tobacco products without a TTB permit. By monitoring the CBP’s International Trade Data System,
and comparing import data against the permittees on file with TTB, the Bureau is able to identify and take
action against those entities engaging in unlawful operations. In FY 2012, through this data comparison, TTB
determined that 13 percent of entities reporting importations of tobacco products had done so without a
permit. TTB intelligence analysts found that individuals ordering tobacco products from overseas via the
Internet to evade not only Federal excise tax, but State and local taxes and import duties, represented the vast
majority of non-permitted importers. TTB’s issuance of cease and desist letters, and appropriate follow up
activities, ensured that the responsible parties ended operations or obtained a permit. TTB’s enforcement

                                                       57
                                           TTB 2012 Annual Report

activities resulted in an improvement over its prior year result of 14 percent for this measure and, since 2008,
have resulted in a 40 percent improvement in the rate of compliance.

TTB intends to meet its FY 2013 performance target of 14 percent for this measure by continuing to monitor
and take action to address imports of tobacco products by non-permitted parties. These efforts support the
enforcement of Federal laws designed to prevent tobacco smuggling and to ensure the collection of all taxes
levied on tobacco products. As an example, the Prevent All Cigarette Trafficking Act (PACT Act), a law enacted
in 2010, prohibits shipments of tobacco products via the U.S. Postal Service (USPS). As the vast majority of the
non-permitted importers are individuals purchasing tobacco products in small quantities for personal
consumption through online tobacco outlets via the USPS and FedEx, TTB continues to coordinate with the
USPS and other ground carriers to provide enforcement assistance. TTB also will continue to focus its
enforcement efforts on the importation of processed tobacco, which is subject to new regulation and oversight
under CHIPRA, to ensure that importers comply with Federal law. Processed tobacco is the subject of intense
TTB enforcement scrutiny, as it is a non-taxpaid tobacco product that may be diverted for illegal manufacturing
of cigarettes. TTB will incorporate import data into its risk models for audit and investigation targets to help
deter illegal importations of tobacco.

Improve Efficiency and Effectiveness of Alcohol Beverage Label Processing

TTB protects U.S. consumers by ensuring that the alcohol beverage products offered at retail outlets are
properly labeled and comply with Federal production standards. In FY 2012, TTB met this objective and
facilitated U.S. commerce through the approval of more than 134,600 of the 152,700 COLA applications
received; the remaining 18,100 (12 percent) were rejected, returned for correction, withdrawn, or expired. In
furtherance of the Department-wide goal of increasing paperless transactions, the Bureau reported increases
in the percent of electronically filed COLA applications, which in FY 2012 reached 91 percent of all applications.
The ongoing rise in electronic filing is due to system improvements that track with customer feedback and
which simplify the filing process for industry members.

TTB has set a performance target of 92 percent for FY 2013 for this electronic filing measure and, to meet this
performance goal, the Bureau will use targeted outreach to reach the segments of the industry that have not
migrated to the online filing environment. Beginning in FY 2013, TTB plans to modify its internal operating
procedures to process paper label applications electronically. This move to a paperless processing
environment will result in efficiencies in communicating with industry members regarding rejected
applications or applications that are returned to the applicant for correction.

Even with high rates of electronic filing, annual increases in label applications necessitate consideration of
broader efforts to streamline the alcohol beverage label application process. Between fiscal years 2011 and
2012, the number of label applications has increased 5 percent, and since 2008, the number of applications
has increased by 14 percent. Addressing this issue requires TTB to continue its efforts to update and
streamline its labeling program. Through various changes to forms, guidance, and internal processing
procedures, as well as planned modernization of the Federal alcohol labeling regulations, the Bureau will shift
from a labor-intensive label application pre-approval process to a more useful marketplace review of labels.
These efforts will speed up the time it takes industry to enter compliantly labeled alcohol beverages into the
marketplace. TTB plans to publish a rulemaking document proposing changes to its labeling and advertising
regulations in FY 2013, and will follow up with a final rule after reviewing the comments.
                                                       58
                                           TTB 2012 Annual Report

Additionally, in FY 2012, TTB acted to further its unique regulatory role in assuring that alcohol beverage
products in the marketplace meet Federal standards and do not mislead consumers. The integrity of U.S.
products is critical in global commerce, and incidents of mislabeling or product safety can have crippling effects
on trade. In support of this objective, TTB conducted its fifth year of the Alcohol Beverage Sampling Program
(ABSP)—a program designed to generate statistically reliable information that can be used to estimate the
percentage of alcohol beverage products in the market that are fully and accurately labeled. TTB uses this
information to target enforcement efforts as well as to make improvements to industry guidance.
Approximately 650 products were evaluated in FY 2012, and the program results will be published in FY 2013.


Summary of Management and Organizational Excellence Performance

In order to effectuate the Bureau’s revenue collection and public protection mission, TTB must create the
conditions necessary for programs to reach and sustain excellence. In all aspects of performing its mission,
TTB aims to ensure that its programs operate efficiently and effectively, and with full accountability. TTB
accomplishes this by ensuring that program offices receive the high-quality management and administrative
support needed to achieve the Bureau’s goals.

The Bureau’s objectives in the area of Management and Organizational Excellence align with the
Administration’s emphasis on automating processes to improve services and enhancing internal operations to
be more efficient and effective. In FY 2012, the Bureau demonstrated its ability to enhance efficiency and
reduce costs through its strategic management of human capital, IT enhancements to improve operations, and
rigorous financial management practices.

Human Capital Management

TTB continues to implement the strategic goals, strategies, and measures outlined in the current Human
Capital Strategic Plan. As the majority of TTB’s human resource functions are operated through the Bureau of
Public Debt Administrative Resource Center (BPD ARC), TTB establishes and updates, as appropriate,
performance benchmarks and measures to monitor these outsourced functions. In FY 2013, TTB will publish
its 2013-2017 Human Capital Strategic Plan to align with the strategic direction of the Bureau. The new plan
takes into account the overall business and cultural vision for TTB, to include:
    •   Addressing retirement trends by identifying and closing competency gaps and creating a succession
        plan, enhancing our recruitment and retention plan, and identifying targeted skills sets;

    •   Providing an employee friendly culture that strikes a work/life balance through employee recognition,
        performance management, flexible schedules, and teleworking;
    •   Incorporating organizational needs into human capital planning as identified by the 2011 OPM
        Employee Viewpoint Survey results; and
    •   Streamlining human resources functions through various human resources information systems,
        including a new electronic employee official personnel file, performance management system, and
        enhanced self-service personnel actions available online.



                                                       59
                                                TTB 2012 Annual Report

In FY 2012, TTB held Labor/Management Partnership Council meetings with the National Treasury Employees
Union (NTEU) under the provisions of the Collective Bargaining Agreement. These meetings have been
instrumental in fostering enhancements in the Bureau’s labor management relations. In furtherance of
improved labor management relations, TTB and the NTEU collaborated on several pre-decisional projects,
including the reorganization of the National Revenue Center.

TTB also conducted impact and implementation bargaining with the NTEU for a number of significant human
resources policies during FY 2012. These included the TTB policy orders related to the Mission, Organization,
and Responsibilities; Student Loan Repayment Program; Details; and Position Classification under the General
Schedule.

Employee satisfaction is critical to a productive workplace. Each year, the Office of Personnel Management
administers the Federal Employee Viewpoint Survey (FEVS) to measure the satisfaction of the Federal
workforce. The TTB EVS average score for FY 2012 trended up to a 77.1 percent positive response rate from
employees. In response to the scores TTB received on this Government-wide survey, TTB will develop an FY
2013 FEVS Action Plan to address areas that showed a decline from the prior year.

Based on this survey data, the Partnership for Public Service determines rankings for Federal agencies. TTB
ranked 15th out of 292 sub-component agencies on the FY 2012 Best Places to Work in the Federal
Government rankings, an increase from its 2011 ranking of 34 out of 240.


                                                 TTB BPTW Ranking
                                    1
                                          10         7                          15
                                   51
                                                                         34
                                   101
                         Ranking




                                                                  83
                                   151

                                   201

                                   251
                                         2006       2008         2010   2011   2012

                                                                TTB




                                                           60
                                           TTB 2012 Annual Report

In its efforts to improve upon the 2011 ranking, throughout FY 2012, TTB worked to implement the actions
identified in its FY 2012 FEVS Action Plan. This involved, in part, conducting a series of focus group meetings at
the Bureau’s two primary locations—the National Revenue Center and TTB Headquarters—in an effort to
solicit feedback from both employees and managers. The purpose of these sessions was to offer a forum
where employees could freely share information, express concerns, and to offer suggestions on how to
improve the work environment for all TTB employees. The focus group sessions were supported and
facilitated by EEO and human resources personnel.
During FY 2012, under the revised FEVS Action Plan, TTB targeted the areas of effective hiring practices, an
inclusive workplace, and workforce engagement to build upon the improvements in employee satisfaction
realized in FY 2011. Specifically, TTB:

    •   Provided recruitment lifecycle and interviewing training to hiring managers;
    •   Established an on-boarding and mentoring program customized for veterans and individuals with
        disabilities;
    •   Ensured all hiring managers and human resources personnel received veterans hiring and diversity
        training;
    •   Developed and implemented an action plan to support Job Satisfaction, Talent Management, Results-
        Oriented Performance Management, Leadership and Knowledge Management, and Employee
        Retention;
    •   Developed and implemented an action plan for building an inclusive workplace (i.e., veterans (disabled
        and non-disabled) and individuals with disabilities); and
    •   Developed and implemented an action plan to effectively promote and support the Department-wide
        objectives to hire the best talent by decreasing time to hire.

Implementing these and other initiatives on the FY 2012 FEVS Action Plan increased communication to
employees, ensured a highly talented and well-developed staff, and enhanced employee engagement.
As a knowledge-intensive organization, TTB requires a highly trained workforce to fulfill its responsibility to
protect the public and collect the revenue within a dynamic and global environment. During FY 2012, TTB used
a variety of human capital policies and programs for recruiting and attracting talent to ensure qualified people
with the necessary skills are in the right positions, and to continue to retain those professionals in the
future. Successful strategies included partnerships with a diverse range of universities across the country and
use of the Treasury Veterans Program.
Succession planning is also a strategic priority for the Bureau, especially as it relates to TTB’s mission-critical
positions. One in five TTB employees is eligible to retire in FY 2013. To mitigate the loss of expertise and close
skill gaps in mission-critical occupations, TTB continues to use the personnel interventions identified in the Pay
Demonstration Program—a successful pay-for-performance pilot project established in 1999—to enable the
Bureau to improve its capacity to recruit, develop, and retain high-caliber employees. TTB uses tailored
approaches designed and implemented specifically for the Bureau’s continuing and evolving needs in order to
meet mission requirements and remain competitive for highly skilled talent.


                                                        61
                                          TTB 2012 Annual Report

Finally, in FY 2012, TTB continued its Emerging Leader’s Program (ELP), established in FY 2009, and selected its
fifth class of the ELP. This leadership development initiative offers three unique certificate programs for non-
supervisors, first-level supervisors, and second-level managers at TTB. The three-year program series supports
TTB’s succession planning strategies, and prepares participants with the competencies critical for higher levels
of leadership responsibility. Based on participant feedback, TTB is working on expanding the programs
offerings to include mentoring opportunities and detail assignments to tax or regulatory counterpart agencies
to broaden the exposure of program participants.

Financial Management

TTB established and monitored key performance standards to ensure that its business activities covering
financial accounting and reporting operate in a highly effective and efficient manner. In FY 2012, TTB, in
collaboration with its shared service provider at BPD ARC, achieved all of its financial management
performance metrics.
This joint effort in providing financial management services has allowed the Bureau to meet its financial goals
and deliver quality accounting and budget services to program staff, including:

    •   Paying vendor invoices on time (Prompt Payment Rate) greater than 98 percent;
    •   Incurring interest on late payments less than 0.02 percent;
    •   Achieving an Electronic Fund Transfer Compliance Rate of greater than 96 percent;
    •   Completing timely and accurate Cash/Fund Balance reconciliations within 15 days after the end of the
        accounting period;
    •   Reconciling Cash/Fund Balance to 100 percent of the proper balance;
    •   Clearing suspense accounts within 60 days;
    •   Ensuring prompt deposits and recording of tax collections;
    •   Providing timely and useful financial management data;
    •   Providing excellent customer service; and
    •   Establishing a new account code structure under the Oracle 12 release that captures and measures
        costs of TTB programs.
The Bureau also met established due dates to ensure timely submission of required Financial Management
Service (FMS) reports. Monthly closing of financial data was completed within three business days, and payroll
information was downloaded into the Oracle core accounting system within three working days of receipt of
payroll tapes from the National Finance Center.
Joint reviews of payroll activity were conducted to obtain reliable projections of payroll costs relative to
continuously changing on-board staffing levels. The payroll projection system has proven to be a valuable tool
and its use has led to better financial information for decision making on the budget and has helped the
Bureau avoid Anti-Deficiency Act violations. The ability to extract information from both the core accounting
system, and make sound payroll projections, continues to provide reliable and accurate financial information
for management use in executing the budget.
                                                       62
                                           TTB 2012 Annual Report

In FY 2012, the Bureau was able to conduct timely reviews of financial information so that program offices
were afforded the data necessary to make efficient use of the Bureau’s annual appropriation, and fulfill TTB’s
tax collection and regulatory responsibilities as outlined under its budget plan. By closely monitoring the
Bureau’s financial status, TTB was successful in making a number of key investments in support of its mission.
These financial reviews were not limited to the current year’s appropriation. TTB also conducted a review of
prior year obligations. This endeavor led to the close out of accounts that no longer legally obligated TTB. As a
result of this comprehensive effort, the Bureau was able to increase its FY 2011 unobligated balance, of which
50 percent, or $83,630, was reapportioned for use in FY 2012 for a one-time investment in information
technology (IT) infrastructure equipment to replace obsolete network equipment.
In support of Treasury’s OMB Circular A-123 requirements over financial reporting controls, the TTB Office of
Finance and Performance Budgeting tested internal controls related to the financial reporting of tax
collections. The review identified no control weaknesses over TTB’s collection activity and the reporting of
those collections.

Expansion of Technology Solutions

TTB made significant progress in achieving its strategic vision of using technology to streamline the delivery of
its critical lines of business. In FY 2012, TTB continued with business application development to automate its
paper-intensive permit application and formula submission processes in order improve internal operational
efficiency and to reduce the regulatory burden on industry members.
The Permits Online initiative, a major software development project that began in FY 2010, enables industry
members to electronically submit new and amended permit applications to TTB for approval. TTB processes
application packets for 23 types of permits or registrations for the alcohol, tobacco, firearms, and ammunition
industries. This IT initiative helped TTB achieve its performance goal of expeditiously processing permit
applications, which allows qualified persons to commence operations sooner, and contributes to the overall
growth and health of the U.S. and global economy.




                                                       63
                                           TTB 2012 Annual Report

TTB released this e-Gov system in phases. In FY 2011, TTB completed three releases that enabled electronic
filing for alcohol wholesalers and importers, wineries, specially denatured alcohol users or dealers, and tax-
free alcohol users. In FY 2012, TTB completed its final system releases to include breweries, distilled spirits
plants, alcohol fuel plants, tobacco manufacturers and processors, and firearms manufacturers.
Significant system features include online self-registration, self-monitoring of an application’s status, and
electronically guided assistance through the application process. The built-in prompts and self-help
instructions at each step of the application process assure that the applications that reach TTB specialists are
completed correctly and contain all the required documentation. In FY 2012, TTB implemented numerous
system enhancements to improve processing and customer friendliness, including pre-population of the
required documents list and concurrent amendment blocks.
Processing efficiencies enabled TTB to process original applications in an average of 67 days, which represents
processing times 7 days faster than the FY 2011 average. The TTB-regulated industries are transitioning to the
new system quickly, with the overall adoption rate for Permits Online at 62 percent for the year.
Going forward, TTB will continue to improve the usage rate of Permits Online through its outreach efforts and
system enhancements that improve its functionality. Significantly, TTB is in the process of developing and
testing enhancements that will enable 61,700 active industry members to use Permits Online to electronically
file for an amendment to their permit. TTB receives approximately 18,000 permit amendments annually, and
this system enhancement will result in efficiencies for both TTB and industry members. TTB will also make
available to industry members that qualify in Permits Online an electronic encrypted copy of their application
data that may be uploaded to state liquor authorities. If states adopt this program, the application process will
be streamlined for applicants as they will only be required to complete a single application at the Federal level.




TTB also made significant progress in its implementation of electronic filing for a second critical line of
business—beverage and nonbeverage alcohol formula approval. TTB released its first phase of Formulas
Online in January 2011, enabling industry members to submit beverage alcohol formula forms and
documentation via the Web. Some alcohol beverages require formula approval prior to the issuance of a
Certificate of Label Approval and, to simplify this process, TTB integrated Formulas Online with the label filing

                                                        64
                                          TTB 2012 Annual Report

system, COLAs Online. Industry members can use a single logon ID and password for both e-Gov
systems. Industry members using Formulas Online also benefit from step-by-step guidance to filing an
application, and built-in validation checks ensure that the application submitted is accurate and complete.
Industry members also have the option to receive current information on the status of a formula application
via e-mail.

The system also benefits TTB by providing an electronic system that tracks formula applications and
streamlines their workflow. Whether TTB receives paper or electronic formula applications, all submissions
are captured in Formulas Online, providing internal users with the ability to view, evaluate, request additional
information or corrections, and approve or reject applications. During FY 2012, TTB received 11,722 paper and
electronic formulas for domestic and imported alcohol beverages. TTB received 5,739, or 49 percent, of those
applications electronically.

Also in FY 2012, TTB rolled out a major system release to enable the electronic submission of nonbeverage
formulae. Formulas Online now allows companies to submit drawback and specially denatured alcohol
formulas electronically, check the status of submissions, and view the disposition of the formula. At year-end,
TTB achieved a 60 percent e-filing rate for nonbeverage formulae.

As part of TTB's effort to modernize its laboratory environment, TTB initiated a project in FY 2011 to replace
the existing Laboratory Information Management System (LIMS), a platform for consolidating sample analysis
data for the four laboratories that comprise the Bureau’s Scientific Services Division. In FY 2012, TTB
implemented a new system based on a commercial software package that allows for integration with
applicable laboratory instruments. The LIMS 2.0 system provides a secure and robust electronic submission
process that facilitates the online collection and processing of sample analyses. The system is also crucial to
maintaining the laboratory’s international accreditation status, as LIMS 2.0 streamlines the process, review,
and disposition of sample analyses to ensure compliance with ISO 17025 accreditation. Other benefits include
chemical inventory management for the disposal or destruction of reagents and chemicals, and robust
reporting capabilities to support the effective management of laboratory process workflows.

In support of the Mobile Treasury initiative, the Department of the Treasury’s technology modernization
campaign, TTB worked toward improving program results and reducing overall operating costs in FY 2012
through its ongoing support of “cloud computing” initiatives. Cloud computing is a model for enabling
convenient, on-demand network access to a shared pool of configurable computing resources (e.g., networks,
servers, storage, applications, and services) that can be rapidly provisioned and released with minimal
management effort or service provider interaction. TTB is developing both TTB’s private cloud by building its
virtualized infrastructure and cloud software service and a community cloud by hosting and providing cloud
infrastructure as a service to the Community Development Financial Institutions (CDFI) Fund.

These cloud computing efforts have been critical to TTB’s effective telework program, one of the most robust
telework programs at the Department. TTB’s workforce is widely dispersed, with many personnel working
from home full time and over 80 percent of the workforce regularly teleworking. Advancements in TTB’s IT
network completed in 2012 have both furthered the effectiveness of its telework program and contributed to
the Administration’s goals under the “Bring Your Own Device” initiative of improving mobile work capabilities
and reducing IT costs across government. TTB achieved significant savings by reducing the cost of refreshing
employee IT hardware, such as PCs and laptops. Replacing desktop and laptop computers every 3 to 4 years
                                                      65
                                           TTB 2012 Annual Report

cost TTB about $2 million and disrupted the IT program and business users for several months. TTB
determined that the best solution was to create a “virtual desktop” by centralizing all computing power,
applications, user data, and user settings and allow access to TTB resources by thin client computing devices.
A thin client is a computing device or program that relies on another device for computational power.
Currently about 70 percent of TTB personnel use thin client devices to access all TTB applications and data. In
August, TTB’s virtual desktop implementation was cited by the White House as a case study for the federal
BYOD initiative. TTB’s virtual desktop solution is a major achievement that resulted in $1.2 million in IT savings,
as well as additional savings in phone and fax lines and potential reductions to dedicated office space.
Additional benefits include enhanced IT security, as the virtual desktop/thin client infrastructure eliminates the
need to have information stored locally on a user’s machine, and reduced data loss, as the virtual desktop
provides for the centralization of information.




                                                        66
                                           TTB 2012 Annual Report


Message from the Chief Financial Officer
                           As the Nation continues to recover from a prolonged economic downturn, it is
                           incumbent upon Government to lead the way in demonstrating responsible fiscal
                           stewardship through sound management, efficient operations, and smarter and
                           more streamlined services to its constituencies. At TTB, we have embedded the
                           values of efficiency and service in our culture and, this year, we have continued our
                           efforts to build a framework for continuous program improvement at the Bureau.
                           Though we have much to be proud of, as evidenced in this report, the Bureau
                           continues to strive for improvement through sound strategic planning, effective
                           application of technology, and strong fiscal discipline.

Recognizing that we are responsible for producing results for every dollar entrusted to us, it is more important
than ever for TTB to examine its operations to ensure that we are efficiently managing our resources and
returning value for the investments made in our mission. Assurance that we are effectively allocating limited
resources to deliver on our mission requires a comprehensive organizational strategy to guide strategic
decisions about our operations and policies. We have chosen to apply the Balanced Scorecard methodology to
our planning process in order to integrate our strategic plan into our management and investment decisions to
ensure TTB’s long-term effectiveness. Developed over the past year, and with implementation scheduled to
start in earnest in 2013, the Balanced Scorecard provides a comprehensive management framework to help in
making decisions regarding where our limited resources should be directed to achieve the greatest impact in
moving the Bureau forward. By effectively using the data provided by the Balanced Scorecard, and
maintaining open dialogue about our strategy, we will be able to readily identify issues and opportunities and
take targeted actions to improve the organization as a whole.

From the financial perspective, in FY 2012, TTB again received an unqualified audit opinion on its financial
statements from an independent public accounting firm, and they reported no significant deficiencies or
material weaknesses in internal controls within our operations. Our support of this annual audit affirms our
commitment to a vigorous internal control environment and financial reporting excellence. Further evidence
of this commitment lies in our management practices, which include routine evaluations of our tax collection
and revenue accounting operations at the National Revenue Center to validate that sound internal and
administrative controls are in place to ensure the collection and verification of more than $23 billion in annual
Federal excise tax collections from alcohol, tobacco, firearms and ammunition industry members.

TTB’s commitment to fiscal discipline also is demonstrated in our extensive efforts to make smart cuts to our
program and overhead costs. TTB has implemented technology enhancements to streamline TTB processing
work and proposed regulatory changes to ensure we are not unduly burdening ourselves or industry with
unnecessary reporting or recordkeeping requirements. For example, in FY 2012, TTB proposed regulations to
reduce the number and frequency of reports for breweries and distilled spirits plants, with a long-term plan to
reduce the filing burden for all small businesses that we regulate by requiring quarterly filing of tax returns and
payments for certain alcohol beverage producers.




                                                        67
                                          TTB 2012 Annual Report

TTB has also realized significant cost avoidance due to its strategic information technology hardware
investments which have transformed the TTB IT infrastructure. TTB employees now use low-cost thin client
devices to access a “virtual desktop” housed on a central server. This configuration simultaneously reduced
recurring IT refresh costs by more than a million dollars and bolstered our mobile workforce capabilities. This
technology produced further costs savings in the form of reductions to our office space as more employees
transitioned to full-time telework. Currently, more than 80 percent of the TTB workforce participates in
telework.

Further, TTB made strategic IT investments in its electronic filing systems in order to meet industry demand
and continue to drive up the adoption rates for these systems. With approximately 30 percent increases in
both the volume of original permit applications and formula submissions, TTB relies on the efficiencies gained
from electronic filing to help our specialists effectively process applications and avoid lengthy processing
delays. TTB upgraded its online business applications in FY 2012 to improve our permitting and formula
approval services, both of which are critical to supporting lawful and thriving economic activity in the alcohol
and tobacco trade.

TTB efforts to make technology enhancements have helped to counterbalance the effects of decreasing staff
resources, and have helped TTB to maintain high satisfaction rates among our workforce even as we face
increasing demands for service and results. We rely on the annual Employee Viewpoint Survey, distributed to
the Federal workforce by the Office of Personnel Management, to gauge the satisfaction of our employees.
Our annual scores indicated that our efforts over the past year to address employee concerns and streamline
business processes are helping us to return to the top tier of Federal workplaces.

Even as resources contract, we will continue to aim high and put in place improved processes and tools to
meet our mission. In the years ahead, strategic investments and sound planning will support the Bureau in
improving the management and performance of this organization.




                                              Cheri D. Mitchell
                                  Assistant Administrator, Management/CFO




                                                       68
                                          TTB 2012 Annual Report


PART III
Financial Results, Position, Condition, and Auditors’
Reports

Budget Highlights by Fund Account

                                  FY 2012 Salaries and Expenses
      Fund Source:
        Salaries & Expenses FY 2012
                                                                                         $   99,878,000
        (P.L. 112-74, Consolidated Appropriations Act, 2012) 1/

            Obligations Incurred in FY 2012 from Current Year       $     99,482,000
            Appropriations
        Salaries & Expenses FY 2011/12
                                                                                         $        83,630
        (50% Prior Year Recovery) 2/
            Obligations Incurred in FY 2012 from Current Year       $          81,534
            Appropriations

      1/ P.L. 112-10 included $2 million in funding for TTB to use for the costs of special law
      enforcement agents to target tobacco smuggling and other criminal diversion activities.
      2/ General Provisions of the appropriations bill provide that 50 percent of the unobligated
      balances remaining available at the end of Fiscal Year 2011 shall remain available through
      September 30, 2012.

In FY 2012, TTB received $99,878,000 in direct appropriations of which $2,000,000 was to be used for special
agents. The budget authorized the full-time equivalent (FTE) staffing level of 496 direct FTE. TTB entered into
a reimbursable agreement with the Internal Revenue Service Criminal Investigation unit (IRS CI) to provide
agent services to TTB.

The budgeted amount maintains a program level consistent with the current level of effort necessary to
support TTB’s responsibility for revenue collection and the enforcement of laws and regulations governing
alcohol and tobacco commodities.

The Bureau obligated or expended 99.6 percent of the $99,878,000 in FY 2012 direct funding from its one-year
Salaries and Expenses appropriation.

Also during FY 2012, Congress authorized an additional $83,630 from the prior year account of unobligated
available balances (often referred to as the 50 percent account) to cover a one-time investment in IT
infrastructure to replace obsolete network equipment.




                                                      69
                                          TTB 2012 Annual Report

Offsetting Collections and Reimbursable Accounts from Puerto Rico
Cover Over/ Enforcement Activities
During FY 2012, the Bureau realized spending authority in the amount of $6.8 million, which includes offsetting
collections and changes in unfilled customer orders. The primary sources of reimbursable funding were
collections from the cover over program and enforcement activity in Puerto Rico, and information technology
services provided to CDFI.

Puerto Rico Cover Over and Enforcement Activities

All costs associated with the functioning and support of the Puerto Rico office are paid from the cover over
program, which is offset from cover over taxes collected in the United States on products originating in Puerto
Rico ($376 million) and the Virgin Islands ($9 million).

In Puerto Rico, TTB conducts annual audits and investigations of industry members regarding the collection of
revenue, application processing, and product integrity. Revenue inspections are used to conduct tax
examinations on major producers of alcohol and tobacco. This is critical due to the requirements of verifying
tax payments under the Internal Revenue Code (IRC), as well as TTB’s subsequent accountability for all cover
over amounts due to the government of Puerto Rico.

All distilled spirits producers and processors, wineries, wholesalers, importers, Manufacturer of Nonbeverage
Products claimants, and specially denatured alcohol permit applicants are subject to a qualification inspection
under the IRC.

Additionally, major producers of distilled spirits, wine, and malt beverages are subject to inspection and audits
in Puerto Rico.


Linking Budget and Program Spending

TTB has two primary budget activities: collecting all the Federal tax revenue due on alcohol, tobacco, firearms,
and ammunition products and protecting consumers of alcohol beverages. Assisting industry members to
understand and comply with the Federal laws and regulations regarding the commodities TTB regulates is an
integral part of both activities.

In FY 2012, TTB used an account code structure which provides a direct link from the Bureau budget to specific
programs and project activities. An analysis of the data stemming from the account code structure shows that,
in FY 2012, TTB incurred obligations of $99,482,000 of its salaries and expenses appropriation, of which 52
percent was spent on the Collect the Revenue and 48 percent was spent on Protect the Public budget
activities.




                                                       70
                                                   TTB 2012 Annual Report




                             $52,037,000
                                                                       Protect
                                                   Collect               the
                                                                                          $47,445,000
                                52%                                                          48%
                                                    the                Public
                                                  Revenue




                                       Obligations Incurred from FY 2012 Appropriation
                                                         $99,482,000




    In order to ascertain the full costs of each of these budget activities, the overhead costs were allocated and
    combined with the direct program costs. TTB arrived at the overhead allocation by applying the pro rata share
    of the number of direct program dollars to each overhead cost category. The overhead is comprised of three
    major cost components: 1) general and administrative costs; 2) legal costs; and 3) information technology
    costs. The general and administrative category consists of costs related to operating the human resources,
    finance, procurement, training, facilities management, and other support-type functions.


Spending by Major Object Class                              TTB presents its Obligations Incurred by budget activity and program in
                                                            its Annual Report to explain the cost of delivering the services that
                                                            support the mission. TTB also presents specific data regarding the
                                                            purchase of goods and services by major object class that support its
                                                            program activities. The majority of TTB’s incurred obligations (87
                                                            percent) fall into two principal major object classes: Salaries and
                                                            Benefits and Advisory and Assistance Services (Contracts). Salaries and
                                                            Benefits comprise 57 percent of total Obligations Incurred by object
                                                            class, and cover the cost of TTB’s roughly 500 FTE positions in FY 2012.
                                                            The Advisory and Assistance Services object class constitutes 30 percent
                                                            of FY 2012 incurred obligations, and covers the cost of both commercial
                                                            and intragovernmental services.

                                                              The commercial contracts category is predominantly IT contracts in
                                                              support of engineering, infrastructure, and support services. Also, it
                                                              includes other commercial contracts for services such as the scanning
                                                              and imaging of label applications and tax forms, lab maintenance, and
                                                              Web site development.
Intragovernmental services include administrative support services provided by our shared service provider for human resources,
accounting, travel, and procurement. Other intragovernmental services include the costs for special agent support, background
investigations, and Federal protective services. In FY 2012, the Bureau’s travel costs were primarily related to its audits and
investigations. The remaining object classes that cover the FY 2012 Obligations Incurred include those cost categories for rent,
communications, equipment, and other miscellaneous categories.

                                                                71
                                           TTB 2012 Annual Report

Obligations Incurred from FY 2012 Appropriations by Budget Activity

Collect the Revenue….. $52,037,000

The Collect the Revenue budget activity encompasses TTB’s revenue strategy and goal to provide the most
effective and efficient system for the collection of all revenue that is rightfully due. It is also designed to
prevent or eliminate tax evasion and other criminal conduct and provide high-quality service while imposing
the least regulatory burden.

Under the Collect the Revenue activity, TTB administers three programs: 1) Alcohol and Tobacco Tax; 2)
Firearms and Ammunitions Excise Tax (FAET); and 3) Outreach and Voluntary Compliance.



                                 FY 2012 Collect the Revenue
                                     By Major Programs

                                                                            FAET Program
                                                                                 3%
                                              Alcohol &
                                               Tobacco
                                              Program                             Outreach &
                                                 92%                               Voluntary
                                                                                  Compliance
                                                                                   Program
                                                                                      5%




In FY 2012, TTB expended 92 percent of its Collect the Revenue resources in collecting Federal excise taxes
from the alcohol and tobacco industries and 3 percent in collecting FAET. The specific projects that comprise
these costs include the processing of tax returns and operational reports at the National Revenue Center and
the audits and investigations conducted on industry.

Costs for the Outreach and Voluntary Compliance Program reached 5 percent of our Collect the Revenue
resources. These resources went toward efforts to educate and train industry members regarding their
obligations in the areas of tax calculations and remittance.

Protect the Public….. $47,445,000

The Protect the Public budget activity encompasses TTB’s strategy and goal to ensure industry compliance with
laws and regulations designed to protect the consumers of alcohol beverages.

TTB does this by assuring the integrity of the people who operate these businesses, of the products
themselves, and of the marketplace in which they are traded.

                                                       72
                                          TTB 2012 Annual Report

TTB administers four programs under the Protect the Public budget activity: 1) Permits and Business
Assurance; 2) Advertising, Labeling, and Product Safety; 3) Trade Facilitation; and 4) Outreach and Voluntary
Compliance.




                                 FY 2012 Protect the Public
                                     By Major Program
                                                                               Trade
                                                                             Facilitation
                                                                              Program
                                              Permits &                          6%
                                               Business
                                              Assurance                            Outreach &
                                               Program                              Voluntary
                                                 36%                               Compliance
                                                                                    Program
                                                   Advertising,                       12%
                                                    Labeling &
                                                  Product Safety
                                                       46%




An analysis of the financial data from FY 2012 reveals that TTB spent the preponderance of its Protect the
Public resources on two programs: Labeling, Advertising, and Product Safety at 46 percent, and Permits and
Business Assurance at 36 percent.

The Labeling, Advertising, and Product Safety Program includes activities designed to assure that beverage
alcohol labels fully and accurately describe the products upon which they appear and are not misleading. It
also encompasses activities to verify that alcohol advertisements contain all mandatory information and do not
mislead consumers. The Product Safety component involves all investigative and laboratory activities
performed as part of the Alcohol Beverage Safety and Verification Program, including work related to domestic
and imported product analysis.

The Permits and Business Assurance Program is designed to determine the eligibility of persons wishing to
enter any of the businesses TTB regulates and to process applications for changes to the original permit. These
activities may include a field investigation. The permit is necessary in order to conduct operations in the
regulated industries.

The remainder of the Protect the Public resources were divided between the Trade Facilitation Program
(6 percent) and the Outreach and Voluntary Compliance Program (12 percent).




                                                      73
                                          TTB 2012 Annual Report


Systems and Controls
Introduction

During FY 2012, TTB contracted with BPD ARC to handle its administrative, human resources, procurement,
travel and, financial functions.

Accounting Systems and Controls

The BPD ARC accounting system, known as Oracle Federal Financials, is certified by the Financial Systems
Integration Office (FSIO) requirements and is in full compliance with Treasury reporting requirements; it also
meets requirements under the Federal Financial Management Improvement Act (FFMIA).

The audit of the FY 2012 financial statements disclosed no instances of noncompliance on FFMIA matters, and
showed that the Bureau’s financial management systems are in compliance with 1) Federal financial
management systems requirements, 2) applicable Federal accounting standards, and 3) the United States
Government Standard General Ledger at the transaction level.

The Bureau successfully met the Department of the Treasury’s reporting requirements and has maintained
accurate and reliable financial information on TTB’s program activities. The various administrative modules
integrated with the TTB financial system have proven to accurately capture Bureau financial data and provide
reliable information to management to inform decision making. Only two TTB databases operate outside the
BPD ARC environment—the TTB property management system and the tax administration database, IRIS.

Federal Managers’ Financial Integrity Act of 1982 (FMFIA)

The FMFIA requires Federal agencies to conduct ongoing evaluations of the systems of internal accounting and
administrative control. Annually, TTB must report to Treasury all material weaknesses found through these
evaluations. Treasury submits a consolidated report on the Department’s controls to the President.

The FMFIA also requires the heads of agencies to provide the President with yearly assurance that obligations
and costs are in compliance with applicable laws; that funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for.

To provide this report and assurance to the President, the Secretary of the Treasury depends upon information
from component heads regarding their management controls. The FMFIA program places reliance on each
office at TTB to maintain a cost-effective system of controls to provide reasonable assurance that Government
resources are protected against fraud, waste, abuse, mismanagement, or misappropriation.

Responsibilities of the Bureau’s executive staff include ensuring that programs and administrative support
activities are managed efficiently and effectively. Managers must conform to specific management
accountability and improvement policies when designing, planning, organizing, and carrying out their
responsibilities in order to ensure the most efficient and effective operation of their programs.


                                                       74
                                           TTB 2012 Annual Report

These policies address:

    •   Delegation of authority and responsibility;
    •   Hierarchical reporting of emerging management problems;
    •   Personal integrity;
    •   Quality data;
    •   Separation of key duties and responsibilities;
    •   Periodic comparisons of actual with recorded accountability of resources;
    •   Routine assessment of programs with a high potential for risk;
    •   Systematic review strategy to assess the effectiveness of program operations; and
    •   Prompt management actions to correct significant problems or improve operations.

Since its inception, TTB has gradually developed its own Bureau-specific policies.

Management accountability systems must assure basic compliance with the objectives of the FMFIA and the
management control standards set by the Government Accountability Office. In addition, any inspection,
audit, evaluation, peer or program review process, self-assessment, or the equivalent, used by TTB
management to keep informed about needs and opportunities for improvement must incorporate these same
standards into its methodology.

Furthermore, the Bureau completed an annual risk assessment for improper payments on all of its programs
and activities. This process disclosed low risk susceptibility for improper payments, and documented that
sound internal management and controls were in place at the Bureau to cover its disbursements.

The Bureau continues to strengthen and improve the execution of its mission through the application of sound
internal controls over financial reporting. In response to OMB Circular A-123, Management’s Responsibility for
Internal Controls, the Bureau, in concert with the Department, developed and implemented an extensive
testing and assessment methodology that identified and documented internal controls over financial reporting
on our revenue accounting activities.

This increased emphasis on management controls has had a positive impact on programs and enabled the
Bureau to achieve the intended results. The process also ensures that the utilization of resources is consistent
with mission priorities and that program and resources are being used without waste, fraud, or
mismanagement. Also, in addition to the A-123 review, TTB conducted a series of office reviews during FY
2012 that included an extensive review of administrative and internal controls

Financial Statement Highlights

The following overview of the TTB financial statements highlights certain aspects of the financial statements
for the fiscal year ended September 30, 2012.

    •   The Balance Sheet shows the assets, liabilities, and net position as of a point in time, in this case, as of
        September 30, 2012.

                                                         75
                                       TTB 2012 Annual Report

        o    The total assets were reported as $79.5 million at the close of the fiscal year. Of this amount,
             $34.4 million is classified as the fund balance with Treasury. That fund balance account is the
             undisbursed account balance with the Treasury, primarily resulting from undisbursed
             appropriations.
        o The total liabilities amount reported is $47.3 million, of which total intragovernmental
             liabilities amounts to $21.5 million. The other liabilities are classified by type, such as accrued
             tax refunds, payables, and other liabilities.
•   The Statement of Net Cost shows the total net cost of operations at $103.7 million for the Bureau to
    administer its two budget activities.
        o The total net cost reported as program costs under the Collect the Revenue program was
             $51.0 million.
        o The total net cost reported as program costs under the Protect the Public program was $52.7
             million.
•   The Statement of Change in Net Position shows a total net position balance of $32.2 million, and that
    amount represents the unexpended appropriations from both prior periods and from the current
    operating cycle in addition to Net Position from Operations.
•   The Statement of Budgetary Resources shows the budgetary resources received and the status of
    those resources. For TTB, the resources are primarily annual appropriations received from the in the
    amount of $99.8 million, in addition to spending authority from collections. The offsetting collections
    amount was $4.8 million. Of that amount, $3.1 million is from the recovery of costs for maintaining
    enforcement operations in Puerto Rico.
•   The Statement of Custodial Activity shows the amount of revenue received during FY 2012 compared
    with FY 2011, along with tax refunds, drawback on Manufacturer of Nonbeverage Products claims, and
    cover-over payments. The amount displayed shows that the total Federal excise tax revenues
    collected from alcohol, tobacco, firearms, and ammunition amounted to $23.4 billion. Within this
    total, the Bureau processed tax refunds, drawback claims, and cover-over payments in the amount of
    $709.2 million.
        o Drawback claims of $289.3 million were processed based on claims filed from MNBPs. Under
             current law, a drawback claim is allowed when distilled spirits on which the tax has been paid
             were unfit for beverage purposes and used in the production of medicines, medicinal
             preparations, food products, flavors, flavoring extracts, or perfumes.
        o Tax refunds and other adjustments (e.g., interest) were processed in the amount of $30.3
             million.
        o Cover-over payments were returned to Puerto Rico and the Virgin Islands in the amount of
             $385.7 million. Such taxes collected on rum imported in the United States are “covered over,”
             or paid into, the treasuries of Puerto Rico and the Virgin Islands.
        o The disposition of the custodial revenue, after refunds, claims, and cover-over payments, nets
             to $23.1 billion, and that amount was deposited to the U.S. Treasury to fund the Federal
             Government, with the exception of the Federal firearms and ammunition Federal excise taxes.
             Those revenues, in the amount of $514.6 million, were remitted to the Fish and Wildlife
             Restoration Fund under provisions of the Pittman Robertson Act of 1937.



                                                    76
                                           TTB 2012 Annual Report

Notes to the Basic Financial Statements

The notes to the basic financial statements provide additional information that is essential to a full
understanding of the financial information provided in the statements.

Supplementary Information

In addition to the basic financial statements and accompanying notes, this report presents other
supplementary information. For instance, TTB includes a table that outlines the tax collections for the past 10
years for each of the key revenue sources. Also, a table has been included to show the refunds, cover-over
payments, and drawback payments for the past 10 years.




                                                        77
                                          TTB 2012 Annual Report


Financial Statements, Accompanying Notes, and Supplemental Information
Limitations of Financial Statements

The principal statements have been prepared to report the financial position and results of operations of the
entity, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the
books and records of the entity in accordance with GAAP for federal entities and the formats prescribed by the
Office of Management and Budget (OMB), the statements are in addition to the financial reports used to
monitor and control budgetary resources, which are prepared from the same books and records. For fiscal
years 2012 and 2011, all financial statements and note have been audited.

Management Responsibilities

Bureau management is responsible for the fair presentation of information contained in the principal financial
statements, in conformity with generally accepted accounting principles (GAAP), and the form and content for
entity financial statements specified by OMB in Circular A-136.

Management is also responsible for the fair representation of TTB’s performance measures in accordance with
OMB requirements. The quality of the Bureau’s internal control structure rests with management, as does the
responsibility for identification of and compliance with pertinent laws and regulations.

TTB in Relation to Treasury’s Annual Financial Statements

The Department of the Treasury received an unqualified audit opinion on its FY 2012 financial statements. The
financial activities of the Bureau are an integral part of the information reported by the Department of the
Treasury.

This unqualified audit opinion means that the financial information presented by the Treasury, which includes
TTB’s financial activities, was presented fairly and in conformity with generally accepted accounting principles
(GAAP) of the United States.




                                                       78
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the accompanying balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of
September 30, 2012 and 2011, and the related statements of net cost, changes in net position, and custodial
activity, and statements of budgetary resources (hereinafter referred to as “financial statements” ) for the
years then ended. These financial statements are the responsibility of the Alcohol and Tobacco Tax and
Trade Bureau’s management. Our responsibility is to express an opinion on these financial statements
based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Alcohol and
Tobacco Tax and Trade Bureau’s internal control over financial reporting. Accordingly, we express no
such opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Alcohol and Tobacco Tax and Trade Bureau as of September 30, 2012 and 2011,
and its net costs, changes in net position, budgetary resources, and custodial activity for the years then
ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1.S. to the financial statements, the Alcohol and Tobacco Tax and Trade Bureau
changed its presentation for reporting the statements of budgetary resources in fiscal year 2012, based on
new reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a
result, the Alcohol and Tobacco Tax and Trade Bureau’s statement of budgetary resources for fiscal year
2011 has been changed to conform to the current year presentation.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis and Required Supplementary Information sections be presented to supplement the financial
statements. Such information, although not a part of the financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the financial statements in an appropriate operational, economic, or historical context. We have
applied certain limited procedures to the required supplementary information in accordance with auditing
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
standards generally accepted in the United States of America, which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency with
management’s responses to our inquiries, the financial statements, and other knowledge we obtained
during our audits of the financial statements. We do not express an opinion or provide any assurance on
the information because the limited procedures do not provide us with sufficient evidence to express an
opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the financial statements as a whole.
The Other Accompanying Information included in (1) pages i through vii, (2) Part II: Program
Performance Results, (3) Message from the Chief Financial Officer, (4) pages 69 through 78 and pages 115
through 119 of Part III: Financial Results, Position, Condition and Auditors’ Reports, and (5) Part IV:
Appendices is presented for purposes of additional analysis and is not required as a part of the financial
statements. This information has not been subjected to the auditing procedures applied in the audits of the
financial statements, and accordingly, we do not express an opinion or provide any assurance on them.

In accordance with Government Auditing Standards, we have also issued our reports dated December 14,
2012, on our consideration of the Alcohol and Tobacco Tax and Trade Bureau’s internal control over
financial reporting and our tests of its compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of those reports is to describe the scope of our testing of internal control
over financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.




December 14, 2012
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of September 30,
2012 and 2011 and the related statements of net cost, changes in net position, custodial activity, and
statements of budgetary resources (hereinafter referred to as “financial statements”) for the years then
ended, and have issued our report thereon dated December 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Alcohol and Tobacco Tax and Trade Bureau is responsible for establishing and
maintaining effective internal control over financial reporting. In planning and performing our fiscal year
2012 audit, we considered the Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of the Alcohol and Tobacco and Tax
and Trade Bureau’s internal control, determining whether internal controls had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Alcohol and Tobacco Tax and Trade Bureau’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the Alcohol and
Tobacco Tax and Trade Bureau’s internal control over financial reporting. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Exhibit I presents the status of the prior year material weakness.

This report is intended solely for the information and use of the Alcohol and Tobacco Tax and Trade
Bureau’s management, the Department of the Treasury Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




December 14, 2012
                                                                              EXHIBIT I

                  ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

                                  Status of Prior Year Finding

                                      September 30, 2012


     Fiscal Year 2011 Finding               Deficiency Type      Fiscal Year 2012 Status

1) Improvements Are Needed In              Material Weakness             Closed
   The Review Of The Allowance
   For Doubtful Accounts On Tax
   And Trade Receivables
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of September 30,
2012 and 2011, and the related statements of net cost, changes in net position, custodial activity, and
statements of budgetary resources (hereinafter referred to as “financial statements”) for the years then
ended, and have issued our report thereon dated December 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Alcohol and Tobacco Tax and Trade Bureau is responsible for complying with
laws, regulations, and contracts applicable to the Alcohol and Tobacco Tax and Trade Bureau. As part of
obtaining reasonable assurance about whether the Alcohol and Tobacco Tax and Trade Bureau’s financial
statements are free of material misstatement, we performed tests of the Alcohol and Tobacco Tax and
Trade Bureau’s compliance with certain provisions of laws, regulations, and contracts, noncompliance
with which could have a direct and material effect on the determination of the financial statement amounts,
and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the Alcohol and Tobacco
Tax and Trade Bureau. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of certain of our tests of compliance described in the preceding paragraph, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the Alcohol and Tobacco Tax and Trade
Bureau’s financial management systems did not substantially comply with the (1) Federal financial
management systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level.



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the Alcohol and Tobacco Tax and Trade
Bureau’s management, the Department of the Treasury Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




December 14, 2012
Page left intentionally blank.


             86
                                          TTB 2012 Annual Report


                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                       BALANCE SHEETS
                              As of September 30, 2012 and 2011
                                        (In Thousands)

                                                                       2012         2011

            ASSETS
              Intragovernmental Assets:
                  Fund Balance with Treasury (Note 2)              $ 34,431     $ 37,866
                  Accounts Receivable (Note 3)                          262          352
                  Due from the General Fund (Notes 5 and 8)           2,873        2,022
                  Advances (Note 7)                                     751          829
              Total Intragovernmental Assets                         38,317       41,069

               Accounts Receivable (Note 3)                               444          484
               Tax and Trade Receivables, Net (Notes 4 and 8)          20,334        4,310
               Property, Plant and Equipment, Net (Note 6)             20,353       20,451
               Advances                                                    44            -

            TOTAL ASSETS (Note 8)                                  $ 79,492     $ 66,314

            LIABILITIES
               Intragovernmental Liabilities:
                   Accounts Payable                                $      480   $      500
                   Payroll Benefits                                       651          641
                   FECA Liabilities                                        39           36
                   Due to the General Fund (Notes 4 and 5)             18,851        4,246
                   Other Liabilities (Note 9)                           1,483           61
               Total Intragovernmental Liabilities                     21,504        5,484

              Accounts Payable                                        2,573        5,843
              Payroll Benefits                                        2,723        2,792
              FECA Actuarial Liability                                  228          308
              Refunds                                                 2,873        2,025
              Unfunded Leave                                          4,233        4,346
              Cash Bond Liabilities (Note 2)                         12,570       12,447
              Other Liabilities (Note 9)                                560          693
            TOTAL LIABILITIES                                      $ 47,264     $ 33,938

            NET POSITION
              Unexpended Appropriations                            $ 16,377     $ 16,559
              Cumulative Results of Operations                       15,851       15,817
            TOTAL NET POSITION                                     $ 32,228     $ 32,376

            TOTAL LIABILITIES AND NET POSITION                     $ 79,492     $ 66,314

The accompanying notes are an integral part of these statements.

                                                       87
                                          TTB 2012 Annual Report


                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                   STATEMENTS OF NET COST
                        For the Years Ended September 30, 2012 and 2011
                                         (In Thousands)

                                                                     2012        2011

   COLLECT THE REVENUE
     Program Costs
        Intragovernmental Gross Costs                              $ 14,436    $ 15,214
        Less: Intragovernmental Earned Revenue                       (1,308)       (512)
        Intragovernmental Net Costs                                  13,128      14,702

           Gross Costs with the Public                               40,541      40,240
           Less: Earned Revenues from the Public                     (2,655)     (2,941)
           Net Costs with the Public                                 37,886      37,299

             Total Net Program Cost                                $ 51,014    $ 52,001

   PROTECT THE PUBLIC
     Program Costs
        Intragovernmental Gross Costs                              $ 13,988    $ 14,495
        Less: Intragovernmental Earned Revenue                         (197)        (27)
        Intragovernmental Net Costs                                  13,791      14,468

           Gross Costs with the Public                               39,285      38,339
           Less: Earned Revenues from the Public                       (401)       (156)
           Net Costs with the Public                                 38,884      38,183

             Total Net Program Cost                                $ 52,675    $ 52,651

   NET COST OF OPERATIONS (Note 13)                                $ 103,689   $ 104,652




The accompanying notes are an integral part of these statements.

                                                       88
                                          TTB 2012 Annual Report


                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                           STATEMENTS OF CHANGES IN NET POSITION
                        For the Years Ended September 30, 2012 and 2011
                                         (In Thousands)

                                                                    2012        2011

  Cumulative Results of Operations
    Beginning Balances                                             $ 15,817    $ 14,704

      Budgetary Financing Sources
       Appropriations Used                                           99,591     100,938

      Other Financing Sources
       Transfers-in without reimbursement                               91         231
       Imputed Financing from Costs Absorbed
          by Others (Note 12)                                         4,041       4,596

      Total Financing Sources                                       103,723     105,765

      Net Cost of Operations (Note 13)                             (103,689)   (104,652)

      Net Change                                                        34        1,113

      Cumulative Results of Operations                             $ 15,851    $ 15,817

  UNEXPENDED APPROPRIATIONS
    Beginning Balances                                             $ 16,559    $ 17,416

      Budgetary Financing Sources
       Appropriations Received                                       99,878     101,000
       Other Adjustments                                               (469)       (919)
       Appropriations Used                                          (99,591)   (100,938)

      Total Budgetary Financing Sources                                (182)       (857)

      Net Position of Unexpended Appropriations                    $ 16,377    $ 16,559

  TOTAL NET POSITION                                               $ 32,228    $ 32,376
The accompanying notes are an integral part of these statements.


                                                       89
                                          TTB 2012 Annual Report


                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                            STATEMENTS OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2012 and 2011
                                         (In Thousands)

                                                                       2012           2011

BUDGETARY RESOURCES (Note 14)
  Unobligated Balance, Beginning of Period                         $     3,518    $     4,845
  Recoveries of Prior Year Obligations                                   1,268          1,501
  Budget Authority:
   Appropriations Received                                              99,878        101,000
   Spending Authority from Offsetting Collections, Earned:
      Collected                                                          4,786          3,939
      Change in Receivable from Federal Sources                           (134)           (72)
   Change in Unfilled Customer Orders:
      Without Advance from Federal Sources                               2,189            218
  Subtotal                                                             106,719        105,085
  Permanently Not Available                                               (468)          (920)
TOTAL BUDGETARY RESOURCES                                              111,037        110,511

STATUS OF BUDGETARY RESOURCES
  Obligations Incurred (Note 15)                                   $ 107,921      $   106,993
   Unobligated Balance Apportioned                                       398            1,758
   Unobligated Balance not Available                                   2,718            1,760
  Total Unobligated Balance, End of Period                             3,116            3,518
TOTAL STATUS OF BUDGETARY RESOURCES                                $ 111,037      $   110,511




The accompanying notes are an integral part of these statements.

                                                       90
                                          TTB 2012 Annual Report


                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                            STATEMENTS OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2012 and 2011
                                         (In Thousands)

                                                                       2012            2011

CHANGE IN OBLIGATED BALANCE
  Unpaid Obligations Brought Forward, Oct 1                        $    22,762     $    22,141
  Uncollected Customer Payments from Federal Sources
     Brought Forward Oct 1                                               (1,554)         (1,407)
    Total Unpaid Obligated Balance Brought Forward, Net                  21,208          20,734
   Obligations Incurred, Net (Note 15)                                  107,921         106,993
   Outlays, Gross                                                      (107,620)       (104,872)
   Recoveries of Prior Year Unpaid Obligations, Actual                   (1,268)         (1,501)
    Change in Uncollected Customer Payments from
       Federal Sources                                                  (2,055)           (146)
OBLIGATED BALANCE, END OF PERIOD                                   $    18,186     $    21,208
  Obligated Balances, Net, End of Period:
    Unpaid Obligations                                                  21,795          22,762
    Uncollected Customer Payments from Federal Sources                  (3,609)         (1,554)
TOTAL UNPAID OBLIGATED BALANCE, NET,
  END OF PERIOD                                                    $    18,186     $    21,208

BUDGET AUTHORITY AND OUTLAYS, NET
  Budget Authority:
   Budget Authority, Gross                                         $ 106,719       $   105,085
   Actual Offsetting Collections                                      (4,786)           (3,939)
   Change in Uncollected Customer Payments from
       Federal Sources                                                  (2,055)           (146)
BUDGET AUTHORITY, NET                                              $    99,878     $   101,000
  Outlays:
   Outlays, Gross                                                    107,620           104,872
   Offsetting Collections                                             (4,786)           (3,939)
   Distributed Offsetting Receipts                                        (3)              (10)
OUTLAYS, NET                                                       $ 102,831       $   100,923




The accompanying notes are an integral part of these statements.


                                                       91
                                          TTB 2012 Annual Report


                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                              STATEMENTS OF CUSTODIAL ACTIVITY
                        For the Years Ended September 30, 2012 and 2011
                                         (In Thousands)

                                                                   2012              2011

SOURCES OF CUSTODIAL REVENUE

    Revenue Received
       Excise Taxes (Note 16)                                  $   23,378,944    $   23,457,049
       Interest, Fines and Penalties                                      934             4,351
       Other Custodial Revenue                                              3                10
    Total Revenue Received (Note 17)                               23,379,881        23,461,410

    Refunds and Drawbacks (Note 16)                                  (323,447)         (340,416)
    Net Revenue Received                                           23,056,434        23,120,994

   Accrual Adjustment                                                  15,176             7,117
Total Sources of Custodial Revenue                             $   23,071,610    $   23,128,111

DISPOSITION OF CUSTODIAL REVENUE

   Amounts Provided to Non-Federal
    Entities (Note 16)                                               385,710           461,632
   Amounts Provided to Fund the
    Federal Government (Note 17)                                   22,670,724        22,659,362
   Accrual Adjustment                                                  15,176             7,117
Total Disposition of Custodial Revenue                         $   23,071,610    $   23,128,111

NET CUSTODIAL REVENUE ACTIVITY                                 $            -    $            -




The accompanying notes are an integral part of these statements.


                                                       92
                                    TTB 2012 Annual Report


Notes to the Financial Statements


Note 1. Summary of Significant Accounting Policies



A. Reporting Entity

The Alcohol and Tobacco Tax and Trade Bureau (TTB) was established on January 24, 2003, as a
result of the Homeland Security Act of 2002. The Act transferred firearms, explosives, and arson
functions of the Bureau of Alcohol, Tobacco and Firearms (ATF) to the Department of Justice and
retained the tax collection and consumer protection provisions of the Internal Revenue Code (IRC)
and Federal Alcohol Administration Act in TTB within the Department of the Treasury. While the
agency has a new name, the history of TTB’s regulatory responsibility dates back to the creation
of the Department of the Treasury and the first Federal taxes levied on distilled spirits in 1791.
TTB has two primary programs: Collect the Revenue and Protect the Public. Under the Collect the
Revenue program, TTB collects alcohol, tobacco, firearms, and ammunition excise taxes, and
under its Protect the Public program, TTB protects the consumer by ensuring that alcohol
beverages are labeled, advertised, and marketed in accordance with the law, and facilitates trade
in beverage and industrial alcohols.

B. Basis of Presentation

The financial statements were prepared to report the significant assets, liabilities, and net cost of
operations, changes in net position, budgetary resources, and custodial activities of TTB. The
financial statements have been prepared from the books and records of TTB in conformity with
generally accepted accounting principles (GAAP) in the United States, and form and content
guidance for entity financial statements issued by the Office of Management and Budget (OMB) in
OMB Circular A-136. TTB’s accounting policies are summarized in this note. GAAP for Federal
entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB), which has
been designated the official accounting standards-setting body for the Federal Government by
the American Institute of Certified Public Accountants.

C. Basis of Accounting

Transactions are recorded on a proprietary accrual and a budgetary basis of accounting. Under
the accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
regardless of when cash is exchanged. However, under the budgetary basis, funds availability is
recorded based upon legal considerations and constraints. As a result, certain line items on the
proprietary statements may not equal similar lines on the budgetary financial statements.




                                                 93
                                    TTB 2012 Annual Report


D. Revenue and Financing Sources

    (1) Exchange Revenue

        Exchange Revenues are inflows of resources to a Government entity that the entity has
        earned by providing something of value to the public or another Government entity at a
        price. The majority of the Exchange Revenues earned by the Bureau result from providing
        services to the Government of Puerto Rico, as well as other Treasury entities.

    (2) Financing Sources

        Financing sources provide inflows of resources during the reporting period and include
        appropriations used and imputed financing. Unexpended appropriations are recognized
        separately in determining net position, but are not financing sources until used. Imputed
        financing sources are the result of other Federal entities financing costs on behalf of TTB.

        TTB receives the majority of the funding needed to support the Bureau through
        congressional appropriations. The appropriations received are annual and multi-year
        funding that may be used, within statutory limits, for operating and capital expenditures.

    (3) Imputed Financing Sources

        Imputed financing sources are the result of Federal entities financing costs on behalf of
        TTB. Those entities pay future benefits for health insurance, life insurance, and pension
        benefits for TTB employees.

E. Custodial Revenue

For TTB, most custodial revenues result from collecting taxes on alcohol and tobacco products,
which are transferred to the General Fund, and recognized as a nonexchange revenue on the
Federal government’s consolidated financial statements. The excise taxes collected by TTB come
from businesses, and the taxes are imposed and collected at the producer and importer levels of
operations. Members of the regulated industries paying excise taxes are distilleries, breweries,
bonded wineries, bonded wine cellars, manufacturers of cigarette tubes, manufacturers of
tobacco products, and manufacturers and importers of firearms and ammunition. These taxes are
recorded on the records on a modified cash basis of accounting. The Statement of Custodial
Activity is presented on a net accrual basis.

F. Fund Balance with Treasury

The Fund Balance with Treasury is the undisbursed account balance with the Treasury, primarily
resulting from undisbursed appropriations. The balance is available within statutory limits to pay
current liabilities and finance authorized purchase obligations. The Fund Balance also includes a
non-entity balance, primarily the result of custodial activities related to collecting escrow
payments designed to finance Offers-in-Compromise and cash bonds held in lieu of corporate
surety bonds guaranteeing payment of taxes.



                                                 94
                                    TTB 2012 Annual Report


G. Accounts Receivable

Intragovernmental accounts receivable consist of amounts due under reimbursable agreements
with Federal entities for services provided by TTB. Public accounts receivable consist of taxes,
penalties, and interest that have been assessed but unpaid at year end.

Receivables due from Federal agencies are considered to be fully collectible. An allowance for
doubtful accounts is established for public receivables based on specific identification.

H. Property, Plant, and Equipment

Property, plant, and equipment purchased with a cost greater than or equal to $25,000 per unit
and a useful life of two years or more, is capitalized and depreciated. Normal repairs and
maintenance are charged to expense as incurred.

TTB also capitalizes internal use of software when the unit cost or development costs are greater
than or equal to $25,000. The same threshold also applies to enhancements that add significant
functionality to the software. TTB will amortize this software based on its classification. The
classifications are as follows: 1) Enterprise and other business software (five years), and 2)
Personal productivity and desktop operating software (three years).

Additionally, TTB also capitalizes like assets purchased in bulk when the unit price is greater than
or equal to $5,000 and less than $25,000, with the aggregated purchase amount greater than or
equal to $250,000.

Assets are depreciated on a straight-line basis beginning the month the asset was put in to use.

I. Advances

Advances are payments made to cover certain periodic expenses before those expenses are
incurred. In accordance with Public Law 91-614, TTB participated in the Treasury’s Working
Capital Fund for which it receives services on a reimbursable basis. Payments from TTB to
Treasury are made in advance and are authorized for services that have been deemed as more
advantageous and more economical when provided centrally. The services provided include
those for telecommunications, payroll/personnel systems, printing, and other centralized
services. The amount reported represents the balance available at the end of the fiscal year after
charges/expenses incurred by the fund are deducted.




                                                 95
                                    TTB 2012 Annual Report


J. Non-entity Assets

Non-entity assets consist primarily of cash and receivables for excise taxes and fees that are to be
distributed to the Treasury, other Federal agencies, and other governments. Non-entity assets
are not considered a financing source (revenue) available to offset the operating expenses of TTB.

K. Liabilities

Liabilities represent the amount of monies, or other resources, that are likely to be paid by TTB as
the result of a transaction or event that has already occurred. However, no liability can be paid by
TTB absent an appropriation. Liabilities for which an appropriation has not been enacted and for
which there is uncertainty an appropriation will be enacted, are classified as a liability not covered
by budgetary resources. Also, the Government, acting in its sovereign capacity, can abrogate
liabilities of TTB that arise from other than contracts.

Intragovernmental liabilities consist of amounts payable to the Treasury for collections of excise
tax, fees receivable, payments to other Federal agencies, and accrued Federal Employees’
Compensation Act (FECA) charges. Liabilities also include amounts due to be refunded to
taxpayers, as well as amounts held in escrow for Offers-in-Compromise and cash bonds held in
guaranteeing payment of taxes.

L. Litigation Contingencies and Settlements

Probable and estimable litigation and claims against TTB are recognized as a liability and expense
for the full amount of the expected loss. Expected litigation and claim losses include settlements
to be paid from the Treasury Judgment Fund (Judgment Fund) on behalf of TTB and settlements
to be paid from Bureau appropriations. The Judgment Fund pays Bivens-type tort claims.
Settlements paid from the Judgment Fund for TTB are recognized as an expense and imputed
financing source.

M. Annual, Sick, and Other Leave

Annual and compensatory leave earned by TTB employees, but not yet used, is reported as an
accrued liability. The accrued balance is adjusted annually to current pay rates. Any portions of
the accrued leave, for which funding is not available, are recorded as an unfunded liability. Sick
and other leave are expensed as taken.

N. Interest on Late Payments

Pursuant to the prompt payment Act, 31 # U.S.C. & 3901-3907, Federal agencies must pay
interest on payments for goods or services made to business concerns after their due date. The
due date is generally 30 days after receipt of a proper invoice or acceptance of the goods or
services.




                                                 96
                                   TTB 2012 Annual Report


O. Retirement Plan

Employees hired after December 31, 1983, are automatically covered by FERS and Social Security.
For most employees hired after December 31, 1983, TTB also contributes the employers’
matching share of Social Security. For the FERS basic benefit, employees contribute 0.8 percent of
basic pay while TTB contributes 11.2 percent, for a total contribution rate of 12.0 percent in FY
2012, as well as FY 2011. The cost of providing a FERS basic benefit, as provided by the Office of
Personnel Management (OPM), is equal to the amounts contributed by TTB and the employees.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and TTB makes a mandatory 1
percent contribution to this account. In addition, TTB makes matching contributions, ranging
from 1 to 4 percent, for FERS-eligible employees who contribute to their TSP accounts. Matching
contributions are not made to the TSP accounts established by CSRS employees.

TTB recognized the full cost of providing future pension and other retirement benefits (ORB) for
current employees as required by Statement of Federal Financial Accounting Standards (SFFAS)
No. 5. Full cost includes pension and ORB contributions paid out of Bureau appropriations and
costs financed by OPM. Costs financed by OPM are reported in the accompanying financial
statements as an imputed financing revenue source. Reporting amounts such as plan assets,
accumulated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

P. Federal Employees’ Compensation Act

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job and employees who have incurred a work-
related injury or occupational disease. The future workers’ compensation estimates were
generated from an application of actuarial procedures developed to estimate the liability for FECA
benefits. The actuarial liability estimates for FECA benefits include the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
is determined using the paid losses extrapolation method, which is calculated over the next 37-
year period. This method utilizes historical benefit patterns related to a specific incurred period
to predict ultimate payments related to that period.

Claims are paid for TTB employees by the Department of Labor (DOL) from the FECA fund, for
which TTB reimburses DOL. The accrued liability represents claims paid by DOL for TTB
employees, for which the fund has not been reimbursed. The actuarial liability is an estimate of
future costs to be paid on claims made by TTB employees. The estimated future cost is not
obligated against budgetary resources until the year in which the cost is billed to TTB.




                                                97
                                   TTB 2012 Annual Report


Q. Use of Estimates

The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amount of assets and liabilities, as well as the disclosure of
contingent liabilities at the date of the financial statements, and the amount of revenues and cost
reported during the period. Actual results could differ from those estimates.

R. Tax Exempt Status

As an agency of the Federal Government, TTB is exempt from all income taxes imposed by any
governing body, whether it is a Federal, state, commonwealth, local, or foreign government.

S. Changes in Presentation

In FY 2012, changes to the presentation of the Statements of Budgetary Resources were made, in
accordance with guidance provided in OMB Circular A-136 and as such, activity and balances
reported on the FY 2011 Statement of Budgetary Resources has been changed to conform to the
presentation in the current year.

T. Subsequent Events

Subsequent events and transaction occurring after September 30, 2012 through the date of the
auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
statements. The date of the auditors’ opinion also represents the date that the financial
statements were available for issue.




                                                98
                                      TTB 2012 Annual Report


Note 2. Fund Balance with Treasury

Fund Balance with Treasury as of September 30, 2012 and 2011 consisted of the following (in thousands):



                                                               2012           2011

Fund Balances:
 General Funds                                             $ 21,302         $ 24,726
 Other Funds                                                 13,129           13,140
   Total                                                   $ 34,431         $ 37,866

Status of Fund Balances:
 Unobligated Balance - Available                           $    398         $ 1,758
 Unobligated Balance - Unavailable                            2,718            1,760
 Obligated Balance Not Yet Disbursed                         18,186           21,208
   Subtotal                                                  21,302           24,726
 Adjustment for Non-Budgetary Funds                          13,129           13,140
   Total Status of Fund Balances                           $ 34,431         $ 37,866



The other funds and non-budgetary fund balance primarily represents cash bonds, which are cash
payments made to the Bureau by taxpayers, in lieu of obtaining corporate surety bonds,
guaranteeing payment of taxes. It also includes Offers-in-Compromise (OIC). OICs are payments
made to the Bureau, being held in escrow, to finance offers from taxpayers to settle their tax debt
at less than the assessed amount.

The unobligated balance that is unavailable is the balance of prior years’ expired appropriations.




                                                   99
                                    TTB 2012 Annual Report


Note 3. Accounts Receivable
Accounts Receivable as of September 30, 2012 and 2011 consisted of the following (in thousands):



                                                                         2012         2011

Intragovernmental Accounts Receivable:
  Due from Treasury Executive Office of Asset Forfieture                $  68        $  82
  Due from Community Financial Development Institutions Fund              194          246
  Due from General Services Administration                                -             24
    Total Intragovernmental Accounts Receivable                         $ 262        $ 352

  Due from the Government of Puerto Rico                                $ 436        $ 479
  Due from Employees                                                        8            5
   Total Accounts Receivable Due from the Public                        $ 444        $ 484


No allowance for doubtful accounts has been recognized, nor have any accounts been written off.
All intragovernmental accounts receivable are considered fully collectible. Additionally, other
non-Federal receivables consist of a receivable from the government of Puerto Rico, which is
collected via an offset to cover-over payments the Bureau remits to Puerto Rico, and employee
accounts receivable, which can be collected via salary offsets.


Note 4. Tax and Trade Receivables, Net

Tax and Trade Receivables as of September 30, 2012 and 2011 consisted of the following
(in thousands):


                                                                      2012               2011

Tax and Trade Receivables                                          $ 59,965         $ 24,201
Interest Receivable                                                    5,019            4,292
Penalties, Fines and Administrative Fees Receivable                   15,490            6,069
  Total Tax and Trade Receivables                                     80,474           34,562
Allowance for Doubtful Accounts                                      (60,140)         (30,252)
  Total Tax and Trade Receivables, Net                             $ 20,334         $ 4,310


All tax and trade receivables are non-entity assets. An allowance for uncollectible amounts has
been established based on: 1) an analysis of individual receivable balances and 2) the application
of historical non-collection rates for similar types of receivables. Because current laws governing
the collection period for these tax assessments, 26 U.S.C. 6502, stipulate taxes are collectible for
10 years from the date the taxes were assessed, a large amount of aged receivables that are not
likely to be collected have been offset with an allowance, but not written off. This is an offsetting
liability reported as Due to the General Fund.

                                                100
                                    TTB 2012 Annual Report



The increase in gross receivables is largely related to new receivables with one taxpayer,
approximating $36 million.


Note 5. Due from the General Fund and Due to the General Fund

In addition to collecting taxes from the alcohol and tobacco industries, the Bureau also is
responsible for paying refunds, when applicable, to those same industry members. Amounts due
from the General Fund represent a receivable from appropriations to cover the Bureau’s accrued
refund liability to alcohol and tobacco excise taxpayers.


                                            2012                    2011

Due from the General Fund               $      2,873            $    2,022
(in thousands)


Amounts due to the General Fund primarily represent the balance of receivables related to
Alcohol and Tobacco excise taxes. Receivables related to Firearms and Ammunition excise taxes
are payable to the Department of Interior’s Fish and Wildlife Restoration Fund, not the General
Fund.



                                            2012                    2011

Due to the General Fund                 $     18,851            $    4,246
(in thousands)




                                                101
                                   TTB 2012 Annual Report


Note 6. Property, Plant, and Equipment, Net (PP&E)

Property, Plant and Equipment as of September 30, 2012 and 2011 consisted of the following
(in thousands):


                             Estimated Useful    Acquisition Accumulated     Net
2012                           Life (Years)        Value     Depreciation Book Value

Internal Use Software               3-5           $ 13,644      $  5,542       $  8,102
Equipment                           4-6             11,064         6,792          4,272
Leasehold Improvements              2-5              1,134           825            309
Building                            40               9,772         2,102          7,670
  Total PP&E                                      $ 35,614      $ 15,261       $ 20,353

                             Estimated Useful    Acquisition Accumulated     Net
2011                           Life (Years)        Value     Depreciation Book Value

Internal Use Software               3-5           $ 13,625      $  4,770       $  8,855
Equipment                           4-6              9,034         5,596          3,438
Leasehold Improvements              2-5                796           562            234
Building                            40               9,772         1,848          7,924
  Total PP&E                                      $ 33,227      $ 12,776       $ 20,451


Depreciation and amortization are calculated using the straight-line method.

The balance in the buildings account represents TTB’s 13.2 percent equity interest in the National
Laboratory Center facility in Beltsville, Maryland, which TTB co-owns with ATF.




                                                102
                                      TTB 2012 Annual Report


Note 7. Advances

Intragovernmental advances consist of the balances paid to Treasury’s Working Capital Fund that
have not yet been earned and billed by the fund. Advances with the public generally consist of
prepaid services agreements for support or maintenance.


Note 8. Non-entity Assets

Non-entity Assets as of September 30, 2012 and 2011 consisted of the following (in thousands):

                                                                   2012             2011

Intragovernmental Non-entity Assets:
  Fund Balance with Treasury                                     $ 13,129         $ 13,140
  Due from the General Fund                                         2,873            2,022
    Total Intragovernmental Non-entity Assets                      16,002           15,162
  Tax and Trade Receivables, Net                                   20,334            4,310
  Total Non-Entity Assets                                          36,336           19,472

  Total Entity Assets                                               43,156          46,842

Total Assets                                                     $ 79,492         $ 66,314


Note 9. Other Liabilities

Other Liabilities as of September 30, 2012 and 2011 consisted of the following (in thousands):



                                                                2012             2011

Due to the Fish and Wildlife Fund                           $    1,483       $          61
 Other Intragovernmental Liabilities                             1,483                  61

Offers-in-Compromise not yet Accepted                             560               693
 Total Other Liabilities with the Public                          560               693

Total Other Liabilities                                     $    2,043       $      754



All Other Liabilities are considered current liabilities.




                                                   103
                                   TTB 2012 Annual Report


Note 10. Liabilities Not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources as of September 30, 2012 and 2011 consisted of
the following (in thousands):


                                                                      2012            2011

Accrued FECA Liability                                            $       39      $           36
 Total Intragovernmental Liabilities not Covered by
   Budgetary Resources                                                    39                  36

FECA Actuarial Liability                                                 228             308
Accrued Leave                                                          4,233           4,346
 Total Liabilities with the Public not Covered by
   Budgetary Resources                                                 4,461           4,654

Total Liabilities not Covered By Budgetary Resouces                    4,500           4,690

Total Liabilities Covered by Budgetary Resources                      42,764          29,248

Total Liabilities                                                 $ 47,264        $ 33,938


Note 11. Future Funding Requirements

Total liabilities not covered by budgetary resources generally do not equal the total financing
sources yet to be provided on the Reconciliation of Net Cost of Operations to Budget. The
amounts reported on the Balance Sheet are period ending balances, while the amounts reported
on the Reconciliation of Net Cost of Operations to Budget are activity for the period.

Generally, liabilities not covered by budgetary resources require future funding and can be
liquidated only with the enactment of future appropriations.




                                               104
                                    TTB 2012 Annual Report


Note 12. Imputed Financing

Imputed Financing as of September 30, 2012 and 2011 consisted of the following (in thousands):



                                                      2012             2011

Health Insurance                                 $     2,440       $    2,613
Life Insurance                                             8                8
Pension                                                1,593            1,975
  Total Imputed Financing                        $     4,041       $    4,596


Imputed financing recognizes actual cost of future benefits to be paid by other Federal entities.
These benefits include Federal Employees Health and Benefits Program (FEHB), Federal
Employees Group Life Insurance Program (FEGLI), and pensions. Imputed financing also
recognizes costs paid by the Judgment Fund. The Fund was established and funded by Congress
under 31 U.S.C. 1304 to pay in whole or in part court judgments and settlement agreements
negotiated by Treasury on behalf of agencies, as well as certain types of administrative awards.
The Judgment Fund did not pay out any awards on TTB’s behalf during fiscal years 2012 or 2011.
TTB does not report CSRS assets, FERS assets, accumulated plan benefits, or unfunded liabilities, if
any, applicable to retirement plans because the accounting for and reporting of such amounts is
the responsibility of OPM. Based on cost factors provided by OPM, which vary by retirement
plan, estimated future pension benefits for TTB employees, to be paid by OPM, totaled $1.6
million and $2.0 million for fiscal years 2012 and 2011 respectively. Similarly, OPM rather than
TTB, reports liabilities for future payments to retired employees who participate in the FEHB and
FEGLI programs. The FEHB cost factor applied to a weighted average number of employees
enrolled in the FEHB program decreased in FY 2012 to $5,817 from $6,027 in FY 2011, producing
$2.4 million and $2.6 million of imputed cost for employees’ health benefits in each respective
year. The cost factor, as provided by OPM, for employees enrolled in the FEGLI program,
remained unchanged from FY 2011 to FY 2012, at .02 percent of employees’ basic pay. The FEGLI
amounts totaling $8,000 each are also included as an expense and imputed financing source in
TTB financial statements for fiscal years 2012 and 2011, respectively.




                                                105
                                      TTB 2012 Annual Report


    Note 13. Consolidated Gross Cost and Earned Revenue by Budget Functional
    Classification

    Consolidated Gross Cost and Earned Revenue by Budget Function Classification as of
    September 30, 2012 and 2011 consisted of the following (in thousands):


Fiscal Year Ended September 30, 2012

                         Budget Function         BFC        Gross        Earned            Net
Activity               Classification (BFC)      Code       Costs        Revenue          Costs

Intragovernmental   Central Fiscal Operations     803     $ 28,424       $ (1,505)       $ 26,919
With the Public     Central Fiscal Operations     803        79,826        (3,056)          76,770
Consolidated        Central Fiscal Operations     803     $ 108,250      $ (4,561)       $ 103,689

Fiscal Year Ended September 30, 2011

                         Budget Function         BFC        Gross        Earned            Net
Activity               Classification (BFC)      Code       Costs        Revenue          Costs

Intragovernmental   Central Fiscal Operations     803     $ 29,709       $   (539)       $ 29,170
With the Public     Central Fiscal Operations     803        78,579        (3,097)          75,482
Consolidated        Central Fiscal Operations     803     $ 108,288      $ (3,636)       $ 104,652




                                                 106
                                      TTB 2012 Annual Report


Note 14. Statement of Budgetary Resources vs. Budget of the United States
Government

The following chart displays balances from the FY 2011 Statement of Budgetary Resources and
actual fiscal year balances included in the FY 2013 President’s Budget. There were no
differences. The FY 2014 budget, which would include FY 2012 actuals, had not been published at
the time of this report.


Fiscal Year Ended September 30, 2011                           Statement of
(In Millions / Unaudited)                                       Budgetary       President's
                                                                Resources         Budget

Budgetary Resources Available for Obligation                   $       108     $        108

Status of Budgetary Resources Available for Obligation:
   Obligations Incurred                                        $       107     $        107
   Unobligated Balance Carried Forward, End of Year                      2                2
Total Status of Budgetary Resources Available for Obligation   $       109     $        109

Net Outlays                                                    $       101     $        101


Additionally, the FY 2013 President’s Budget disclosed budget authority of $452 million for FY
2011, funding cover-over payments to Puerto Rico, which is not reported in the Statement of
Budgetary Resources.

The cover-over payments and associated tax revenues are reported as custodial activity of the
Bureau. The tax revenues are not available for use in the operation of the Bureau and are not
reported on the Statement of Net Cost. Likewise, the resultant cover-over payments are not
recognized as an operating expense of the Bureau. Consequently, to present the refunds as an
expense of the Bureau on the Statement of Net Cost would be inconsistent with the reporting of
the related Federal tax revenue and would materially distort the costs incurred by the Bureau in
meeting its strategic objectives. Further, since this activity is not reported on the Statement of
Net Cost, it would be contradictory to report the budget authority on the Statement of Budgetary
Resources.




                                                   107
                                   TTB 2012 Annual Report


Note 15. Apportionment Categories of Obligations Incurred

Obligations Incurred as of September 30, 2012 and 2011 consisted of the following (in thousands):


                                                                                   Total
       Fiscal          Apportionment          Direct         Reimbursable       Obligations
        Year             Category           Obligations       Obligations        Incurred

2012                     Category B         $ 100,769        $       7,152      $   107,921

2011                     Category B         $ 103,038        $       3,955      $   106,993


The amount of direct and reimbursable obligations against amounts apportioned under Category
B is reported in the table above. Apportionment categories are determined by the
apportionment categories reported on the Standard Form 132 Apportionment and
Reapportionment Schedule. Category B represents annual apportionments.



                                                      2012             2011

Undelivered Orders End of Period                     $ 16,185        $ 13,813


Note 16. Net Custodial Revenue Activity

• Excise Taxes
  As an agent of the Federal Government and as authorized by 26 U.S.C., TTB collects excise
  taxes from alcohol, tobacco, firearms, and ammunition industries. In addition, special
  occupational taxes are collected from certain alcohol and tobacco businesses. During FY 2012
  and FY 2011, TTB collected $23.4 billion and $23.5 billion respectively in taxes, interest, and
  other custodial revenues.

   Substantially all of the taxes collected by TTB net of related refund disbursements are remitted
   to the Department of Treasury General Fund. The Department of Treasury further distributes
   this revenue to Federal agencies in accordance with various laws and regulations. The firearms
   and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and
   Wildlife Restoration Fund under provisions of the Pittman-Robertson Act of 1937.




                                               108
                                    TTB 2012 Annual Report


• Refunds and Other Payments

  During FY 2012 and FY 2011, TTB issued $709 million and $802 million in refunds, cover-over
  payments, and drawback payments in the respective years.

  Tax Refunds

  Tax Refunds result when taxpayers file returns for payments made for a given tax period and
  the result of the return is an overpayment.

  Cover-over Payments

  Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on
  certain articles produced in Puerto Rico and the Virgin Islands, and imported into the United
  States. In accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the
  United States are custodial revenues and “covered over,” or paid into, the treasuries of Puerto
  Rico and the Virgin Islands.

  TTB maintains operations in Puerto Rico to enforce the provisions of chapter 51 in respect to
  items of Puerto Rican manufacture brought in to the United States. These operations include
  conducting annual revenue, application, and product integrity investigations of large alcohol
  and tobacco industry members. Except for application investigations, TTB investigates medium
  and small alcohol and tobacco producers in response to specific problems and risk indicators.
  Revenue inspections are used to verify that TTB is collecting all of the revenue that is rightfully
  due from the taxpayer. TTB staff in Puerto Rico also conducts qualification inspections of all
  distilled spirits producers/processors, wineries, wholesalers, importers, Manufacturer of
  Nonbeverage Products (MNBP) claimants, and Specially Denatured Alcohol permit applicants.
  All costs associated with the functioning and supporting of the Puerto Rico office, $3.1 and
  $3.0 million in FY 2012 and FY 2011 respectively, are offset against the cover-over payments
  made by the United States to Puerto Rico.

  Drawbacks

  Under current law, 26 U.S.C. 5134, MNBP permittees may be eligible to claim a refund of tax
  paid on distilled spirits used in their products. In the case of distilled spirits, on which the tax
  has been paid or determined, a drawback shall be allowed on each proof gallon at the rate of
  $1 less than the rate at which the distilled spirits tax had been paid or determined. The refund
  is due upon the claimant providing evidence that the distilled spirits on which the tax has been
  paid or determined were unfit for beverage purposes and were used in the manufacture or
  production of medicines, medicinal preparations, food products, flavors, flavoring extracts, or
  perfume.




                                                109
                                           TTB 2012 Annual Report


Refunds, Drawbacks and Cover-over Payments as of September 30, 2012 and 2011 consisted of
the following (in thousands):


                                                                           2012                   2011

Alcohol and Tobacco Excise Tax Refunds                                 $ 30,293              $ 33,414
Drawbacks on MNBP Claims                                                289,330               306,584
Interest and Other Payments                                               3,824                   418
    Refunds and Drawbacks                                               323,447               340,416

Cover-over Payments - Puerto Rico                                          376,373                452,040
Cover-over Payments - Virgin Islands                                         9,337                  9,592
  Amounts Provided to Non-federal Entities                                 385,710                461,632

Total Refunds, Drawbacks and Coverover Payments                        $ 709,157             $ 802,048


Note 17. Custodial Revenue

Collection and Disposition of Custodial Revenue as of September 30, 2012 and 2011 consisted of
the following (in thousands):

FY 2012 Collections and Refunds by Tax Year

                                                                                     Pre-               FY 2012
Revenue Type                        2012            2011            2010             2010                Total

Excise Taxes                  $ 17,158,574      $ 6,209,558     $     3,510    $       7,302        $ 23,378,944
Fines, Penalties,
   Interest and Other                    246              371           184              136                   937
Total Revenue Received            17,158,820        6,209,929         3,694            7,438            23,379,881
Less: Amounts Collected
   for Non-federal Entities       (385,710)               -               -                -            (385,710)
Total                         $ 16,773,110      $ 6,209,929     $     3,694    $       7,438        $ 22,994,171

Refund Type

Excise Taxes                  $     159,021     $    155,721    $     1,011    $       7,107        $     322,860
Fines, Penalties,
   Interest and Other                   587                -              -                -                  587
Total Refunds & Drawbacks     $     159,608     $    155,721    $     1,011    $       7,107        $     323,447

Amounts Provided to Fund
  the Federal Government      $ 16,613,502      $ 6,054,208     $     2,683    $            331     $ 22,670,724




                                                      110
                                            TTB 2012 Annual Report


FY 2011 Collections and Refunds by Tax Year


FY 2011 Collections and Refunds by Tax Year
                                                                                     Pre-             FY 2011
Revenue Type                         2011            2010            2009            2009              Total

Excise Taxes                   $ 17,199,511      $ 6,240,989     $     9,052     $      7,497     $ 23,457,049
Fines, Penalties,
   Interest and Other                   3,736              466            64               95              4,361
Total Revenue Received             17,203,247        6,241,455         9,116            7,592         23,461,410
Less: Amounts Collected
   for Non-federal Entities        (461,632)               -               -                -         (461,632)
Total                          $ 16,741,615      $ 6,241,455     $     9,116     $      7,592     $ 22,999,778

Refund Type

Excise Taxes                   $     165,693     $    162,377    $    11,744     $          429   $     340,243
Fines, Penalties,
   Interest and Other                    173                -              -                  -             173
Total Refunds & Drawbacks      $     165,866     $    162,377    $    11,744     $          429   $     340,416

Amounts Provided to Fund
  the Federal Government       $ 16,575,749      $ 6,079,078     $     (2,628)   $      7,163     $ 22,659,362




Note 18. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget explains the difference between the
budgetary net obligations and the proprietary net cost of operations.

Reconciliation of Net Cost of Operations to Budget, as of September 30, 2012 and 2011 consisted
of the following (in thousands):


                                                                                     2012             2011

Resources Used to Finance Activities
   Budgetary Resources Obligated
      Obligations Incurred                                                       $ 107,921        $ 106,993
      Less: Spending Authority from Offsetting Collections
          and Recoveries                                                             (8,109)           (5,586)
      Obligations Net of Offsetting Collections and Recoveries                       99,812           101,407
      Less: Offsetting Receipts                                                          (3)              (10)
      Net Obligations                                                                99,809           101,397
   Other Resources
      Transfers-in without Reimbursement                                                91              231
      Imputed Financing from Costs Absorbed by Others                                4,041            4,596
      Net Other Resources Used to Finance Activities                                 4,132            4,827
   Total Resources Used to Finance Activities                                    $ 103,941        $ 106,224




                                                       111
                                     TTB 2012 Annual Report



Resources Used to Finance Items not Part of the
 Net Cost Of Operations
      Change in Budgetary Resources Obligated for Goods, Services
          and Benefits Ordered but not Yet Provided (+/-)             $     181      $    523
      Resources that Fund Expenses Recognized in Prior Periods              193            42
      Other Budgetary Offsetting Collections and Receipts that
          do not Affect Net Cost of Operations                               88            221
      Resources that Finance the Acquisition of Assets                    3,625          3,311
      Other Resources or Adjustments to Net Obligated Resources
          that do not Affect Net Cost of Operations (+/-)                   (91)          (241)
   Total Resources Used to Finance Items not Part of the Net
    Cost of Operations                                                $   3,996      $   3,856

Total Resources Used to Finance the Net Cost of Operations            $ 99,945       $ 102,368

Components of the Net Cost of Operations Requiring
 or Generating Resources in Future Periods
   Components Requiring or Generating Resources in Future Periods:
      Other (+/-)                                                              -          176
   Total Components of Net Cost of Operations that will Require
      or Generate Resources in Future Periods                         $        -     $    176

Components of the Net Cost of Operations not Requiring
 or Generating Resources
      Depreciation and Amortization                                   $   3,744      $   2,108
   Total Components of Net Cost of Operations that will not Require
      or Generate Resources                                           $   3,744      $   2,108

   Total Components of Net Cost of Operations that will not Require
      or Generate Resources in the Current Period                     $   3,744      $   2,284

NET COST OF OPERATIONS                                                $ 103,689      $ 104,652


Note 19: Contingent Liabilities

As of September 30, 2012, TTB is not party to any legal matters where the estimated loss would
be of a material amount.




                                                  112
                                       TTB 2012 Annual Report


Required Supplementary Information (Unaudited)

Budgetary Information

Budgetary information aggregated for the purposes of the Statement of Budgetary Resources
should be disaggregated for each of an entity’s major budget accounts (i.e., Appropriated Funds,
Trust Funds, Revolving Funds, or other funds) and presented as Supplementary Information.
However, for proprietary reporting, TTB only has appropriated funds. Consequently, a Combining
Statement of Budgetary Resources disaggregated by fund type has not been presented.

Excise Tax and Other Collections

                                 Required Supplementary Information
                            Excise Tax and Other Collections by Fiscal Year
                                      Unaudited (In Thousands)

    Fiscal
     Year       Alcohol       Tobacco         FAET           SOT           FST          Other       Total

     2003     $ 6,910,631    $ 7,380,807    $ 193,414      $ 103,781   $    1,628   $        -     14,590,261
     2004       6,995,366       7,433,852     216,006        100,562            -          359     14,746,145
     2005       7,074,076       7,409,608     225,818         10,190            9          141     14,719,842
     2006       7,182,940       7,350,058     249,578          2,895          638          146     14,786,255
     2007       7,232,138       7,194,081     287,835          2,808            -           32     14,716,894
     2008       7,420,576       6,851,705     312,622            448            -          634     14,585,985
     2009       7,424,292      11,548,504     452,693            272    1,192,375          970     20,619,106
     2010       7,476,789      15,913,479     360,813            300        8,558          180     23,760,119
     2011       7,594,330      15,515,073     344,262            268        5,220        2,257     23,461,410
     2012       7,856,391      15,002,616     514,622            249        5,942           61     23,379,881
    Average   $ 7,316,753    $ 10,159,978   $ 315,766      $ 22,177    $ 121,437    $      478   $ 17,936,590



FAET – Firearms and Ammunition Excise Tax
SOT – Special Occupational Tax
FST – Floor Stocks Tax

The sharp decrease in SOT tax collections was the result of a new law that became effective
during fiscal year 2005 that suspended the collection of most of the taxes. The law became
permanent in 2008.

TTB collects FAET taxes on behalf of the Department of Interior, U.S. Fish and Wildlife Service, and
deposits the collections directly into the Fish and Wildlife Restoration Fund. During fiscal years
2012 and 2011, TTB incurred $1.7 million and $1.5 million respectively of direct and indirect costs
associated with collecting the FAET taxes. The law currently does not provide for TTB to recover
these costs. The cost of the program was communicated to the U.S. Fish and Wildlife Service so
the agency could properly record an imputed cost in its financial records.




                                                     113
                                        TTB 2012 Annual Report


Refunds, Cover-over Payments, and Drawback Payments

                              Required Supplementary Information
               Refunds, Cover-over Payments and Drawback Payments by Fiscal Year
                                    Unaudited (In Thousands)

  Fiscal   Cover-over     Cover-over        A&T          Drawbacks      Interest
   Year    Puerto Rico   Virgin Islands   Excise Tax    MNBP Claims    and Other       Total

  2003     $   356,144    $     6,405     $   15,168     $   296,168   $   2,011   $   675,896
  2004         335,293          6,244         15,409         355,605       1,216       713,767
  2005         419,602          6,010         18,504         317,132       2,100       763,348
  2006         358,664          6,491         17,524         337,632         699       721,010
  2007         459,278          8,054         13,208         335,706         972       817,218
  2008         373,418          7,615         14,125         283,462       2,938       681,558
  2009         472,695          8,624         17,791         268,612         252       767,974
  2010         378,186          8,871         28,232         297,596         315       713,200
  2011         452,040          9,592         33,414         306,584         418       802,048
  2012         376,373          9,337         30,293         289,330       3,824       709,157
 Average   $   398,169    $     7,724     $   20,367     $   308,783   $   1,475   $   736,518



A&T – Alcohol and Tobacco
MNBP – Manufacturer of Nonbeverage Products
Note – During December 2010, the Puerto Rico cover-over rate was increased from $10.50 per
proof gallon to $13.25 per proof gallon, with retroactive provisions, resulting in a substantial
increase in the Puerto Rico cover-over payments in FY 2011. The increased rate expired
December 31, 2011.




                                                  114
                                    TTB 2012 Annual Report


Other Accompanying Information (Unaudited)
                                Other Accompanying Information
                                       Schedule of Spending
                        For the Years Ended September 30, 2012 and 2011
                                    Unaudited (In Thousands)


                                                                        2012         2011

 What Money is Available to Spend
 Total Resources                                                      $ 111,037    $ 110,511
  Less: Amount Available but not Agreed to be Spent                        (398)      (1,758)
  Less: Amount Not Available to Be Spent                                 (2,718)      (1,760)
 Total Amounts Agreed to be Spent                                     $ 107,921    $ 106,993

 How was the Money Spent
 Collect the Revenue
  Object Class 11: Personnel Compensation                             $ 23,722     $ 24,149
  Object Class 12: Personnel Benefits                                    6,730        6,652
  Object Class 21: Travel                                                1,757        1,728
  Object Class 23: Rent, Utilities, and Telecommunications Services      3,475        3,579
  Object Class 25: Contractual Services                                 15,878       15,014
  Object Class 31: Equipment and Software                                3,255        2,891
  Other                                                                    713          532
 Total Collect the Revenue                                              55,530       54,545

 Protect the Public
  Object Class 11: Personnel Compensation                                 22,998     23,284
  Object Class 12: Personnel Benefits                                      6,330      6,306
  Object Class 21: Travel                                                    634        899
  Object Class 23: Rent, Utilities, and Telecommunications Services        3,273      3,268
  Object Class 25: Contractual Services                                   14,734     12,822
  Object Class 31: Equipment and Software                                  3,556      3,339
  Other                                                                      565        409
 Total Protect the Public                                                 52,090     50,327

 Total Spending                                                         107,620      104,872
 Amounts Remaining to be Spent                                              301        2,121
 Total Amounts Agreed to be Spent                                     $ 107,921    $ 106,993




                                                 115
                                     TTB 2012 Annual Report


Intragovernmental Assets

                                  Other Accompanying Information
                                     Intragovernmental Assets
                                     As of September 30, 2012
                                     Unaudited (In Thousands)

                                    Agency   Fund Balance        Accounts
     Trading Partner                 Code     W/ Treasury        Receivable        Advances

     Department of the Treasury       20      $              -   $      262    $         751
     General Fund                     99                34,431        2,873                -
               Total                          $         34,431   $    3,135    $         751



                                  Other Accompanying Information
                                     Intragovernmental Assets
                                     As of September 30, 2011
                                     Unaudited (In Thousands)

                                    Agency   Fund Balance        Accounts
    Trading Partner                  Code     W/ Treasury        Receivable        Advances

    Department of the Treasury        20     $               -   $       352   $         829
    General Fund                      99                37,866         2,022               -
              Total                          $          37,866   $     2,374   $         829




                                                  116
                                         TTB 2012 Annual Report


Intragovernmental Liabilities

                                      Other Accompanying Information
                                        Intragovernmental Liabilities
                                          As of September 30, 2012
                                          Unaudited (In Thousands)

                                               Agency       Accounts        Accrued     Custodial and
    Trading Partner                             Code         Payable         FECA      Other Liabilities

    Government Printing Office                   04         $     26    $          -   $              -
    Department of the Interior                   14                -               -              1,483
    Department of Justice                        15              330               -                  -
    Department of Labor                          16                -              39                  -
    Department of the Treasury                   20                -               -                  -
    Office of Personnel Management               24                -               -                480
    General Services Administration              47              123               -                  -
    Treasury General Fund                        99                1               -             18,851
                        Total                               $    480    $         39   $         20,814




                                      Other Accompanying Information
                                        Intragovernmental Liabilities
                                          As of September 30, 2011
                                          Unaudited (In Thousands)

                                               Agency       Accounts        Accrued     Custodial and
   Trading Partner                              Code         Payable         FECA      Other Liabilities

   Government Printing Office                    04         $     154   $          -   $               -
   Department of the Interior                    14                 -              -                  61
   Department of Justice                         15               150              -                   -
   Department of Labor                           16                 -             36                   -
   Department of the Treasury                    20                36              -                   -
   Office of Personnel Management                24                 -              -                 476
   General Services Administration               47               158              -                   -
   Treasury General Fund                         99                 2              -               4,411
                       Total                                $     500   $         36   $           4,948




                                                      117
                              TTB 2012 Annual Report


Intragovernmental Earned Revenue

                            Other Accompanying Information
                           Intragovernmental Earned Revenue
                For the Fiscal Years Ended September 30, 2012 and 2011
                                Unaudited (In Thousands)


                                   Agency
  Trading Partner                   Code                 2012                2011

  Department of Treasury              20             $      1,500        $      514
  Department of Justice               15                        5                 -
  GSA                                 47                        -                25
   Total                                             $      1,505        $      539


  Budget Function                    BFC
  Classification (BFC)               Code                2012                2011

  Central Fiscal Operations           803            $      1,505        $      539
   Total                                             $      1,505        $      539




                                         118
                                   TTB 2012 Annual Report


Intragovernmental Gross Cost

                                Other Accompanying Information
                                  Intragovernmental Gross Cost
                    For the Fiscal Years Ended September 30, 2012 and 2011
                                    Unaudited (In Thousands)


                                                     Agency
   Trading Partner                                    Code          2012              2011

   Library of Congress                                 03       $        68       $        69
   Government Printing Office                          04               160               257
   Department of Interior                              14                75                 -
   Department of Justice                               15               742               651
   Department of Labor                                 16                19                16
   United States Postal Services                       18                54                44
   Department of State                                 19                 1                 1
   Department of the Treasury                          20             5,247             6,172
   Office of Personnel Management                      24            12,480            12,914
   General Services Administration                     47             6,020             6,213
   Environmental Protection Agency                     68                20                 8
   Department of Homeland Security                     70               450               362
   Department of Health and Human Services             75                49                 2
   National Archives Records Administration            88                42                30
   Department of Defense                               97               100                95
   General Fund                                        99             2,897             2,875
                       Total                                    $    28,424       $    29,709


During fiscal years 2012 and 2011, TTB incurred costs with other Federal agencies totaling
approximately $28.4 million and $29.7 million, in each year respectively. The majority of those
costs were associated with the five entities detailed below.

• Department of Justice: TTB paid ATF $742,000 and $651,000 in fiscal years 2012 and 2011
  respectively for shared lab space and shared building services.
• Department of the Treasury: The Bureau received services from Treasury’s Working Capital
  Fund, as well as administrative services from the Bureau of Public Debt’s Administrative
  Resource Center, in fiscal years 2012 and 2011 in the amounts of $5.2 million and $6.2 million
  respectively.
• Office of Personnel Management: TTB incurred $12.5 million and $12.9 million in costs for
  employee benefits for fiscal years 2012 and 2011 respectively.
• General Services Administration: TTB paid $6.0 million and $6.2 million to GSA for rent and
  information technology services in fiscal years 2012 and 2011 respectively.
• General Fund: The Bureau paid $2.9 million in each of the respective years for employee
  benefits and lockbox fees.



                                               119
 TTB 2012 Annual Report




Page left intentionally blank.



             120
                                                 TTB 2012 Annual Report



Part IV
Appendices

Principal Officers of TTB

Administrator ............................................................................................................ John Manfreda

Deputy Administrator ...................................................................................................... Mary Ryan

Equal Employment Opportunity and Diversity Advancement ................................. Altivia Jackson

Assistant Administrator, Field Operations ......................................................................Tom Crone

Assistant Administrator, Headquarters Operations ........................................... Theresa McCarthy

Assistant Administrator, Management/CFO.............................................................. Cheri Mitchell

Assistant Administrator, Information Resources/CIO ............................................. Robert Hughes

Executive Liaison for Industry and State Matters ......................................................... Susan Evans

Chief Counsel ........................................................................................................ John Lom (Acting)



                                           For additional information, contact:



                                      Alcohol and Tobacco Tax and Trade Bureau

                                                  1310 G Street, NW, Box 12

                                                    Washington, DC 20005



                                                          (202) 453-2000



                                                      http://www.ttb.gov




                                                                  121
            TTB 2012 Annual Report




TTB Organization Chart




                     122
                                   TTB 2012 Annual Report


Connecting the Treasury and TTB Strategic Plans
       TREASURY GOALS               TTB STRATEGIC GOALS                    TTB OBJECTIVES


  TREASURY STRATEGIC           PROTECT THE PUBLIC (PTP):           PTP 1. BUSINESS INTEGRITY:
  GOAL:                                                            Assure that only qualified
  Enhance U.S.                 Alcohol and tobacco industry        persons and business entities
  Competitiveness and          operators meet permit               operate within the industries TTB
  Promote International        qualifications, and alcohol         regulates
  Financial Stability and      beverage products comply with
  Balanced Global Growth       federal production, labeling, and   PTP 2. PRODUCT INTEGRITY:
                               marketing requirements              Assure that alcohol beverage
  AGENCY PRIORITY GOAL:
                                                                   products comply with Federal
  Increase Electronic
                                                                   production, labeling, and
  Transactions with the
                                                                   advertising requirements
  Public to Improve Service,
  Prevent Fraud, and Reduce
                                                                   PTP 3. MARKET INTEGRITY:
  Costs
                                                                   Assure fair trade practices
                                                                   throughout the alcohol beverage
                                                                   marketplace




Note: TTB revised its goals and objectives in FY 2010, and is operating under these goals until the
publication of its revised strategic plan in FY 2013. The current TTB strategic plan covers the
period of FY 2007 – 2012.




                                                123
                         TTB 2012 Annual Report


    TREASURY GOALS             TTB STRATEGIC GOALS                  TTB OBJECTIVES



TREASURY STRATEGIC GOAL:    COLLECT THE REVENUE (CTR):       CTR 1. TAX VERIFICATION AND
Pursue Comprehensive Tax                                     VALIDATION: Assure voluntary
and Fiscal Reform           Enforce the tax code to ensure   compliance in the timely and
                            proper Federal tax payment       accurate remittance of tax
                            on alcohol, tobacco, firearms,   payments
AGENCY PRIORITY GOAL:       and ammunition products
Increase Voluntary Tax
Compliance                                                   CTR 2. CIVIL AND CRIMINAL
                                                             ENFORCEMENT: Detect and
                                                             address noncompliance, excise
                                                             tax evasion, and other criminal
                                                             violations of the Internal
                                                             Revenue Code in the industries
                                                             TTB regulates




                                   124
                             TTB 2012 Annual Report


    TREASURY GOALS                TTB STRATEGIC GOALS                  TTB OBJECTIVES



TREASURY STRATEGIC           MANAGEMENT AND                    MGT 1. HUMAN CAPITAL
GOAL:                        ORGANIZATIONAL EXCELLENCE         MANAGEMENT: Maintain a
Manage the Government’s      (MGT):                            qualified, engaged, and satisfied
Finances in a Fiscally                                         workforce
Responsible Manner           Maximize performance,
                             efficiency, and program results   MGT 2. TECHNOLOGY
AGENCY PRIORITY GOAL:        through effective resource and    SOLUTIONS: Deliver effective,
Increase Electronic          human capital management          streamlined, and flexible IT
Transactions with the                                          solutions that add value and
Public to Improve Service,                                     support program performance
Prevent Fraud, and Reduce
Costs                                                           MGT 3. FINANCE AND
                                                                PERFORMANCE RESULTS:
                                                                Facilitate strategic
                                                                management and financial
                                                                accountability through the
                                                                delivery of timely and reliable
                                                                financial and performance
                                                                information




                                         125
 TTB 2012 Annual Report




Page left intentionally blank.



             126
